<html>
<title> - DISAPPEARING POLAR BEARS AND PERMAFROST: IS A GLOBAL WARMING TIPPING POINT EMBEDDED IN THE ICE?</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
                      DISAPPEARING POLAR BEARS AND
                    PERMAFROST: IS A GLOBAL WARMING
                   TIPPING POINT EMBEDDED IN THE ICE?

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON INVESTIGATIONS AND
                               OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 17, 2007

                               __________

                           Serial No. 110-64

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.house.gov/science



                     U.S. GOVERNMENT PRINTING OFFICE
38-259 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                 ______

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                 HON. BART GORDON, Tennessee, Chairman
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
MARK UDALL, Colorado                 LAMAR S. SMITH, Texas
DAVID WU, Oregon                     DANA ROHRABACHER, California
BRIAN BAIRD, Washington              ROSCOE G. BARTLETT, Maryland
BRAD MILLER, North Carolina          VERNON J. EHLERS, Michigan
DANIEL LIPINSKI, Illinois            FRANK D. LUCAS, Oklahoma
NICK LAMPSON, Texas                  JUDY BIGGERT, Illinois
GABRIELLE GIFFORDS, Arizona          W. TODD AKIN, Missouri
JERRY MCNERNEY, California           JO BONNER, Alabama
LAURA RICHARDSON, California         TOM FEENEY, Florida
PAUL KANJORSKI, Pennsylvania         RANDY NEUGEBAUER, Texas
DARLENE HOOLEY, Oregon               BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
JIM MATHESON, Utah                   MICHAEL T. MCCAUL, Texas
MIKE ROSS, Arkansas                  MARIO DIAZ-BALART, Florida
BEN CHANDLER, Kentucky               PHIL GINGREY, Georgia
RUSS CARNAHAN, Missouri              BRIAN P. BILBRAY, California
CHARLIE MELANCON, Louisiana          ADRIAN SMITH, Nebraska
BARON P. HILL, Indiana               PAUL C. BROUN, Georgia
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
                                 ------                                

              Subcommittee on Investigations and Oversight

               HON. BRAD MILLER, North Carolina, Chairman
JERRY F. COSTELLO, Illinois          F. JAMES SENSENBRENNER JR., 
EDDIE BERNICE JOHNSON, Texas             Wisconsin
DARLENE HOOLEY, Oregon               DANA ROHRABACHER, California
STEVEN R. ROTHMAN, New Jersey        DAVID G. REICHERT, Washington
BRIAN BAIRD, Washington              PAUL C. BROUN, Georgia
BART GORDON, Tennessee               RALPH M. HALL, Texas
                DAN PEARSON Subcommittee Staff Director
                  EDITH HOLLEMAN Subcommittee Counsel
            JAMES PAUL Democratic Professional Staff Member
          DOUG PASTERNAK Democratic Professional Staff Member
           KEN JACOBSON Democratic Professional Staff Member
            TOM HAMMOND Republican Professional Staff Member
                    STACEY STEEP Research Assistant


                            C O N T E N T S

                            October 17, 2007

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brad Miller, Chairman, Subcommittee 
  on Investigations and Oversight, Committee on Science and 
  Technology, U.S. House of Representatives......................     7
    Written Statement............................................     9

Statement by Representative F. James Sensenbrenner, Ranking 
  Minority Member, Subcommittee on Investigations and Oversight, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    11

Prepared Statement by Representative Jerry F. Costello, Member, 
  Subcommittee on Investigations and Oversight, Committee on 
  Science and Technology, U.S. House of Representatives..........    12

                               Witnesses:

Dr. Richard B. Alley, Evan Pugh Professor of Geosciences, 
  Department of Geosciences, Pennsylvania State University
    Oral Statement...............................................    13
    Written Statement............................................    15
    Biography....................................................    18

Dr. Glenn Patrick Juday, Professor of Forest Ecology, School of 
  Natural Resources and Agricultural Sciences, University of 
  Alaska at Fairbanks
    Oral Statement...............................................    19
    Written Statement............................................    34
    Biography....................................................    37

Dr. Susan D. Haseltine, Associate Director for Biology, U.S. 
  Geological Survey, U.S. Department of Interior
    Oral Statement...............................................    37
    Written Statement............................................    39
    Biography....................................................    42

Ms. Kassie R. Siegel, Director, Climate, Air and Energy Program, 
  Center for Biological Diversity, Joshua Tree, California
    Oral Statement...............................................    43
    Written Statement............................................    47
    Biography....................................................    76

Discussion
  Relation of Astrophysics to the Arctic and Polar Bears.........    77
  Ms. Siegel's Background........................................    79
  Are Humans Causing Climate Change?.............................    79
  Climate Change From the Earth's Orbit..........................    80
  Evidence of Climate Change.....................................    81
  Dr. Hansen and George Soros....................................    82
  Scientists Named Steve.........................................    86
  Processes Leading to the Tipping Point.........................    87
  Polar Bear Population Changes in Canada........................    88
  Naturally Occurring Climate Change.............................    89
  Reducing Methane Emissions.....................................    93
  Action Items to Reduce Emissions...............................    94
  Polar Bear Populations 1,000 Years Ago.........................    95
  Climate Change Since the Last Ice Age..........................    96
  Climate Change From Carbon Methane in the Permafrost...........    97


 DISAPPEARING POLAR BEARS AND PERMAFROST: IS A GLOBAL WARMING TIPPING 
                       POINT EMBEDDED IN THE ICE?

                              ----------                              


                      WEDNESDAY, OCTOBER 17, 2007

                  House of Representatives,
      Subcommittee on Investigations and Oversight,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brad 
Miller [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

              SUBCOMMITTEE ON INVESTIGATIONS AND OVERSIGHT

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                      Disappearing Polar Bears and

                    Permafrost: Is a Global Warming

                   Tipping Point Embedded in the Ice?

                      wednesday, october 17, 2007
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose:

    On Wednesday, October 17, 2007, the Investigations and Oversight 
Subcommittee will hold a hearing on the impacts of global warming on 
the Arctic. This hearing will provide the Committee with an opportunity 
to hear from witnesses on three interrelated matters: (1) the current 
situation in the Arctic, including the situation facing the polar bear, 
(2) ways in which warming in the Arctic may accelerate global warming, 
especially through the emission of more greenhouse gases, and (3) 
interim steps that could be taken to reduce greenhouse gas emissions 
while the Congress weighs more elaborate carbon trade or tax proposals.
    One of the themes that should emerge from this hearing is that, 
from a layman's perspective, the models used to project climate change 
and its ramifications appear to be conservative in their projections. 
This is because any phenomena that are not understood well enough to be 
represented in models with confidence are excluded. These other 
phenomena may accentuate or depress warming trends. In the case of the 
Arctic, most of the phenomena that have been excluded from the models 
are believed to accentuate warming and its effects. Few will depress 
it. The modeling on polar bear survival, for example, uses projections 
from the IPCC models to estimate future changes in sea ice extent. 
Since the bears' condition is very dependent upon both the extent of 
the sea ice and the duration of ice-free periods, projections of the 
bear survival are very dependent upon projections of sea ice. This 
summer the sea ice extent is far less than projected by the models.
    Some important factors that induce additional warming are either 
left out of IPCC models or are not fully accounted for, and therefore 
the actual decrease in sea ice extent could be significantly greater 
than the IPCC projections. For example, the IPCC modeling fails to 
include positive feedbacks from permafrost thawing which could add 
millions--even billions--of metric tons of greenhouse gases to the 
environment. Projections of sea level rise in the IPCC exercise do not 
include any run-off from melting ice sheets in Greenland or Antarctica 
because the physical dynamics of that process are so poorly understood. 
The result is that, as disturbing as the polar bear study is or as 
worrisome as the IPCC reports are, they probably minimize the global 
warming path we are on and the consequences we will live through as a 
result of that warming.

Recent Global Warming Reports Related to the Arctic

    The past twelve months have seen two remarkable stories related to 
the Arctic. In January of 2007, the Department of the Interior proposed 
to list the Polar Bear as an endangered species. This proposal came in 
response to a successful lawsuit brought by the Center for Biological 
Diversity, which charged that the decline in the bear's habitat--a 
direct consequence of global warming--justified a listing. Subsequent 
information developed by the U.S. Geological Survey (USGS) provides 
ample reason to believe that the bear will disappear entirely from 
large areas of its range in the next fifty years, and will be on the 
verge of extinction by 2100.
    Diminishing ice cover is directly tied to the survival of the polar 
bear. Bears rely on ice from which to hunt seals--their main prey. The 
analysis done by the USGS projects that in three of the four ice eco-
regions of the Arctic, it is most likely that the bears will be 
eliminated by 2100. In the fourth region, the modeling projects almost 
even odds that the bears will be somewhere between retaining a small 
population to being extinct, but it appears that even a small 
population may not be enough for sustaining the species beyond 2100.
    The disturbing quality of the USGS analysis is that their models 
were derived from statistical projections that have not predicted as 
steep a decline of actual ice loss as has occurred in the Arctic. In 
other words, the modeling of polar bear populations assumes more ice 
extent than the real world is actually producing. Further, there was no 
accommodation to the modeling made for the consequences of other 
environmental factors that may occur if the world begins to extract 
more resources from the Arctic and if a Northwest Passage becomes a 
reliable shipping route. Such activities would have a further negative 
effect on a remaining polar bear population.
    The second event that has received widespread attention has been 
the report that the melt of Arctic sea ice set a record for a new 
summer minimum. The National Snow and Ice Data Center (NSIDC) announced 
on October 1 that the ``Arctic sea ice during the 2007 melt season 
plummeted to the lowest levels since satellite measurements began in 
1979.'' The NSIDC lead scientist, Mark Serreze, commented that ``The 
sea ice cover is in a downward spiral and may have passed the point of 
no return. As the years go by, we are losing more and more ice in 
summer and growing back less and less ice in winter. We may well see an 
ice-free Arctic Ocean in our lifetimes. The implications for global 
climate, as well as Arctic animals and people, are disturbing.'' There 
has not been an ice-free summer in the Arctic in one million years.
    Diminishing bears and sea ice are only the most widely reported 
aspects of a warming Arctic. Global climate scientists worry about 
``tipping points''--environmental processes that could lead to rapid 
and irreversible changes in the overall global climate or in sea level 
rise. The Arctic contains several potential sources of a tipping point 
in the boreal forests, the albedo effects of melting ice and, one of 
the most worrisome, permafrost.

Tipping Points in the North

    The Arctic permafrost acts as a kind of frozen locker in which 
carbon is stored. These frozen soils, as well as frozen peat, extend 
over large areas of North America and Siberia--perhaps as much as 80 
percent of the area. Much of the infrastructure of Russia, Alaska, and 
the Canadian North is built on permafrost. With thawing of permafrost, 
some of which extends more than 100 feet in depth, subsidence occurs; 
peoples' homes, roads, and pipes all could be damaged or destroyed. As 
disturbing as these consequences are, from a global perspective there 
is a more profound result: thawing permafrost release stored carbon as 
either carbon dioxide or as methane.
    Estimates of the total stored carbon in Arctic soils are in the 
range of one thousand gigatons. (See Zimov, Schuur, Chapin III, 
``Permafrost and the Global Carbon Budget,'' Science Magazine, Vol. 
312, 16 June, 2006). No one knows how much is currently being released, 
though there are anecdotal reports of methane emerging so quickly from 
pools in Siberia that it keeps ice from freezing in the dead of winter. 
The Stordalen mire in Sweden has been observed to produce a 22-66 
percent increase in methane emission as the permafrost thawed. 
(Christensen, et. al., ``Thawing sub-arctic permafrost: Effects on 
vegetation and methane emissions,'' Geophysical Research Letters, V. 
31, L04501, 2004).
    Work done at the National Center for Atmospheric Research (NCAR) 
projects that over half of the topmost layer of permafrost (top ten 
feet) will have thawed by 2050 and as much as ninety percent could thaw 
by 2100. The analysts worked on this question with an eye to modeling 
increased water runoff from the permafrost into the Arctic Ocean. Their 
model did not tackle the question of carbon emissions from thawing 
permafrost, but they conceded that such releases ``may be considerable 
and the feedback is likely to be positive and possibly large.'' 
(Lawrence & Slater, ``A Projection of Severe Near-Surface Permafrost 
Degradation During the 21st Century,'' Geophysical Research Letters, V. 
32, L24401, 2005).
    While scientists know that thawing permafrost and the release of 
carbon stored in its frozen matrix could have an enormous impact on 
overall greenhouse gas emissions, none of the modeling done for the 
IPCC takes this feedback mechanism into consideration. Past and present 
anthropogenic emissions of greenhouse gases may so warm the planet that 
aggressive efforts over the next thirty years to reduce anthropogenic 
emissions may not be enough to stop the thawing of permafrost and the 
release of the enormous stores of carbon in those soils.
    Permafrost is not the only potential source of accelerated warming. 
Another potential source for carbon releases lies in the boreal forests 
of the North. The region is warming and large areas of North America's 
Arctic have been subjected to drought. The warmer weather has made the 
region more hospitable to insects that have attacked the massive 
conifer boreal forests. In the Province of British Columbia, Canada, 
pine beetles have become an ``epidemic.'' As of 2006, the beetles had 
destroyed $6 billion worth of trees and the provincial government began 
pushing a massive logging increase to try to get ahead of the insect-
driven losses. It is estimated that B.C. alone contains almost seven 
percent of the world's softwood. As a researcher at the Pacific 
Forestry Centre in Victoria, Allan Carroll, puts it, ``There's no 
question [the pine beetles] range has expanded over the last 30 years 
due to ameliorating climate. . .'' (Webster & Cathro, ``Bitter Harvest: 
Pine Beetle Infestation in B.C.,'' Canadian Business, January 2006).
    Insect-weakened, dry trees are subject to fire. This past summer 
saw the largest forest fire ever witnessed on Alaska's North slope. On 
July 16, 2007 lightning started a fire that was still burning in the 
first week of October. It had consumed more than a quarter of a million 
acres of forest during its run, and the smoke plume could be seen from 
50 miles away. Scientists in Alaska are concerned that the fire may 
have damaged the permafrost beneath the forest, causing deeper thaw. As 
these trees burn, and others succumb to drought and insects, carbon is 
released into the atmosphere. The loss of trees to store carbon and the 
release of carbon from dying forests is a potentially important source 
of greenhouse gases. (Hopkin, ``Alaskan Fire Damages Permafrost,'' 
Nature, published online 9 October 2007).
    Finally, the change in albedo in the North could have an important 
impact on overall global temperature. As snow and ice melt, they reveal 
the darker Earth and ocean. The overall color of the planet's surface 
directly affects how much solar energy is absorbed by the planet and 
how much is reflected back out into space. Being darker, the sea will 
absorb more solar energy, warming the seas and accelerating the melting 
of the ice. A similar process happens on land that would traditionally 
be covered by snow. (Note that the loss of boreal forests may have a 
small negative feedback by revealing a lighter ground under the dark 
trees--thus reflecting marginally more solar energy back into space 
than the forests).
    Any of these processes that either cause the Earth to absorb or 
retain more solar radiation will add to the overall warming of our 
atmosphere. If the atmosphere warms enough to reach a tipping point on 
the ice sheets of Greenland or Antarctica, the consequences for coastal 
communities and the world economy would be devastating. Scientists do 
not fully understand the dynamics of ice sheet melting, but it is not a 
simple linear process where a certain temperature produces a certain 
rate of melt. Rather there are feedbacks in the melting of the sheets 
that suggests an exponential or accelerating reaction occurs when 
melting begins. If the ice sheets of Greenland and Antarctica were to 
both melt, it would increase the sea level by approximately 200 feet. 
Experts believe that such an event is extremely unlikely. As one of our 
witnesses will testify, it is expected that increases in sea level will 
not occur so rapidly as to raise sea level at the rate of meters over 
coming decades. However, because the physical dynamics of ice sheet 
melting are not well understood, they were simply left out of the 
IPCC's most recent projections of sea level rise in the 21st Century. 
We currently have no reliable, comprehensive projection of sea level 
rise due to this gap in our understanding of ice sheet dynamics in 
conditions of warming.

A Modest Proposal for Action

    The Center for Biological Diversity will appear to provide some 
advice on steps that can be taken to reduce warming, with particular 
emphasis on their efficacy in the Arctic. Among the steps they advocate 
are programs to reduce methane emissions and ``black carbon.'' Black 
carbon is soot that, in the Arctic, has a particularly pernicious 
effect. When it is deposited on snow and ice it decreases its 
reflectivity and increases its heat absorption leading to greater 
melting. As the Arctic comes under more and more industrialization with 
other warming, one could anticipate further production of black carbon. 
Methane is a powerful greenhouse gas, with an estimated global warming 
potential 23 times greater than carbon dioxide over a 100-year time 
frame. Methane is a precursor to tropospheric ozone. In that form, it 
traps shortwave radiation as it enters the Earth's atmosphere from the 
sun and then when it is reflected back again by snow and ice. As a 
consequence, its impact is strongest over the Poles. Reducing global 
methane emissions would provide a particular benefit to the Arctic.

Witnesses

Dr. Sue Haseltine is the Associate Director for Biology at the U.S. 
Geological Survey, U.S. Department of Interior and will make a 
presentation of their findings regarding the future of the polar bear.

Ms. Kassie R. Siegel is the Director of the Climate, Air and Energy 
Program at the Center for Biological Diversity. She will present their 
preliminary plan for the mitigation of methane emissions.

Dr. Richard Alley, Evan Pugh Professor of Geosciences at Pennsylvania 
State University, appeared before the Committee to testify about the 
findings of the IPCC report earlier this year. He will testify about 
matters including sea ice, albedo and ice sheet melting. He can also 
answer questions regarding what factors have and have not been included 
in IPCC modeling on the climate.

Dr. Glenn Juday is a Professor at the School of Natural Resources and 
Agricultural Sciences, University of Alaska at Fairbanks, one of the 
worlds leading centers for the study of the Arctic. He will testify 
regarding both permafrost--what we do and do not understand about its 
potential release of carbon--and the boreal forests.
    Chairman Miller. Good morning. The hearing will come to 
order. Today's hearing is entitled Disappearing Polar Bears and 
Permafrost: Is a Global Warming Tipping Point Embedded in the 
Ice?
    This committee held three hearings on the 2007 report of 
the Intergovernmental Panel on Climate Change, IPCC, one of 
last week's winners of the Nobel Prize for Peace. The report of 
the working group on impact, adaptation, and vulnerability 
stated that the rapid climate changes occurring in the Earth's 
polar regions would have cascading effects on key regional bio-
physical systems and cause global climatic feedbacks.
    The report described the polar regions as geopolitically 
and economically important and extremely vulnerable to current 
and projected climate change. And the report said the polar 
regions had the greatest potential to affect global climate 
change and thus human populations and biodiversity.
    In the past twelve months, there have been two remarkable 
stories related to the Arctic that suggest that those climate 
changes may be happening even faster than predicted and with 
significant negative consequences. Earlier this month, the 
National Snow and Ice Data Center at the University of Colorado 
reported that the Arctic sea ice cover in the summer of 2007 
had fallen to its lowest point since 1979. Sea ice coverage was 
39 percent below the long-term average for 1979 to 2000 and 
perhaps half the sea ice coverage of the 1950s.
    According to the Center, Arctic sea ice has long been 
recognized as a sensitive climate indicator. When global 
temperatures rise, the sea ice cover sinks, and global 
temperatures in the Arctic have risen four degrees Fahrenheit 
since 1950. The lead scientist for the Snow and Ice Center 
warned that the sea ice cover is in a downward spiral and may 
have passed the point of no return. As the summers go by, we 
are losing more and more ice in the summer and growing less and 
less back in the winter. We may well see an ice-free Arctic 
Ocean in our lifetimes. The implications for global climate, as 
well as Arctic animals and people, are disturbing.
    There has not been an ice-free summer in the Arctic in a 
million years.
    Not surprisingly, the U.S. Geological Survey in September 
issued a report projecting that, based on the projected sea ice 
melts, two-thirds of the world's polar bears will be gone by 
2050. The USGS study projects that in three of the four ice 
eco-regions of the Arctic, it is most likely that the bears 
will be extinct by 2010. In the fourth region, the modeling 
projects almost even odds that the bears will be somewhere 
between having a small population to being extinct, but a small 
population may not be enough to sustain the species.
    Polar bears are adapted to hunting from sea ice. They hunt 
primarily ringed seals and to a lesser degree bearded seals. 
Less sea ice means less habitat. The USGS analysis relied on 
models to project polar bear populations that are more 
conservative about the melting of sea ice than the steeper 
decline that is now being observed in the Arctic. Polar bears 
are adapted to hunting from sea ice.
    Diminishing bears and sea ice are only the most widely 
reported aspects of a warming Arctic. Global climate scientists 
worry about tipping points, atmospheric processes that could 
lead to a rapid and irreversible change in the overall global 
climate or in sea level rise. The Arctic contains several 
potential sources of a tipping point in the boreal forests, the 
albedo effect of melting ice and one of the most frightening, 
carbon and methane release from melting permafrost.
    Again, the polar regions, the Arctic and the Antarctic, 
have the greatest potential of any region to affect global 
climate everywhere. The impacts of global warming will be 
greater in the polar regions, and those impacts will also 
produce feedback effects that have globally significant 
consequences. First, ice and snow reflect solar radiation in a 
process known as albedo. It helps keep the Arctic cool and the 
Earth cooler. When there is less ice and less snow, the exposed 
soil and water absorb solar radiation instead of reflecting it; 
and more solar radiation and warmth reaches land and stays in 
the atmosphere. It becomes a cycle. Ice melts and snow cover is 
reduced, resulting in less reflectivity and more warming, 
resulting in more ice melting and reduction of snow cover and 
on and on.
    Second, because of higher temperatures in the Arctic, the 
permafrost beneath large sections of Europe, Russia, Alaska and 
Canada is also beginning to melt. There are estimated to be 
almost 1,000 gigatons of carbon trapped in Arctic permafrost. A 
gigaton is a billion tons. Human use of fossil fuels currently 
emits approximately seven gigatons of carbon annually. In 2005, 
scientists at the Snow and Ice project projected 50 percent 
decrease of the topmost layer of permafrost by 2050 and as much 
as a 90 percent decrease by 2100. If that happens, the 
resulting release of CO<INF>2</INF>, carbon dioxide, and 
methane could have a warming effect on our climate that defies 
imagination.
    Another potential source for carbon release rests in the 
boreal forests of the North. Warmer weather has made them 
vulnerable to insect pests, and drought has resulted in the 
largest forest fire ever witnessed on Alaska's Northern Slope. 
It may also have damaged the permafrost.
    None of the models used in the IPCC projections of the 
impact of global warming took into account the potential 
release of those gigatons of carbon. A vast area of the world 
that has been a net carbon sink could become a carbon dioxide 
and methane producer that would dwarf the production of carbon 
dioxide and methane now resulting from human activities. As Dr. 
Ted Schuur wrote in Science magazine, factors inducing high-
latitude climate warming should be mitigated to minimize the 
risk of a potentially large carbon release that would further 
increase global warming.
    Rapid Arctic ice and permafrost melt are the kind of events 
with cascading effects that tip the planet's climate into an 
uncontrollable cycle of warming. The result could be an 
acceleration of the melting of the ice sheets in Greenland, 
inundating coastal communities and devastating the world 
economy.
    For 20 years we have heard warnings from scientists, first 
in a hearing here held by Mr. Gore, an alumnus of this 
committee.
    Now we are seeing the consequences of global warming in the 
endangering of polar bears, in the eroding infrastructure of 
the Arctic and in melting sea ice.
    Dr. James Hansen of NASA said a year ago that we have 10 
years to act. If he is right, we have nine years left to put 
this country and the world on a path to reducing aggressively 
our carbon emissions. We certainly can do that and probably at 
a relatively modest cost if we have the will.
    Some dismiss the threat of global warming as gloom and 
doom, and proclaim themselves to be sunny optimists who believe 
things will turn out all right. Willfully ignoring dangers and 
turning a blind eye to all evidence that there is a problem 
that needs our urgent attention is not optimism, it is folly. 
It is optimism to believe that we will prove equal to the 
challenges before us, however daunting; and I am optimistic in 
that respect, but we better get about it.
    [The prepared statement of Chairman Miller follows:]

               Prepared Statement of Chairman Brad Miller

    This committee held three hearings on the 2007 report of the 
Intergovernmental Panel on Climate Change (IPCC), one of last week's 
winners of the Nobel Prize for Peace. The report of the working group 
on impact, adaptation and vulnerability stated that the rapid climate 
changes occurring in the Earth's polar regions would have ``cascading 
effects on key regional bio-physical systems and cause global climatic 
feedbacks.'' (``Climate Change 2007: Impacts, Adaptation and 
Vulnerability,'' Chapter 15, p. 655, Fourth Assessment Report of the 
IPCC.) The report described the polar regions as geopolitically and 
economically important and extremely vulnerable to current and 
projected climate change. And the report said the polar regions had the 
greatest potential to affect global climate change and thus human 
populations and biodiversity. Id.
    In the past twelve months, there have been two remarkable stories 
related to the Arctic that suggest that those climate changes may be 
happening even faster than predicted and with significant negative 
consequences. Earlier this month, the National Snow and Ice Data Center 
at the University of Colorado reported that the Arctic sea ice cover in 
the summer of 2007 had fallen to its lowest point since 1979. Sea ice 
coverage was 39 percent below the long-term average from 1979 to 2000, 
and perhaps half the sea ice coverage of the 1950s.
    According to the Center, Arctic sea ice has long been recognized as 
a sensitive climate indicator. When global temperatures rise, the sea 
ice cover shrinks. And global temperatures in the Arctic have risen 
four degrees Fahrenheit since 1950. The lead scientist for the Snow and 
Ice Center warned that, ``The sea ice cover is in a downward spiral and 
may have passed the point of no return. As the years go by, we are 
losing more and more ice in summer and growing back less and less ice 
in winter. We may well see an ice-free Arctic Ocean in our lifetimes. 
The implications for global climate, as well as Arctic animals and 
people, are disturbing.''

There has not been an ice-free summer in the Arctic in a million years.

    Not surprisingly, the U.S. Geological Survey in September issued a 
report projecting that, based on projected sea ice melts, two-thirds of 
the world's polar bears will be gone by 2050. The USGS projects that in 
three of the four ice eco-regions of the Arctic, it is most likely that 
the bears will be extinct by 2100. In the fourth region, the modeling 
projects almost even odds that the bears will be somewhere between 
having a small population to being extinct, but a small population may 
not be enough to sustain the species.
    Polar bears are adapted to hunting from sea ice. They hunt 
primarily ringed seals and, to a lesser degree, bearded seals. Less sea 
ice means less habitat. The USGS analysis relied on models to project 
polar bear populations that are more conservative about the melting of 
sea ice than the steeper decline being observed in the Arctic. Further, 
the modeling did not consider the consequences of permafrost melt and 
other environmental influences that would apply if the world begins to 
extract more resources from the Arctic, and if a Northwest Passage 
becomes a reliable shipping route. Those activities would have an 
obvious negative effect on any remaining polar bear population.
    Diminishing bears and sea ice are only the most widely reported 
aspects of a warming Arctic. Global climate scientists worry about 
``tipping points''--atmospheric processes that could lead to rapid and 
irreversible changes in the overall global climate or in sea level 
rise. The Arctic contains several potential sources of a tipping point 
in the boreal forests, the albedo effects of melting ice and--one of 
the most frightening--carbon and methane release from melting 
permafrost.
    Again, the polar regions--the Arctic and the Antarctic--have the 
greatest potential of any region to affect global climate everywhere. 
The impacts of global warming will be greater in the polar region, and 
those impacts will also produce feedback effects that have globally 
significant consequences. First, ice and snow reflect solar radiation 
in a process known as ``albedo.'' It helps keep the Arctic cold and the 
Earth cooler. When there is less ice and less snow, exposed soil and 
water absorb solar radiation instead of reflecting it, and more solar 
radiation and warmth reaches land and stays in the atmosphere. It's a 
cycle: Ice melts and snow cover is reduced, resulting in less 
reflectivity and more warming, resulting in more ice melting and 
reduction of snow cover.
    Second, because of higher temperatures in the Arctic, the 
permafrost beneath large sections of Europe, Russia, Alaska and Canada 
is also beginning to melt. There are estimated to be almost 1,000 
gigatons of carbon trapped in the Arctic permafrost. A gigaton is a 
billion tons. Human use of fossil fuels currently emits approximately 
seven gigatons of carbon annually. In 2005, scientists at the Snow and 
Ice Data Center projected 50 percent of the topmost layer of permafrost 
would melt by 2050 and as much as 90 percent by 2100. If that happens, 
the resulting releases of CO<INF>2</INF> and methane could have a 
warming effect on our climate that defies imagination. Another 
potential source for carbon release rests in the boreal forests of the 
North. Warmer weather has made them vulnerable to insect pests, and 
drought has resulted in the largest forest fire ever witnessed on 
Alaska's Northern Slope. It may also have damaged the permafrost.
    None of the models used in the IPCC projections of the impact of 
global warming took into account the potential release of these 
gigatons of carbon. A vast area of the world that has been a net carbon 
sink could become a carbon dioxide and methane producer that would 
dwarf the production of carbon dioxide and methane now resulting from 
human activities. As Dr. Ted Schuur wrote in Science magazine in June 
of 2006, ``Factors inducing high-latitude climate warming should be 
mitigated to minimize the risk of a potentially large carbon release 
that would further increase global warming.''
    Rapid Arctic ice and permafrost melt are the kind of events with 
``cascading effects'' that tip the planet's climate into an 
uncontrollable cycle of warming. The result could be an acceleration of 
the melting of the ice sheets in Greenland, inundating coastal 
communities and the devastating the world economy.
    For twenty years we have heard warnings from scientists--first in a 
forum here held by Mr. Gore, an alumnus of this committee.
    Now we are seeing the consequences of global warming in the 
endangering of polar bears, in the eroding infrastructure of the Arctic 
and in the melting sea ice.
    Dr. James Hansen of NASA said a year ago that we have ten years to 
act. If he is right, we have nine years left to put this country, and 
the world, on a path to reducing aggressively our carbon emissions. We 
certainly can do it, and probably at a relatively modest cost, if we 
have the will.
    Some dismiss the threat of global warming as gloom and doom, and 
proclaim themselves to be sunny optimists who believe things will turn 
out all right. Willfully ignoring dangers and turning a blind eye to 
all evidence that there are problems that need our urgent attention is 
not optimism, it is folly. It is optimism to believe that we can prove 
equal to the challenges before us, however daunting. But we better get 
about it.

    Chairman Miller. The Chair now recognizes Mr. 
Sensenbrenner, for an opening statement.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman. 
Today's hearing takes a wide breadth, from predicted declines 
in polar bear populations, to whether polar bears should be 
listed under the Endangered Species Act, to melting permafrost 
and its implications to the ecological affect of climate change 
on spruce tree populations. Individual topics are too complex 
to approach in depth in a single hearing, but the common thread 
is obviously climate change and the underlying truth that the 
Arctic is melting.
    There is obvious value in bringing the world's attention to 
the problem, but we may have reached a tipping point when it 
comes to raising awareness on climate change. We have the 
world's attention; the question now is what we're going to do 
about it. As the diverse subject matter of today's hearing 
suggests, climate change can have broad effects that we are 
only beginning to understand; but as I have continuously 
maintained, solutions to climate change are no less complex 
than the consequences. Our approach to combating climate change 
cannot be shortsighted. We need to reduce our greenhouse 
emissions, but we cannot do so in a way that jeopardizes our 
ability to meet our energy demands or cripples our economy. Our 
energy demands are rising, and running out of conventional 
power plants is a real threat. We need to find solutions like 
nuclear power that limit carbon emissions but also ensure that 
our energy needs will be met.
    We're also facing unprecedented economic challenges. As the 
challenges of competing in the global economy grow, rapidly 
developing countries like China and India have made it clear 
that they will not hinder their economic growth to curb climate 
change. I heard that repeatedly in Kyoto and Buenos Aires and 
in the Netherlands. This means that any modest success that we 
enjoy at limiting our emissions will be completely offset by 
China and other nations. We cannot afford to stall our own 
economic development when other nations will not be similarly 
handicapped.
    Today's hearing, like the hearing we had last month, is 
focused on dire predictions relating to climate change. These 
concerns are important, but we could just as easily be focused 
on dire predictions about our ability to meet energy demands or 
to meet the growing economic challenges of globalization. These 
three challenges are deeply intertwined, and our solution to 
them needs to be comprehensive and address all of them.
    USGS's most recent report on polar bears and sea ice is in 
some ways encouraging. While the report indicates that both sea 
ice and polar bear populations will decline over coming 
decades, the report does conclude that there will still be a 
viable polar bear population even a century from now. It is 
also encouraging that many of the problems we are facing, from 
the national security implications we discussed last month to 
the polar bears, sea ice, permafrost, and spruce trees we are 
here to discuss today; they are all symptoms of the same 
underlying problem. As we develop and implement technologies 
for alternative energies, we reduce the threat from all of 
these symptoms, and I am confident that we can reduce these 
threats with a comprehensive approach that meets our energy 
needs and strengthens our economy.
    I yield back the balance of my time.
    [The prepared statement of Mr. Sensenbrenner follows:]

    Prepared Statement of Representative F. James Sensenbrenner, Jr.

    Today's hearing takes a wide breadth--from predicted declines in 
polar bear populations, to whether polar bears should be listed under 
the Endangered Species Act, to melting permafrost and its implications, 
to the ecological affects of climate change on spruce tree populations. 
The individual topics are too complex to approach in depth in a single 
hearing, but the common thread is obviously climate change and the 
underlying truth that the arctic is melting.
    There is obvious value in bringing the world's attention to the 
problem, but we may have reached a tipping point when it comes to 
raising awareness on climate change--we have the world's attention, the 
question now is what we are going to do with it. As the diverse subject 
matter of today's hearing suggests, climate change can have broad 
effects that we are only beginning to understand.
    But as I have continuously maintained, solutions to climate change 
are no less complex than the consequences. Our approach to combating 
climate change can not be short-sighted. We need to reduce our 
greenhouse emissions, but we can not do so in a way that jeopardizes 
our ability to meet our energy demands or cripples our economy. Our 
energy demands are rising and running out of conventional power plants 
is a real threat. We need to find solutions, like nuclear power, that 
limit carbon emissions, but also ensure that our energy needs will be 
met.
    We are also facing unprecedented economic challenges. As the 
challenges of competing in a global economy grow, rapidly developing 
countries like China and India have made clear that they will not 
hinder their economic growth to curb climate change. This means that 
any modest successes that we enjoy at limiting our emissions will be 
completely offset by China and other nations. We cannot afford to stall 
our own economic development when other nations will not be similarly 
handicapped.
    Today's hearing, like the hearing we had last month, is focused on 
dire predictions related to climate change. These concerns are 
important, but we could just as easily be focused on dire predictions 
about our ability to meet energy demands or to meet the growing 
economic challenges of globalization. These three challenges are deeply 
intertwined and our solution to them needs to be comprehensive.
    USGS' most recent report on polar bears and sea ice is in some ways 
encouraging. While the report indicates that both sea ice and polar 
bear populations will decline over the coining decades, the report does 
conclude that there will be still be viable polar bear populations even 
one century from now. It is also encouraging that as many problems as 
there are, from the national security implications we discussed last 
month to the polar bears, sea ice, permafrost, and spruce trees we are 
here to discuss today, they are all symptoms of the same underlying 
problem. As we develop and implement technologies for alternative 
energy, we reduce the threat from all these symptoms. And I am 
confident that we can reduce these threats with a comprehensive 
approach that meets our energy needs and strengthens our economy.

    Chairman Miller. Thank you, Mr. Sensenbrenner. If there are 
other Members who wish to submit additional opening statements, 
your statements will be added to the record at this point.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Mr. Chairman, I appreciate the Subcommittee addressing this issue 
today and continuing an emphasis on matters affecting our environment. 
The melting of the ice sheets and permafrost and the deterioration of 
the boreal forests all have potentially severe consequences for the 
Earth and scientific estimates of global climate change.
    A central question we must address is how do we prepare for these 
possible effects when the processes can be hard to track and the 
physical properties in question are not always well understood? This 
becomes very important when you consider that models to date have been 
too conservative, predicting less melt than has actually occurred.
    Loss of ice cover also is predicted to have a disastrous effect on 
the polar bear population over the next century. I look forward to 
hearing more about the consequences of ice melt and how to deal with 
the uncertainty of some of these projections.
    Mr. Chairman, I again commend you for calling this hearing so we 
can have a better understanding of these issues. In an era of scarce 
government resources, we must choose wisely how we prioritize issues 
and create public policy, and this topic certainly can inform how we 
view the debate on global climate change.

    Chairman Miller. And now, I would like to introduce our 
witnesses. Dr. Richard Alley is the Evan Pugh Professor of 
Geosciences at Pennsylvania State University. Dr. Alley 
appeared before the Committee to testify about the findings of 
the IPCC Report earlier this year. Today he will testify about 
matters including sea ice, the impact of albedo and ice sheet 
melting. Dr. Glenn Juday is a Professor of the School of 
Natural Resources and Agricultural Sciences at the University 
of Alaska at Fairbanks, one of the world's leading centers for 
the study of the Arctic. He will discuss recent climatic 
changes in Alaska including those in the permafrost and what we 
do and do not understand about the potential release of carbon 
in the boreal forest. Dr. Sue Haseltine is the Associate 
Director of Biology at the U.S. Geological Survey. She will 
discuss the findings in its study on the population projections 
of the polar bears for the next century. Ms. Kassie Siegel is 
the Director at Climate, Air, and Energy Program at the Center 
for Biological Diversity. The Center initiated a lawsuit under 
the Endangered Species Act that resulted in the proposed 
listing of the polar bear as an endangered species and resulted 
in the USGS study. She will discuss the Center's proposed 
rapid-action plan to address Arctic meltdown and to save the 
polar bear.
    As our witnesses should know, your full written statement 
will be placed in the record; and your oral testimony is 
limited to five minutes each. We will give you a little 
forgiveness on that, but try to pay attention when you see the 
red light come on. It is also the practice of the Subcommittee 
to take testimony under oath. Do any of you have any objection 
to being sworn in? I have to say it seems unlikely to me that 
any testimony at this hearing would result in perjury charges, 
but we do want to put you under oath. Just relax at that 
prospect. And to relax you further, we also always ask if you 
are represented by counsel today. You are entitled to be 
represented by counsel. Do any of you have counsel today? You 
are all on your own? Okay.
    If you would now please stand and raise your right hand?
    [Witnesses sworn]
    Chairman Miller. Dr. Alley, you may begin.

   STATEMENT OF DR. RICHARD B. ALLEY, EVAN PUGH PROFESSOR OF 
  GEOSCIENCES, DEPARTMENT OF GEOSCIENCES, PENNSYLVANIA STATE 
                           UNIVERSITY

    Dr. Alley. Thank you for the honor, Mr. Chairman. Honored 
Members and guests, I have had the very good fortune to assist 
the U.S. National Academy of Sciences and the Intergovernmental 
Panel on Climate Change in their overarching assessments of the 
issues of climate change. Those assessments have shown us with 
high scientific confidence that our activities, fossil fuel 
burning especially, are changing the composition of the 
atmosphere, that this is changing the climate, that the changes 
that have happened so far are very small compared to the 
changes that will occur under business as usual, and that these 
coming changes will have very large impacts on ecosystems and 
economies.
    This is science. It is not revealed truth. And there are of 
course uncertainties related to this. Unfortunately, what we 
find is that around that central estimate, things might be a 
little bit better, they might be a little bit worse. We have 
not yet found a lot better, but we have found the possibility 
of a lot worse. That is especially linked to this issue of 
abrupt climate changes or thresholds or what are now called 
tipping points. And in looking at the tipping points, the 
Arctic is the center of focus. I would like to mention a couple 
of these; one of them is close to my own research on the 
Greenland ice sheet. The Greenland ice sheet can exist in part 
because it is so high left over from the ice age that the top 
is cold. If you make it too warm so that you lower it enough, a 
little bit of warming lowers the surface. That makes it warmer 
yet. A little bit of cooling does not get you back to where you 
had been, and the ice sheet is no longer survivable.
    We know of no way that you can melt a Greenland ice sheet 
in mere decades. It would be longer than that. But it remains 
possible that we will reach a temperature over the next decade 
which will cause melting of the Greenland ice sheet. Greenland 
is about 23 feet vertically for the world's ocean. It would 
certainly arrive much more slowly than what we saw in New 
Orleans, but just as a scaling, the deepest water in New 
Orleans after the hurricane was 20 feet; and so Greenland would 
be more water than that for all the coasts of the world if we 
tip it over.
    Another tipping point that comes out of the Arctic is the 
issue of changes in the North Atlantic circulation. In fact, 
the IPCC said we have 90 percent confidence that that won't 
happen, but 90 is not 100. We know in the past that when a lot 
of fresh water was being put into the North Atlantic, sometimes 
very large and surprising things happened. One of the outcomes 
of those large and surprising things was a notable drying in 
places where now some billions of people rely on rain-fed 
agriculture. So in the unlikely event that the melt water from 
Greenland should tip the North Atlantic, there are potentially 
very large consequences.
    The discussion you will hear coming down the line here on 
sea ice, is that we have seen a reduction in sea ice. We have 
seen this year a remarkable reduction in sea ice, and it is 
losing the thick ice that has an easier time surviving for 
years. And so the possibility exists as you shrink that sea ice 
loose, the thick ice will soak up more sun because you don't 
have the reflection; but we tip into a situation in which the 
summertime sea ice is gone for long periods of time and hard to 
get back. You will hear some of the impacts. This clearly 
affects ecosystems; it opens resource exploitation; it opens 
shipping; it opens coastal villages to waves that had been 
blocked by the sea ice and quite a number of other changes; and 
it may propagate into the climate of the lower latitudes with 
possibly interesting results.
    An analogy for predicting this is going to be difficult. 
You know that if you sit in a canoe and you lean a little bit 
that the canoe leans a little. If you lean a little more, at 
some point the canoe flips. Telling exactly where the canoe 
will flip is very difficult, and we can prove that because 
people fall in sometimes. They can't predict that. Now, we are 
changing the atmosphere, but we are changing many other things 
as well, and nature certainly is out there changing things as 
well. And so the analogy really should be trying to predict 
when one might flip a canoe while having a large and 
rambunctious golden retriever bouncing around in the boat with 
you. This makes it much more difficult, and there will always 
be under-certainties in these predictions.
    To summarize then, we have high scientific confidence that 
our fossil fuels and other activities are changing the 
atmosphere, that this is changing the climate, that the changes 
we have observed so far are small compared to the changes that 
will come under business as usual, that this will have large 
impacts on us and other living things. It will grow to be very 
costly, and as has been mentioned, there are options for 
solutions. This is science. It has associated uncertainties. 
Unfortunately, because of the existence of tipping points and 
other things, more of the uncertainty is on the bad side and 
less of the uncertainty is on the good side. Thank you.
    [The prepared statement of Dr. Alley follows:]

               Prepared Statement of Richard B. Alley\1\
---------------------------------------------------------------------------
    \1\ Any opinions, findings, conclusions, or recommendations 
expressed in this publication are those of the author and do not 
necessarily reflect those of the Pennsylvania State University, the 
Intergovernmental Panel on Climate Change, the National Research 
Council, or other organizations. My remarks neither prejudge nor 
presage the contents of Synthesis and Assessment Product 1.2 of the 
U.S. Climate Change Science Program, now in preparation and for which I 
am one of the lead authors.
---------------------------------------------------------------------------

  Changes in Arctic Ice With Special Focus on Greenland and Sea Level

Introduction

    My name is Richard Alley. I am Evan Pugh Professor of Geosciences 
and Associate of the Earth and Environmental Systems Institute at the 
Pennsylvania State University. I have authored over 175 refereed 
scientific publications in the areas of ice and climate, which are 
``highly cited'' according to a prominent indexing service, and I have 
given hundreds of presentations concerning my areas of expertise. My 
research interests focus especially on glaciers and ice sheets, their 
potential for causing major changes in sea level, the climate records 
they contain, and their other effects on the environment. I have been a 
member of many national and international committees, including 
chairing the National Research Council's Panel on Abrupt Climate Change 
(report published by the National Academy Press in 2002) and serving on 
their Polar Research Board. I have contributed to the efforts of the 
Intergovernmental Panel on Climate Change (IPCC) in various ways, and 
served as a Lead Author on Chapter 4 (the Cryosphere), and on the 
Technical Summary and the Summary for Policy-makers of Working Group I 
of the Fourth Assessment Report, which was released in 2007. I 
testified to the Committee in February of this year following release 
of that Summary for Policy-makers; here, I will update some of that 
testimony and provide special focus on the Arctic.

Ice Changes

    Recent authoritative assessments from the National Research 
Council, the Intergovernmental Panel on Climate Change, and other 
sources have summarized the strong scientific evidence that human 
activities are altering the composition of the Earth's atmosphere, 
causing warming and other changes. There exists increasingly strong 
evidence for widespread reductions in the Earth's ice, including snow, 
river and lake ice, sea ice, permafrost and seasonally frozen ground, 
mountain glaciers, and the great ice sheets of Greenland and 
Antarctica, as summarized by the IPCC and elsewhere. Strong evidence 
shows the dominant role of warming, which is primarily being caused by 
human activities, in this loss of ice.
    I will briefly summarize some of these many aspects, especially 
focusing my attention on the issue of ice-sheet shrinkage and its 
possible effect on sea-level rise. I will rely on my recent testimony 
to the Committee, summarizing the recent IPCC report, as well as other 
and more recent materials as needed.
    Snow cover has decreased in most regions, as shown by satellite 
data tied to limited surface observations. Snow melt is shifting 
earlier into the spring. Declines in April 1 snowpack have been 
measured in 75 percent of western North American sites monitored. As 
summarized in the IPCC Working Group II report, concerns raised by this 
decline include the dominant role now played by snowpack in supplying 
summertime water to many regions of the U.S. West. Trends in snow cover 
cannot be explained solely by changing precipitation (and indeed, in 
some very cold places snow depth has increased with increasing 
precipitation), but much of the overall shrinkage of snow cover can be 
explained by rising temperature.
    Freezing of rivers and lakes generally has been occurring later in 
the fall, with thawing earlier in the spring, giving longer intervals 
of open water. Coordinated data collection is scarce, however, and the 
data set not extensive.
    Arctic sea ice, formed by freezing of ocean water, has decreased in 
area and thickness. The change in the summer has been especially large, 
with ice lost from an area twice the size of Texas between 1979 and 
2005 (decreasing trend in ice area of seven percent per decade over 
that interval). Data sets from satellites, tied to observations from 
ships and submarines, have been critical in documenting these changes. 
An especially large loss of sea-ice area was observed during summer of 
2007, pushing the late-summer minimum sea-ice area approximately 23 
percent below the previous (from 2005) record minimum documented by 
satellite, as reported by the National Snow and Ice Data Center (a 
research institute at the University of Colorado with funding from NSF, 
NASA, and NOAA). These very recent results were obtained using well-
documented techniques that have been detailed in peer-reviewed 
publications; thus, while full peer-review and assessment of the latest 
results are not yet completed, the results are generally considered to 
be highly reliable. Although shifts in circulation of the ocean and 
atmosphere may have contributed to the ongoing trend of sea-ice loss, 
greenhouse gas warming is likely to have been important. (Any Antarctic 
sea-ice changes fall within natural variability; cooling associated 
with the ozone hole may be affecting Antarctic climate, a complex 
subject beyond the scope of these brief remarks.)
    Permanently frozen ground (permafrost) and seasonally frozen ground 
are not readily monitored globally. However, available reports point to 
overall warming and thawing of this ice in the ground, in response to 
rising air temperatures and changes in snow cover.
    Glaciers and ice caps occur primarily in mountainous areas, and 
near but distinct from the Greenland and Antarctic ice sheets. On 
average, the world's glaciers were not changing much around 1960 but 
have lost mass since, generally with faster mass loss more recently. 
Glacier melting contributed almost an inch to sea-level rise during 
1961-2003 (about 0.50 mm/year, and a faster rate of 0.88 mm/year during 
1993-2003). Glaciers experience numerous intriguing ice-flow processes 
(surges, kinematic waves, tidewater instabilities), allowing a single 
glacier over a short time to behave in ways that are not controlled by 
climate. Care is thus required when interpreting the behavior of a 
particular iconic glacier (and especially the coldest tropical 
glaciers, which interact with the atmosphere somewhat differently from 
the great majority of glaciers). But, ice-flow processes and regional 
effects average out if enough glaciers are studied for a long enough 
time, allowing glaciers to be quite good indicators of climate change. 
Furthermore, for a typical mountain glacier, a small warming will 
increase the mass loss by melting roughly five times more than the 
increase in precipitation from the ability of the warmer air to hold 
more moisture. Thus, glaciers respond primarily to temperature changes 
during the summer melt season. Indeed, the observed shrinkage of 
glaciers, contributing to sea-level rise, has occurred despite a 
general increase in wintertime snowfall in many places.

Ice-sheet changes

    The large ice sheets of Greenland and Antarctica are of special 
interest, because they are so big and thus could affect sea level so 
much. Melting of all of the world's mountain glaciers and small ice 
caps might raise sea level by about one foot (0.3 m), but melting of 
the great ice sheets would raise sea level by just over 200 feet (more 
than 60 m). We do not expect to see melting of most of that ice, but 
even a relatively small change in the ice sheets could matter to the 
world's coasts.
    A paper published in the journal Science earlier this year 
(Rahmstorf et al., 2007) compared the projections made in the 2001 IPCC 
Third Assessment Report to changes that have occurred. The carbon 
dioxide in the atmosphere has followed expectations closely. 
Temperature has increased just slightly faster than projected, but well 
within the stated uncertainties. The central estimate of observed sea-
level rise is following near the upper edge of the stated uncertainties 
of the expectations, however, well above the central estimate. Changes 
in the ice sheets help explain this.
    The 2001 IPCC report noted large uncertainties, but presented a 
central estimate that the combined response of the ice sheets to 
warming would be slight net growth averaged over the 21st century, 
slightly reducing the sea-level rise from other sources, with increase 
in total snowfall on the ice sheets exceeding increase in total melting 
and with little change in ice flow. Data collected recently show that 
the ice sheets very likely have been shrinking and contributing to sea 
level rise over 1993-2003 and with even larger loss by 2005, as noted 
in the IPCC report and updated elsewhere (e.g., Alley et al., 2007). 
Thickening in central Greenland from increased snowfall has been more 
than offset by increased melting in coastal regions. Many of the fast-
moving ice streams that drain Greenland (see the Figure, below) and 
parts of Antarctica have accelerated, transferring mass to the ocean 
and further contributing to sea-level rise. The total contribution to 
sea-level rise from the ice sheets remains smaller than the 
contribution from mountain-glacier melting or from the expansion of 
ocean water as it warms. However, the existence of the ice-sheet 
contribution, its important ice-flow source, and the large potential 
sea-level rise from such mechanisms in the future motivate careful 
consideration.
    Ice-sheet behavior. An ice-sheet is a two-mile-thick, continent-
wide pile of snow that has been squeezed to ice. All piles tend to 
spread under their own weight, restrained by their own strength (which 
is why spilled coffee spreads on a table top but the stronger table 
beneath does not spread), by friction beneath (so pancake batter 
spreads faster on a greased griddle than on a dry waffle iron), or by 
``buttressing'' from the sides (so a spatula will slow the spreading of 
the pancake batter). Observations at a site in Greenland have shown 
that meltwater on top of the ice sheet flows through the ice to the 
bottom and reduces friction there. More melting in the future thus may 
reduce friction further, speeding the production of icebergs or 
exposing more ice to melting from warmth at low altitude, and thus 
speeding the increase in sea level.
    Some early gothic cathedrals suffered from the ``spreading-pile'' 
problem, in which the sides tended to bulge out while the roof sagged 
down, with potentially unpleasant consequences. The beautiful solution 
was the flying buttress, which transfers some of the spreading tendency 
to the strong Earth beyond the cathedral. Ice sheets also have flying 
buttresses, called ice shelves. The ice reaching the ocean usually does 
not immediately break off to form icebergs, but remains attached to the 
ice sheet while spreading over the ocean. The friction of these ice 
shelves with local high spots in the sea floor, or with the sides of 
embayments, helps restrain the spreading of the ice sheet much as a 
flying buttress supports a cathedral. The ice shelves are at the 
melting point where they contact water below, and are relatively low in 
elevation hence warm above. Ice shelves thus are much more easily 
affected by climatic warming than are the thick, cold central regions 
of ice sheets. Rapid melting or collapse of several ice shelves has 
occurred recently, allowing the ``gothic cathedrals'' behind to spread 
faster, contributing to sea-level rise. Many additional ice shelves 
remain that have not changed notably, and these contribute to 
buttressing of much more ice than was supported by those ice shelves 
that experienced the large recent changes, so the potential for similar 
changes contributing to sea-level rise in the future is large.
    Although science has succeeded in generating useful understanding 
and models of numerous aspects of the climate, similar success is not 
yet available for ice-sheet projections, for reasons that I would be 
happy to explore with the committee. We do not expect ice sheets to 
collapse so rapidly that they could raise sea level by meters over 
decades; simple arguments point to at least centuries. However, the 
IPCC report is quite clear on the lack of scientific knowledge to make 
confident projections. Naive comparison of tabulated projections of 
sea-level rise in the Third and Fourth Assessment Reports of the IPCC 
might lead a reader to the mistaken conclusion that the more-recent 
assessment has reduced uncertainties and concerns about sea-level rise. 
However, the newer report specifically notes that projections exclude 
contributions to sea-level change from ``future rapid dynamical changes 
in ice flow'' (Table SPM-3) ``because a basis in published literature 
is lacking'' (page SPM14), so that it is not possible to ``provide a 
best estimate or an upper bound for sea level rise'' (page SPM15). (The 
new report also notes a similar difficulty arising from lack of 
knowledge of feedbacks in the carbon cycle, and referring to the 
possibility that warming will cause much release of methane and carbon 
dioxide from soils in the Arctic, sediments under the sea, or 
elsewhere, contributing to more warming.)
    Much discussion has focused on the question of ``tipping points'' 
or thresholds for abrupt change. Clearly, at sufficiently warm 
temperatures, ice will melt. As discussed in the IPCC report, 
sufficiently warm temperature, sustained for a sufficiently long time, 
will melt the Greenland ice sheet, with more than a few degrees of 
warming sustained over a few centuries to millennia being a reasonable 
approximation but with no agreement on exact values. This is often 
considered to represent a tipping point because a small cooling then 
would not restore the ice sheet even if sustained for a long time; the 
warming associated with the loss of the high-elevation and reflective, 
hence cold, ice surface would overcome any small subsequent cooling. 
Recent simple modeling (e.g., Schoof, 2007; also see Dupont and Alley, 
2005) supports earlier work that ``tipping point'' behavior might be 
observed in Antarctica as well, with warming sufficient to weaken or 
remove certain ice shelves triggering ice-sheet changes to a new state. 
These processes remain very poorly understood, and confident assessment 
of their likelihood or rate is not now possible.

Synopsis

    In summary, with high scientific confidence, changes are occurring 
in much of the world's ice. These are being caused primarily by 
warming. Globally, the warming is largely being caused by greenhouse 
gases being released to the atmosphere by human activities. Shrinkage 
of the large ice sheets was unexpected to many observers but appears to 
be occurring, and the poor understanding of these changes prevents 
reliable projections of future sea-level rise over long times.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Recently published estimates of the mass balance of the Greenland ice 
sheet through time (modified from Alley et al., 2007). A Total Mass 
Balance of 0 indicates neither growth nor shrinkage, and -180 Gt 
yr<SUP>-</SUP><SUP>1</SUP> indicates ice-sheet shrinkage contributing 
to sea-level rise of 0.5 mm/year (one inch in about 50 years), as 
indicated. Each box extends from the beginning to the end of the time 
interval covered by the estimate, with the upper and lower lines 
indicating the uncertainties in the estimates. A given color is 
associated with a particular technique, and the different letters 
identify different studies. Two estimates have arrows attached, because 
those authors indicated that the change is probably larger than shown. 
The dotted box in the upper right is a frequently cited study 
(Johannessen et al., 2005) that applies only to the central part of the 
ice sheet, which is thickening, and misses the faster thinning in the 
margins.

References Cited

Alley, R.B., M.K. Spencer and S. Anandakrishnan. 2007. Ice-sheet mass 
        balance: Assessment, attribution and prognosis. Annals of 
        Glaciology 46, 1-7.

Dupont, T.K. and R.B. Alley. 2005. Assessment of the importance of ice-
        shelf buttressing to ice-sheet flow. Geophysical Research 
        Letters, 32, L04503, 10.1029/2004GL022024.

Johannessen, O.M., K. Khvorostovsky, M.W. Miles and L.P. Bobylev. 2005. 
        Recent ice-sheet growth in the interior of Greenland. Science 
        310, 1013-1016.

Rahmstorf, S., A. Cazenave, J.A. Church, J.E. Hansen, R.F. Keeling, 
        D.E. Parker and R.C.J. Somerville. 2007. Recent observations 
        compared to projections. Science, Sciencexpress, 10.1126/
        science.1136843.

Schoof, C. 2007. Ice sheet grounding line dynamics: steady states, 
        stability, and hysteresis. Journal of Geophysical Research 
        112(F3), F03S28.

                     Biography for Richard B. Alley

    Dr. Richard Alley is Evan Pugh Professor of Geosciences and 
Associate of the Earth and Environmental Systems Institute at The 
Pennsylvania State University, University Park, where he has worked 
since 1988. He was graduated with the Ph.D. in 1987 from the University 
of Wisconsin-Madison and with M.Sc. (1983) and B.Sc. (1980) degrees 
from The Ohio State University-Columbus, all in Geology. Dr. Alley 
teaches, and conducts research on the climatic records, flow behavior, 
and sedimentary deposits of large ice sheets, to aid in prediction of 
future changes in climate and sea level. His experience includes three 
field seasons in Antarctica, eight in Greenland, and three in Alaska. 
His awards include the Seligman Crystal of the International 
Glaciological Society, the first Agassiz Medal of the European 
Geosciences Union Cryospheric Section, a Presidential Young 
Investigator Award, the Horton Award of the American Geophysical Union 
Hydrology Section and Fellowship in the Union, the Wilson Teaching 
Award and the Mitchell Innovative Teaching Award of the College of 
Earth and Mineral Sciences and the Faculty Scholar Medal in Science at 
Penn State. Dr. Alley has served on a variety of advisory panels and 
steering committees, including chairing the National Research Council1s 
Panel on Abrupt Climate Change, and has provided requested advice to 
numerous government officials in multiple administrations including a 
U.S. Vice President, the President's Science Advisor, and a Senate 
Committee. He has published over 170 refereed papers, and is a ``highly 
cited'' scientist as indexed by ISI. His popular account of climate 
change and ice cores, The Two-Mile Time Machine, was chosen science 
book of the year by Phi Beta Kappa in 2001. Dr. Alley is happily 
married with two children, two cats, and two bicycles, and resides in 
State College, PA, where he coaches recreational soccer and 
occasionally plays some.

    Chairman Miller. Thank you, Dr. Alley. A better analogy 
might have been a Labrador retriever.
    Dr. Juday.

   STATEMENT OF DR. GLENN PATRICK JUDAY, PROFESSOR OF FOREST 
ECOLOGY, SCHOOL OF NATURAL RESOURCES AND AGRICULTURAL SCIENCES, 
               UNIVERSITY OF ALASKA AT FAIRBANKS

    Dr. Juday. Thank you. I just want to point out at the 
beginning that I am bringing information that was requested 
from Vladimir Romanovsky and John Walsh as well who are 
specialists respectively in permafrost and sea ice, and I will 
try not to misconstrue the information that comes from 
publications that I have cited in the presentation; and if 
there are more detailed questions, I can certainly have them 
respond if it goes beyond my expertise. I am the frost guy.
    First, on permafrost, permanently frozen ground or at least 
ground that has remained in a frozen state for two years 
underlies a significant part in the northern portion of the 
planet and in certain places can contain large lenses of pure 
water ice but a lot of frozen organic material. We have 
recognized three kinds of permafrost, the continuous permafrost 
in the coldest portion; the discontinuous permafrost where the 
temperatures are marginal, and local, side factors take over 
the determination of whether you are going to stay in the 
frozen condition or not; and then in the southernmost extent, 
only the very coldest spot localities in the landscape have 
permafrost.
    Permafrost temperature measurement has not been a big field 
in science, and very few people have done that work. Dr. 
Romanovsky is one of them and taking over some early work done 
by Dr. Tom Ostercamp.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here you see a plot of the actual frozen ground temperature 
trends since the late 1970s, so we have about a 30-year 
perspective. The trend is up. Equations that predict the 
temperature of permafrost work exceptionally well with just a 
few input factors, air temperature obviously is one of them, 
but snow cover is an extremely important one. And we have seen 
a very strong rise and then a kind of leveling or even a 
backing off a little bit because of a trend toward decreasing 
snow cover. All the models say more snow cover under the 
warming Earth, and all the data say--not quite all the data but 
a significant number of stations, they have had less.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here is a depiction of nearly a century worth of air 
temperature data from Central and Southcentral Alaska. You see 
that permafrost forms in the region when the mean annual 
temperature is between 0<SUP>+</SUP>C/32<SUP>+</SUP>F and -2, 
and you see that in the Talkeetna area in Southcentral Alaska 
with the decisive move of temperatures about 30 years ago in 
the regime shift, we are completely out of that zone. And in 
Central Alaska, in Fairbanks, about half of all years are spent 
in the zone where at least some thawing will begin.
    So what does this mean? Just allowing for not an 
acceleration but a continuation of recent trends in 
temperatures, the red areas depicted here would be those that 
would thaw ultimately. Again, there is a long lag effect 
because there is a lot of insulation power in that material 
that is on the ground, and it goes some depth into the ground; 
but the initiation of thawing would begin in the areas depicted 
there.
    Now, so what? Big deal. Who cares? Well, it is a big deal 
for a couple of things. Linear infrastructure is the thing most 
at risk, railroads, roads, pipelines, because you have to get 
from point A to point B, and avoidance is not an option. So 
that means you got to deal with it. It can be engineered, but 
it is going to cost. Some structures, such as the pipeline, 
advance the technology of dealing with permafrost with natural 
convected cooling fans and things, but those were designed for 
again, mean annual temperature. They are engineered for it and 
achieving a certain amount of cooling and a careful look may 
need to be paid at the design capacity of those systems.
    Now buildings and building footprints on permafrost can be 
a significant problem. If the building is small and low value 
enough, maybe a low-cost solution like just adjustable 
foundations can work. In other cases, if you are going to put a 
major investment in the ground, you are dealing with probably 
something else entirely.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Now, perhaps of more global significance is the role that 
thawing the permafrost is going to have in releasing as you 
pointed out, Mr. Chairman, the greenhouse gases into the 
atmosphere. Spontaneous thaw of permafrost is observable on the 
landscape today as you can see. It can come out in two 
different forms, one, CO<INF>2</INF> when the decomposition is 
aerobic, but it can also come out as methane when the 
conditions are anaerobic. And as lenses of ice thaw and then 
melt, the ground subsides, fills with water, creates anaerobic 
conditions, lack of oxygen, what comes out is methane. It 
generally has been vastly underestimated in the past, and the 
reason is it comes out in a way that is hard to measure, and 
that is these bubbles.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here you see the bubbles trapped in clear water ice. That 
methane of course is an extremely powerful greenhouse gas, and 
per unit volume is 21 times more powerful in producing a 
greenhouse effect.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This, now, collapsed ponds and efoliation or bubbling up of 
methane is a widespread phenomenon observable in parts of 
Alaska and in Siberia.
    So what does this all mean? Let us get some numbers on the 
table here. As you pointed out, gigatons of carbon per year. 
Recent years we have been combusting about 6.3. Essentially 
permanent land use change in the tropical forest regions has 
been usurping the uptake so that we get 7.9. However, 
fortunately for us, uptake in storage on land has been about 
2.3 and similar amount in the world ocean, so that the net 
problem that we experience is an uptake of 3.3, which is 
considerably less than the 7.9. I am afraid I have to tell you 
that there is every indication that the ability of land 
ecosystems to store carbon is going down and probably down very 
significantly, and they may very soon be net neutral.
    Now, in terms of storage, it is just a slightly different 
story. The tundra and the boreal systems are pretty good at 
growing plant material but really not so good at decomposing it 
because of the cold soils. The tropical forests are some of our 
most productive systems on the Earth, that is uptake of carbon, 
but they decompose just about the same amount, very low 
storage. So in that storehouse, that locker of carbon that 
makes up the ground layer in the cold regions, we are seeing 
some very momentous developments. For example, we had a 
September tundra fire, extremely rare event; and it was not a 
small one, it was a very, very large one. It was over 175,000 
acres.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    You can see the footprint of the fire on the north slope of 
Alaska here. We have a reasonable record of wild land fire in 
Alaska for 57 years, and the record is not being kept according 
to the fuel type that burned, whether it was tundra or whether 
it was forest; but I asked the Alaska Fire Service, and they 
produced this statistic. If you draw a line at 68 North, north 
of that there just generally aren't forests. So let us focus on 
that, and we will be sure that we are getting a tundra single.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This is as clear as the evidence gets. There were no tundra 
fires. Then came a period when at peak warmth we had one, two, 
and now a very substantial increase in tundra fire.
    Now, let us transition a little further south of the boreal 
forest, that is that belt of conifer-dominated forest land 
south of the tundra. It has this tilt to it, so that in the 
western North American boreal is further north and more 
productive in equivalent latitude than in eastern North 
America, and that is because of the introduction of warm air 
from the south by the storm systems and its export with a 
little boost from the cold ice regions of eastern North 
American Arctic.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This is a graphic I actually produced for the Select 
Committee that I testified to two weeks ago. We were going to 
this stand when we had to cancel the trip this summer but did 
have the hearing, and in that stand that I have been monitoring 
for 20-some years, I just plotted the predictive index of 
temperature that tells us how much the forest should grow 
versus the ring width, which is the vertical axis there of this 
sample. And you can see that warmer, the less it grows. The 
interesting thing is where the index doesn't work for example, 
the forest grew less than the prediction. There is a good 
reason for that, for example, spruce bud worm outbreaks, the 
trees covered with volcanic ash.
    Here is our record-warm summer, 2004, which predicted the 
growth in 2005; and you see there is a zone of uncertainty 
around the trend line which means that we are extremely close 
to what you could call the kill zone, lethal temperatures, 
where the trees would spontaneously die in the forest because 
it is just too warm for their adaptive capabilities. You can 
see that is about one degree C.
    Now, is that a local phenomenon? Is that just something I 
found in my plot in my course?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This is a satellite observed, photosynthetic trends 
measured from 1980 through 2003 by Scott Goetz, and these are 
pixels depicted here, 10-by-10 kilometer chunks of the Earth; 
and if during that period of time the photosynthetic trend was 
down or strongly down, it is colored blue, and as you can see, 
the entire boreal forest of North America shows considerable 
amount of blue or neutral--no large increases.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We are seeing things for example the spruce bud worm now 
exhibiting outbreak behavior. It is an insect that hatches, 
feeds on the foliage like this, and leaves the tree in this 
condition after it is done feeding, and there is a direct 
temperature control. It is a major insect species in the 
Canadian boreal forest. We have never seen it in outbreak mode 
in the northernmost boreal forest. Now it is. Temperatures were 
too low, now they are warm enough, now it is killing the trees.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    You can see clearly a record in tree growth. There is the 
2005 hot, dry year. There is the spruce bud worm outbreak. This 
is killing the growth of the forest. But that is not all. There 
is leaf scorch on birch trees. It is the last symptom to appear 
before the tree dies and when it is running out of water. A 
three-tone color in which there is death or necrosis of tissue 
around the margin and the breakdown of chlorophyll so that you 
have the yellow zone, and finally, the green is retained only 
around the veins where the water can be first introduced into 
the leaf. Similar kill zone is apparent in our most sensitive 
sites that grow birch, and in fact, of the 2004 temperature 
indicating, well, we entered the kill zone. So do we have dead 
trees? Yes. Head of the Forest Health Survey took my research 
seriously, and so he went out and he looked and he found dead 
trees that were not killed by insects that apparently were the 
result of this phenomenon.
    Fires, we had the record fire year in the season 2004. If 
you take the northeast quadrant of Alaska, 15 to 20 percent of 
all forest land burned in one year. Then something very close 
to that happened the next year, another seven to 10 percent. So 
in a two-year period, we had one-fourth to one-third of all 
forest land in the northeast quadrant of Alaska burned.
    Finally, I will just do a couple of comments about sea ice 
that is going to be the subject of a lot of discussion from a 
couple perspectives here.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This is the depiction of the sea ice cover as of I think it 
is a week-and-a-half ago. You see the long-term mean in the 
upper black line. The dashed line was the previous record low, 
the 2005 record, and you see 2007, 25 percent below the 
previous low record which was set only two years ago.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Here is a depiction of the seasonal and annual sea ice 
extent. There are two different standards for measuring this. 
In case there is some confusion in some of the numbers thrown 
around, just be aware of that. There is this sea ice edge, and 
there is also total sea ice cover, which accounts for leads and 
openings further north but as you can see, a radical reduction 
in a one-year period in the sea ice cover at the end of the 
summer.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    And perhaps as significant, there are these zones of 
retreat that rotate around along with the movement of the ice 
in the polar gyre that have brought open water conditions very 
far north in the past but usually in a lobe or a finger in one 
particular sector of the arctic. But during the period of the 
satellite record, no open water has ever been seen in the area 
depicted here, and that was entirely free of ice and contiguous 
with other open water all the way to the south.
    The last point I will make is a little community of 
Shishmaref, you may have heard of it, had the opportunity, in 
the hearing two weeks ago, to be accompanied by Mayor Stanley 
Tocktoo who is mayor of this community, and just to give you a 
picture of what they are dealing with, these are self-reliant 
people who work hard. They engage in hard, physical labor, not 
for cash but for a considerable period of the year to get the 
food they need. They go out on the ice to hunt. They gather, 
they fish, they engage in these activities; and they can tell 
you, their environment is changing. Pack ice should be 
presenting and forming right about now; it traditionally has 
been, giving them access to the seals they hunt and a very 
important part of their annual diet; and they are not able to 
be safely on the ice at this time.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    For example as you see here in February and the erosion 
that is now possible from the storm and the fetch that the wind 
has access to churn and push this water because of the 
disappearance of the sea ice is causing enormously accelerated 
erosion, and the community is literally being destroyed.
    So in summary, the permafrost definitely is warming. The 
first stages of thawing are obvious. The boreal forest has 
burned, is sick, or is dying on a very extensive scale. Its 
ability to store carbon is being severely compromised, and 
immobilization of carbon that has previously been stored is 
well under way. Sea ice is treating and also thinning. I have 
touched on other things such as glacier melting, sea level 
rise, lakes drying, species movements, etc., but if you have 
questions on those areas, I will attempt to answer them. Thank 
you.
    [The prepared statement of Dr. Juday follows:]

               Prepared Statement of Glenn Patrick Juday
                           with assistance by
           Vladimir Romanovsky, Professor of Geophysics, UAF
        John Walsh, President's Professor of Climate Change, UAF
            F. Stuart Chapin III, Professor of Ecology, UAF
                  Stanley Tocktoo, Mayor of Shishmaref

Climate Change in the Alaskan Arctic and Subarctic: A Vast Panorama of 
                   Comprehensive Environmental Change

    Mr. Chairman and Members of the Committee, I would like to thank 
you for the invitation to present some information to the Committee 
concerning recent climatic changes, their current effects, and the 
likely future situation in the Arctic and Subarctic. I have been 
assisted in preparing my presentation by senior colleagues at the 
University of Alaska in subjects related to climate change of interest 
to the Committee.
    I have had the opportunity to work with these colleagues in teams 
involved in integrated climate change assessment, and they have 
provided publications and data for this presentation. I have attempted 
to restrict my characterization of their findings to these sources, but 
if further clarification is required I will convey the issues back to 
them for a definitive response.
    I also recently had the opportunity to accompany Mayor Stanley 
Tocktoo in recent meetings and testimony before Congress, and he 
generously shared information from the presentation he used which was 
assembled by the community of Shishmaref, Alaska.
    The focus of my presentation is the American portion of the 
Arctic--in Alaska. For a comprehensive review of the whole region, 
especially the background setting and processes of this unique part of 
the world, I refer the Committee to the Arctic Climate Impact 
Assessment:

         www.acia.uaf.edu

    This written statement is meant to accompany the PowerPoint 
presentation I have provided the Committee, which has maps, graphics, 
citations, and other specific details.

1. Permafrost.

    One of the unique features of the Arctic and Subarctic regions is 
the extensive presence of cold soils and permafrost. Permafrost is soil 
and ground material that remains frozen for more than two years. 
Permafrost forms when mean annual temperatures are below freezing, 
generally in the range of 0 to -2 degrees C. Differences in soil 
texture, water content, and site characteristics can allow permafrost 
to form at annual temperatures equal to freezing, or require annual 
temperatures well below freezing. Permafrost everywhere disappears at a 
great enough depth where heat from the geothermal gradient overcomes 
cold surface temperatures. Permafrost (the frozen material itself) 
occurs at a range of temperatures from near 0 degrees C to ten or more 
degrees below. As a result, the coldest regions make up a continuous 
permafrost zone across the landscape. Slightly warmer cold regions are 
within the discontinuous permafrost zone, where occurrence of the 
frozen state is influenced by local factors. Areas with only isolated 
or sporadic masses of permafrost make up a third zone.
    Permafrost can be ice-rich, in which case thawing melts the frozen 
water content and causes ground subsidence, or it can be dry, leading 
to little potential for surface change between the frozen or thawed 
condition. Temperature trends in permafrost are increasing clearly, and 
across nearly all the Arctic and Subarctic. Permafrost temperatures are 
in exceptionally close agreement with predictive models of mean annual 
air temperature, snow depth and duration, and soil composition. 
Reliable permafrost temperature measurements generally date back only 
to about 1970, although the predictive models can be run backward in 
time with good confidence. Observations of permafrost thawing at its 
southernmost limits in the U.S., Canada, and central Asia are 
widespread.
    Surface-disturbing activities, such as road and building 
construction, and natural events such as wildfire, can tip the thermal 
equilibrium toward thawing in warmer permafrost regions, and have for 
some time. But these processes are producing more widespread effects in 
recent warmer conditions. All the permafrost in central Alaska has been 
trending upward in temperature, and now nearly all of it is only -0.5 
to -2.0 degrees C. Annual air temperatures above freezing are now 
occurring across large portions of the permafrost regions, and are 
certain to thaw the permafrost if sustained. The only questions are 
exactly where (the sequence of microsites) and how fast. Calculations 
indicate that a substantial fraction of existing permafrost has started 
or will start the thaw process (which may take decades or centuries to 
complete to the greatest depths) in the next several decades.
    Linear infrastructure (roads, pipelines, railroads, etc.) are at 
most risk from thawing permafrost, because such developments must 
proceed from point A to point B at some location, making avoidance of 
permafrost unworkable. Developments and structures can be engineered to 
minimize thaw or even keep ground material frozen. But such engineering 
features are substantial costs and are not easily retrofitted.
    Permafrost and other cold soils hold an amount of carbon that, if 
it were entirely combusted, would double atmospheric CO<INF>2</INF> 
content. Warming and/or thawing of the cold or permafrost soils is 
beginning to move this carbon into the atmosphere in a variety of ways.
    Some of the largest wildland fires or burning seasons on record 
have occurred in the Arctic and Subarctic in direct response to 
increasing temperatures and drying.

2. Boreal Forest.

    About half of the world forest area has been converted to other 
land uses on a long-term or essentially permanent basis. The boreal 
forest is the most stable by far of all the world's forest regions in 
terms of forest conversion or destruction. Until recently the boreal 
forest has also been the most ecologically intact of the world's forest 
regions. These characteristics and the substantial annual surplus of 
growth (which removes carbon from the atmosphere) compared to 
decomposition (which releases carbon to the atmosphere) made the boreal 
forest one of the key land areas of the world in naturally reducing the 
buildup of greenhouse gasses.
    Now, a variety of high temperature-related stresses have become 
pervasive in much of the boreal forest, especially in Alaska, seriously 
affecting its ability to continue to store carbon at the same levels as 
the past.
    Measurement of tree-ring growth versus temperatures over the last 
century or so have shown that many trees on many site types 
consistently grow less in the warmer years and grow more in the cooler 
years. This negative response to warming has only been appreciated for 
the last decade or so, and it has been shown to be a consequence of 
high temperature-caused lack of water that induces plant shut-down.
    Because the temperature increases during the last few decades in 
central Alaska have been among the greatest on the planet, the tree 
growth reduction effect has been considerable. Temperatures that 
consistently predict the growth of trees in boreal Alaska are 
approaching lethal limits. During the record warm summer of 2004 and 
2005, some tree death from drought appears to have occurred in 
populations of Alaska birch.
    High temperatures also trigger outbreaks of forest-damaging or 
forest-killing insects. Outbreaks of known or suspected high 
temperature-related insects have occurred simultaneously across boreal 
Alaska and now much of western Canada.
    Finally, wildland fires have increased to record levels and burned 
one-fourth to one-third of all forest land in the northeast (hottest 
and driest summers) quarter of Alaska.

3. Arctic Sea Ice.

    Arctic Ocean sea ice is a complex and dynamic phenomenon. A variety 
of physical processes occur as sea water nears freezing temperatures, 
changes from the liquid to the solid state, and coalesces into larger 
scale structures.
    Of key biological importance is the expansion of water to maximum 
density at four degrees C, which then causes sinking in the water 
column to the bottomwater at that temperature. The sinking action 
forces or displaces older, nutrient-rich bottomwater upward, allowing a 
bloom of marine productivity during the time of year that sunlight is 
available. Ice crystal and structures themselves serve as secure 
attachment point for specially adapted algae, with is another unique 
source of marine production in these cold waters compared to the rest 
of the world ocean.
    The Arctic is the world's most land-dominated ocean. Several 
northward-flowing rivers transfer relatively large amounts of heat, 
freshwater, and nutrients into the ocean. The result of all the 
processes promoting productivity is a highly productive marine 
ecosystem in the northern, ice-edged seas, in distinct contrast to the 
level of annual production in nearby land ecosystems. It is no co-
incidence at all that the cultures and current activities of the native 
people of the Arctic are highly oriented to hunting the abundant marine 
mammals, birds, fish, and other resources of the productive continental 
shelves and shores of their homeland.
    During the strong global warming (probably due to orbital 
influences on the amount of solar energy reaching the far north) that 
decisively ended the last ice age starting about 12,000 years ago, a 
period of seasonally ice-free Arctic Ocean occurred probably about 
8,000 years ago. A gradual cooling began between 6,000 years ago, and 
continued with irregular warm periods, until the last century.
    Comprehensive satellite-based records of the mount of sea ice start 
in the late 1970s. But the orientation of the Arctic residents and 
harvested resources toward the sea, visiting fleets, and records from 
explorers and the early scientific era give a good picture of the 
extent and location of sea ice for the last century and a half, with 
trends and low precision before, and very high precision for the most 
recent 30 years.
    Changes in sea ice that are unique in the last several centuries 
have appeared suddenly and extremely strongly in the last five years, 
culminating in an extreme record of ice disappearance in September 
2007. Influx of warmer Atlantic and Pacific Ocean bottom water, 
expulsion of multi-year ice, ice thinning, coating of the ice with 
small, dark soot particles, and cycles of atmospheric currents all 
played a role in the recent disappearance of Arctic sea ice. But the 
feedback influence of converting sunlight-reflective ice with sunlight 
absorbing open water on over huge areas of the Arctic Basin, represent 
one of the strongest feedbacks to global temperature increases in 
recent times of the planet. This change is not likely to be reversed 
soon.
    As I am sure the Committee is aware, a whole new set of strategic 
international relations has appeared as a result of the Arctic Ocean 
now becoming navigable to ordinary marine vessels. The residents of the 
Arctic now have a more difficult time gaining access to harvestable 
food resources on stable or predictable ice platforms. The lack of 
near-shore ice may be reducing local marine productivity by putting the 
ice edge over deep water. Finally, the existence of large areas of open 
water allows more frequent and stronger storms to batter the shore 
which is devoid of ice protection. The resulting extreme acceleration 
of shoreline erosion is displacing people of the region.
    I thank the Committee for focusing on these historic, rapidly 
unfolding, and powerful events, and I offer to assist Members in 
obtaining additional information.

                   Biography for Glenn Patrick Juday

    Glenn Patrick Juday, is Professor of Forest Ecology and Director of 
the Tree-Ring Laboratory in the School of Natural Resources and 
Agricultural Sciences at the University of Alaska Fairbanks, where he 
has worked since 1981. Dr. Juday is currently a Senior Investigator in 
the NSF-supported Bonanza Creek Long-Term Ecological Research site in 
central Alaska. His research specialties include climate change, tree-
ring studies, biodiversity and forest management, and forest 
development following fire. He is the Lead author of the chapter on 
Forests and Agriculture of the Arctic Climate Impact Assessment, and a 
contributing author to the chapter on Biodiversity Conservation. Dr. 
Juday has served as science advisor for several U.S., Asian, and 
European television programs on climate warming, including the PBS 
series Scientific American Frontiers His research results were 
discussed in two issues of National Geographic magazine in 2004. He has 
briefed and led trips for several Members of Congress. Dr. Juday was 
recognized for outstanding accomplishments as Chairman of Forest 
Ecology Working Group of the Society of American Foresters in 2000. He 
is the author of over 30 scientific peer-reviewed journal articles and 
book chapters including Nature, Climatic Change, Global Change Biology, 
Forest Ecology and Management, and Canadian Journal of Forest Research. 
He has book chapters published by Oxford University Press, Cambridge 
University Press, and Annual Review of Ecology and Systematics.
    Dr. Juday received his B.S. summa cum laude, in 1972 in Forest 
Management from Purdue University, and his Ph.D. in 1976, in Plant 
Ecology from Oregon State University. He completed a Rockefeller 
Foundation Post-Doctoral Fellowship in Environmental Affairs, 1976-1977 
serving as Executive Chair of the Oregon Natural Area Preserves 
Advisory Commission. He spent a sabbatical in the headquarters of The 
Nature Conservancy in Arlington Virginia in 1988.

    Chairman Miller. Thank you, Dr. Juday. I did not want to 
interrupt that because it is obviously important, but if you 
would try to summarize some of your testimony, it would be 
helpful to the Committee.
    Dr. Haseltine.

  STATEMENT OF DR. SUSAN D. HASELTINE, ASSOCIATE DIRECTOR FOR 
  BIOLOGY, U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF INTERIOR

    Dr. Haseltine. Thank you, Mr. Chairman, and Members of the 
Subcommittee for the opportunity to participate in today's 
hearing. I would also like to introduce one of our sea ice 
researchers from Alaska, Dave Douglass, sitting behind me. Dave 
was a member of the team that produced the reports that I am 
going to talk about today.
    Global climate change is one of the most complex 
environmental challenges obviously facing society today. And 
while climate change is a natural, continuous Earth process, 
changes to the Earth's climate are also related to human 
activities; and whether the causes are natural or from human 
influence, the USGS scientists focus on understanding the 
impacts of climate change and potential adaptive strategies for 
managing natural resources and ecosystems in the face of these 
changes on the landscape.
    The USGS conducts scientific research to understand the 
likely consequences of climate change using three primary 
strategies, first by studying how climate has changed in the 
past and using the past to forecast responses into the future, 
second by distinguishing natural and human-induced changes 
where possible, and third by quantifying both biological and 
physical responses to climate change.
    Today I want to discuss the changes that have been observed 
and modeled in Arctic sea ice and their impacts on the top 
predator in that environment, the polar bear. Data from the 
satellite record for the past three decades shows a decline of 
about 10 percent per decade in the minimum annual sea arctic 
sea ice extent at the end of the summer melt season; and in 
this year's melt season, as has been noted, the minimum ice 
coverage in the Arctic was measured at about four million 
square kilometers, and that represents about 40 percent less 
ice than was observed in 1979 when we had the first satellite 
records.
    While rising Arctic air temperatures have certainly 
contributed to this loss of sea ice, there are several other 
factors that have interacted to accelerate the loss, and there 
is a growing scientific concern that the synergism of recent 
events in the Arctic, regardless of their origin, may have 
already pushed the Arctic past a threshold of cascading change.
    The USGS and our partners around the Arctic have a robust 
baseline of data for assessing polar bear populations, for 
defining essential polar bear habitat in the sea ice, and for 
making projections of future population status. The nine 
recently released USGS reports build on this history of 
research and collaboration and culminate in a new range wide 
forecast of polar bear status under various projections of 
future climate change. To forecast the status of polar bear 
population worldwide during the 21st century requires modeling 
information on the future habitat conditions for polar bears 
and also on their projected population status. We used ten of 
the general circulation models that were used in the IPCC 
Fourth Assessment Report in projecting this change, and those 
ten were the ones that most closely mirrored the sea ice change 
that we have observed over the last few decades.
    We used middle-of-the-road carbon loading scenarios in 
making our projections, and we developed a future model then 
that combined information about annual and seasonal sea ice 
change, habitat preferences for polar bears, and population 
demographics to predict likely polar bear numbers and 
distributions into the future. The model results show that by 
the mid-century polar bear populations will likely be 
extirpated from their southernmost range in southeastern 
Canada, as well as from the Arctic regions bordering Alaska, 
Russia, and Europe. By late century, populations in east 
Greenland and the North Beaufort Sea will also likely be gone. 
And as stated before, these regions now support two-thirds of 
the worldwide population of polar bears, which is estimated at 
between 20,000 and 25,000 animals.
    However, the models also predict a strong likelihood of 
polar bears surviving in the high Canadian Arctic, which may 
provide a source of animals to reestablish former ranges if the 
Arctic's sea ice environment is restored to present conditions.
    Preliminary USGS analysis of other carbon loading scenarios 
indicate that less atmosphere carbon dioxide loading does not 
substantially change outcomes for polar bears through the mid-
century but does result in less loss of sea ice and thus polar 
bear habitat by the end of the 21st Century.
    At the USGS we recognize that the momentum of atmospheric 
greenhouse gas loading will challenge us with climate-related 
issues for at least the next 50 years. A better understanding 
of sea ice must be combined with an understanding of ecological 
response and adaptation to provide the best information to the 
decision-makers. We believe that outputs from coupled physical 
and biological forecasting approaches, as presented in our 
recent reports, will better inform decision-makers as they 
address climate adaptation. Such forecasting will require 
continued long-term monitoring of both sea ice and ecological 
response, focused studies of ecological processes in response 
to climate change, and the application of many new and emerging 
modeling approaches by science with many different specialties 
working together.
    Thank you for the opportunity to present and address you 
today.
    [The prepared statement of Dr. Haseltine follows:]

                Prepared Statement of Susan D. Haseltine

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to participate in today's hearing to discuss emerging 
insights into the present and potential influences of climate 
variability and change on resources of interest to the American people. 
My name is Dr. Susan D. Haseltine, and I am the Associate Director for 
biology at the U.S. Geological Survey (USGS).
    Global climate change is one of the most complex and formidable 
environmental challenges facing society today. While climate change is 
a natural, continuous Earth process, changes to the Earth's climate are 
related to human activities as well. Whether the causes are natural or 
from human influence, our focus is on understanding the impacts of 
climate change and the potential adaptive strategies for managing 
natural resources and ecosystems in the face of these changes.
    Today, one need only turn to the Far North to witness the emerging 
signature of climate change. In Arctic and subarctic regions, the 
shrinking extent of and structural changes in sea ice and permafrost 
are a strong and visible signal of contemporary change in the Earth's 
climate system. Sea ice controls its associated ecological systems: 
From oceanographic patterns through the food chain to ice seals and 
polar bears, the Arctic marine world is tied to the dynamics of sea 
ice. I will focus my remarks on the realm of sea ice and recent 
publications by the USGS on this environment and its top predator, the 
polar bear. It should be recognized that this important work is part of 
a broad body of research carried out by other federal agencies and 
nations around the Arctic.
    Data from the observed record document a recent history of change 
in Arctic sea ice. Observations from the available satellite record 
(1979-2007) show a decline of 10 percent per decade in the minimum 
annual Arctic sea ice extent (end of summer melt season). That decline 
is punctuated by this year's (2007) melt season, which reduced the 
minimum ice cover in the Arctic to just over four million square 
kilometers--as compared to the 7-8 million square kilometers observed 
at the beginning of the satellite record (1979-1980). The 2007 melt 
season thus reflects a roughly 40 percent reduction in ice extent from 
the 1979-2000 average. Even more significant is the degree to which the 
year 2007 surpassed the previous sea ice loss record of 2005--by about 
one million square kilometers.
    Owing to the influential role that sea ice plays in Earth's climate 
system, numerous institutions and agencies worldwide (including the 
USGS) are conducting research to better understand the mechanisms and 
trajectory of sea ice change. The USGS is an active collaborator in 
this arena. Complementing the extensive amount of research supported by 
the National Science Foundation, NASA, NOAA and others, the USGS is 
helping to define an emerging understanding of the changes in ice age 
structure and the relationships of those trends to atmospheric 
circulation patterns, thermal forcing, and other controlling 
mechanisms. While rising Arctic air temperatures have certainly 
contributed to the loss of sea ice, several other factors have 
interacted to accelerate the loss. Changes in prevailing wind patterns 
(Maslanik et al., 2007) have caused much of the older and thicker sea 
ice to drift out of the Arctic Ocean (Rigor and Wallace, 2004; 
Belchansky et al., 2005), leaving behind a younger and thinner ice pack 
that is more vulnerable to the summer melt season. Concurrently, warmer 
ocean water has been entering the Arctic from both the Atlantic 
(Polyakov et al., 2007) and Pacific (Woodgate et al., 2006). A warmer 
Arctic Ocean further reduces the air-water temperature gradient, which 
suppresses winter ice growth (thickening) and renders it more 
susceptible to summer melt. And finally, onset of the Arctic melt 
season has been getting earlier (Belchansky et al., 2004; Stroeve et 
al., 2006). Earlier springs trigger an earlier start to an important 
positive feedback loop that begins when the bright surface of the ice 
darkens from the presence of melt ponds and open water, the darker 
surfaces warm faster because they absorb more solar radiation, and the 
warmth promotes more melt--and so on. To what degree natural climate 
variability has exacerbated the recent loss of sea ice is not well 
understood. However, there is growing scientific concern that the 
synergism of recent events, regardless of their origin, may have 
already pushed the Arctic past a threshold of cascading change (Lindsay 
and Zhang, 2005; Serreze and Francis, 2006).
    The USGS is well poised to address the implications of ecological 
change in the Arctic by integrating its geophysical and biological 
expertise. Foremost among USGS biological studies in the Arctic is a 
long-term program of polar bear research. Owing to both the study's 
three-decade history and its longstanding collaboration with countries 
within the circumpolar distribution of polar bears, the USGS has 
accumulated a robust baseline of data crucial for assessment of 
population status in long-lived species such as the polar bear, for 
defining essential habitats, and for making projections of population 
status into the future. Nine recently released USGS reports build on 
this history of research and culminate in a new rangewide forecast of 
polar bear status under various projections of future climate change 
(Amstrup et al., 2007; Bergen et al., 2007; DeWeaver, 2007; Durner et 
al., 2007; Hunter et al., 2007; Obbard et al., 2007; Regehr et al., 
2007a; Rode et al., 2007; Stirling et al., 2007).
    Polar bears occur throughout portions of the Northern Hemisphere 
where the sea is ice-covered for all or much of the year and 
essentially derive their sustenance predominantly from ice seals such 
as ringed seals. The dependence of polar bears on hunting at the ice 
surface raises concern about the implications of sea ice loss. In the 
southern parts of the polar bear range, such as Hudson Bay, the sea ice 
melts entirely each summer and bears fast until the ice refreezes in 
autumn. However, warming temperatures have established a trend of 
earlier sea ice break-up, leaving the bears stranded on land and 
deprived of food for longer periods of time (Stirling and Parkinson, 
2006). Recent data published by USGS and Canadian scientists document 
lower survival rates among young and sub-adult bears and establish 
scientific linkages between less ice cover, reduced survival, and 
population decline (Regehr et al., 2007b).
    Similar to the early-warning signs seen in Western Hudson Bay, 
declines in body condition and survival are now documented for polar 
bears in Southern Hudson Bay and the Southern Beaufort Sea. These and 
other signs of stressed polar bear populations, together with the 
observed and forecasted declines in sea ice, prompted the USGS to 
assemble a team of polar bear, sea ice, and modeling experts aimed at 
reducing the uncertainties of observed and forecasted polar bear 
population status worldwide.
    Because of the poor fossil record, we do not know how the 
forecasted distribution of bears compares to bear distribution at other 
times in the past when ice extent may have been restricted similarly to 
the models used for our forecasting.
    The USGS assessed the pattern of observed changes in polar bear-sea 
ice habitat over the last two decades and forecasted the range of 
likely future habitat conditions out to the end of the century. Using 
long-term satellite tracking data from polar bear populations 
inhabiting the polar basin (Arctic Ocean), the USGS constructed habitat 
selection models using data collected during 1985-1995, before the sea 
ice changes had become pronounced. The resulting models demonstrated a 
strong preference for sea ice habitats that were near the periphery of 
the ice pack and over the shallow waters of the continental shelf. USGS 
habitat models for the 1996-2006 period found preferred habitats have 
already declined, especially in spring and summer with greatest losses 
in the Southern Beaufort, Chukchi, Barents, and Greenland seas (Durner 
et al., 2007).
    The USGS then projected the range of likely future polar bear 
habitat conditions employing ten General Circulation Models (GCM) from 
the Intergovernmental Panel on Climate Change (IPCC) Fourth Assessment 
Report. These models were selected on the basis of their ability to 
reasonably simulate the amount of observed sea ice cover in the 
Northern Hemisphere during the 20th century. It should be noted that 
the USGS used GCM projections derived entirely from the IPCC SRES-A1B 
greenhouse gas emissions scenario, which is also called the ``business 
as usual'' or ``middle of the road'' scenario, to develop sea ice 
projections. Preliminary USGS analyses of other emission scenarios (as 
corroborated in the IPCC Fourth Assessment Report) indicate that 
scenarios with less atmospheric carbon dioxide loading do not make a 
substantive change in polar bear outcomes through mid-century, but do 
result in less depletion of sea ice and thus polar bear habitat at the 
end of the century.
    Projections from the 21st century-based models exacerbated the 
already observed habitat losses, and added losses throughout all 
regions bordering Russia. Annual habitat loss for the full basin is 
projected at more than 35 percent by the end of the century, with a 
summer loss of nearly 80 percent for the Alaska-Eurasia portions of the 
Basin. In contrast, polar bear habitats were projected to be relatively 
stable during the 21st century in the high-latitude regions along the 
northwestern Canadian Archipelago and northern Greenland. These results 
are consistent with the general observation that most GCMs project 
modest ice declines in winter but strong declines in summer, resulting 
in either ice-free summers or remnant summer ice at the northernmost 
latitudes of North America.
    To forecast the status of polar bear populations worldwide during 
the 21st century requires not only information on likely future habitat 
condition (Durner et al., 2007) but also projections of population 
status based on present vital rates (Hunter et al., 2007). The USGS 
then developed a Bayesian network (BN) model structured around 
population stressors that could affect the factors considered in 
Endangered Species Act decisions (Amstrup et al., 2007). The BN model 
combined empirical data, interpretations of data, and professional 
knowledge into a probabilistic framework. The BN model incorporated 
information about annual and seasonal sea ice trends on populations as 
well as potential effects of other population stressors such as 
harvest, disease, predation, and effects of increasing human activity 
in the north due to ice retreat. Sensitivity analyses of the final 
model indicates that sea ice habitat loss is the overarching stressor 
responsible for model outcomes. Model results show that by mid-century, 
polar bear populations will likely be extirpated, or eliminated, from 
their southernmost range in southeastern Canada, as well as from 
regions of the polar basin bordering Alaska, Russia, and Europe. By 
late-century, populations in East Greenland and the Northern Beaufort 
Sea also have a high probability of extirpation. Model projections 
indicate a high likelihood of extirpation from regions of the Arctic 
that presently support two-thirds of the worldwide population of polar 
bears. These models, however, also predict a strong likelihood of 
remnant populations surviving in the high Arctic, which may provide a 
source of animals to reestablish former ranges if the Arctic's sea ice 
environment were to be restored by an ultimate slowing and reversal of 
global warming.
    The USGS recognizes that the momentum of atmospheric greenhouse gas 
loading will challenge us with climate-related issues for at least the 
next 30-50 years. As such, we anticipate that the traditional 
approaches to natural resource conservation, public land management, 
and civil infrastructure planning may require accommodating and 
adapting to ecosystem change. The USGS conducts scientific research to 
understand the likely consequences of climate change, especially by 
studying how climate has changed in the past, then using the past to 
forecast responses to shifting climate conditions in the future, 
distinguishing between natural and human-influenced changes, and 
recognizing ecological and physical responses to changes in climate. 
These strengths allow the USGS to play a critical role in conducting 
climate change science across the Nation. A better understanding of sea 
ice must be combined with an understanding of ecological responses and 
adaptation. We believe that coupled physical-biological forecasting 
approaches, as presented in recent USGS polar bear reports, will better 
prepare decision-makers as they address climate adaptation. Such 
forecasting will require continued long-term monitoring, focused 
studies of process, and the application of new and emerging modeling 
approaches implemented through collaborative efforts among federal, 
academic and other partners.
    Thank you for the opportunity to present this testimony. I am 
pleased to answer any questions you and other Members of the Committee 
might have.

References:

Amstrup, S.C., B. Marcot, and D.C. Douglas. 2007. Forecasting the 
        range-wide status of polar bears at selected times in the 21st 
        century. USGS Report to USFWS.

Belchansky, G.I., D.C. Douglas, and N.G. Platonov. 2004. Duration of 
        the Arctic sea ice melt season: regional and inter-annual 
        variability, 1979-2001. J. Climate, 17:67-80.

Belchansky, G.I., D.C. Douglas, and N.G. Platonov. 2005. Spatial and 
        temporal variations in the age structure of Arctic sea ice. 
        Geophys. Res. Lett., 32, L18504, doi:10.1029/2005GL023976.

Bergen, S., G.M. Durner, D.C. Douglas, and S.C. Amstrup. 2007. 
        Predicting movements of female polar bears between summer sea 
        ice foraging habitats and terrestrial denning habitats of 
        Alaska in the 21st century: Proposed methodology and pilot 
        assessment. USGS Report to USFWS.

DeWeaver, E. 2007. Uncertainty in climate model projections of arctic 
        sea ice decline. USGS Report to USFWS.

Durner, G.M., D.C. Douglas, R.M. Nielson, S.C. Amstrup, and T.L. 
        McDonald. 2007. Predicting the future distribution of polar 
        bears in the pelagic Arctic from resource selection functions 
        applied to 21st century general circulation model projections 
        of sea ice. USGS Report to USFWS.

Hunter, C.M., H. Caswell, M.C. Runge, E.V. Regehr, S.C. Amstrup, and I. 
        Stirling. 2007. Polar bear demography in the Southern Beaufort 
        Sea in relation to sea ice. USGS Report to USFWS.

Lindsay, R.W., and J. Zhang. 2005. The thinning of arctic sea ice, 
        1988-2003: Have we passed a tipping point? J. Climate, 18:4879-
        4894.

Maslanik, J.A., S. Drobot, C. Fowler, W. Emery, and R. Barry. 2007. On 
        the Arctic climate paradox and the continuing role of 
        atmospheric circulation in affecting sea ice conditions. 
        Geophys. Res. Lett., 34, L03711, doi:10.1029/2006GL028269.

Obbard, T.L. McDonald, E.J. Howe, E.V. Regehr, and E.S. Richardson. 
        2007. Polar Bear Population Status in Southern Hudson Bay, 
        Canada. USGS Report to USFWS.

Polyakov, I., and 19 others. 2007. Observational program tracks Arctic 
        Ocean transition to a warmer state. Eos., 88(40):398-399.

Regehr, E.V., C.M. Hunter, H. Caswell, S.C. Amstrup, and I. Stirling. 
        2007a. Survival and reproduction of polar bears in the Southern 
        Beaufort Sea in relation to declining sea ice. USGS Report to 
        USFWS.

Regehr, E.V., N.J. Lunn, I. Stirling, and S.C. Amstrup. 2007b in press. 
        Effects of earlier sea ice breakup on survival and population 
        size of polar bears in Western Hudson Bay. Journal of Wildlife 
        Management. 71(8):000-000.

Rigor, I.G., and J.M. Wallace. 2004. Variation in the age of Arctic 
        sea-ice and summer sea-ice extent. Geophys. Res. Lett., 31, 
        L09401, doi:10.1029/2004GL019492.

Rode, K.D., S.C. Amstrup, and E.V. Regehr. 2007. Polar bears in the 
        Southern Beaufort Sea: Body size, mass, and cub recruitment in 
        relationship to time and sea ice extent between 1982 and 2007. 
        USGS Report to USFWS.

Serreze, M. and J. Francis. 2006. The Arctic on the fast track of 
        change. Weather. 61(3):65-69.

Stirling, I., T. McDonald, E. Richardson, and E. Regehr. 2007. Polar 
        bear population status in the Northern Beaufort Sea.. USGS 
        Report to USFWS.

Stirling, I. and C. Parkinson. 2006. Possible effects of climate 
        warming on selected populations of polar bears (Ursus 
        maritimus) in the Canadian Arctic. Arctic, 59 (3):261-275.

Stroeve, J., T. Markus, W. Meier, and J. Miller. 2006. Recent changes 
        in the Arctic melt meason. Ann. Glaciol., 44(1):367-374

Woodgate, R.A., K. Aagaard, and T.J. Weingartner. 2006. Interannual 
        changes in the Bering Strait fluxes of volume, heat and 
        freshwater between 1991 and 2004. Geophys. Res. Lett., 33, 
        L15609, doi:10.1029/2006GL026931.

                    Biography for Susan D. Haseltine

Career History and Highlights:

    Dr. Haseltine has been with the USGS for more than 10 years. Before 
joining the USGS, she was Eastern Region Director for the former 
National Biological Service (NBS), and she became Chief Scientist for 
Biology when the NBS joined the USGS in 1996.
    Prior to joining the NBS, she managed the Refuges and Wildlife 
program in the Upper Midwest in Minneapolis, Minn., for the U.S. Fish 
and Wildlife Service (FWS) after serving as the Center Director for the 
Northern Prairie Wildlife Research Center in Jamestown, N. Dak. She 
joined the FWS as a researcher for the Patuxent Wildlife Research 
Center in Laurel, Md., and worked for more than a decade as a 
researcher and research manager before moving onto the Northern Prairie 
Wildlife Research Center.

Education:

    Dr. Haseltine has a doctorate and Master's in zoology from Ohio 
State University and a Bachelor's in wildlife science from the 
University of Maine.

    Chairman Miller. Thank you, Dr. Haseltine. My great fear is 
that Mr. Rohrabacher is going to think that my indulgence that 
I am showing today on time limits for witnesses' testimony will 
also apply for time limits for Members' questioning.
    Ms. Siegel.

 STATEMENT OF MS. KASSIE R. SIEGEL, DIRECTOR, CLIMATE, AIR AND 
 ENERGY PROGRAM, CENTER FOR BIOLOGICAL DIVERSITY, JOSHUA TREE, 
                           CALIFORNIA

    Ms. Siegel. Good morning, Mr. Chairman, and Members of the 
Committee. Thank you so much for the opportunity to testify.
    Early next year the polar bear will likely be listed as 
threatened or endangered under the Endangered Species Act. 
While enormously significant both legally and politically, the 
listing of the polar bear will not in and of itself be enough 
to save the polar bear or its Arctic Sea ice habitat. Last 
month the Arctic Sea ice reached a stunning new minimum.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The sea ice looked like this in September 1979, and like 
this in September 2007. This is a loss of one million square 
miles off the average minimum sea ice extent of the past 
several centuries, and the melt is happening faster than 
forecast. This slide shows climate model predictions of sea ice 
extent and the dashed colored lines compared to actual observed 
sea ice extent in the heavy red line.
    Sea ice in September 2007 was far below what any of the 
models predicted and perhaps most worrisome, there is less ice 
in the Arctic this year than more than half the models project 
for 2050.
    The polar bear is a creature of the sea ice and needs the 
ice for all of its essential behaviors, including traveling and 
mating and hunting the primary prey of ice-dependent seals. 
Polar bears cannot hunt seals from land, and so tied to the ice 
are they that some mother polar bears even give birth to their 
cubs in snow dens like this one on top of the drifting ice.
    Polar bears cannot survive without their Arctic sea ice 
habitat. The situation for polar bears in a rapidly warming 
Arctic is grim. Polar bears are drowning, resorting to 
cannibalism when they don't have access to their usual food 
sources, and starving.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This photograph was taken in Quebec, Canada, last month. 
This bear is in the final stages of starvation. While we cannot 
say for sure that this bear died as a direct result of global 
warming, we do know that global warming is increasing and will 
continue to increase the number of bears that suffer this fate. 
But we also know that it is not too late to do something about 
it. Motivated by the need to do so, the Center for Biological 
Diversity filed a petition to list the polar bear under the 
Endangered Species Act in February 2005. The listing process 
has already benefited the species by raising awareness of its 
plight and leading to new information, such as the U.S. study 
which predicts the extinction of two-thirds of the world's 
polar bears by 2050 which was conducted in support of the 
listing process.
    The Arctic has reached a critical threshold, and our window 
to act, like the ice itself, is melting rapidly away; but it is 
not too late. The grim projections from the USGS are based on 
the A1B IPCC Emission Scenario in which CO<INF>2</INF> 
concentrations reached 717 parts per million by the end of this 
century. We know that business as usual cannot continue, and we 
must limit CO<INF>2</INF> concentrations to below 450 parts per 
million. We need deep, rapid, and mandatory reductions in 
CO<INF>2</INF> to save the polar bear. But the Arctic has 
advanced so far toward the tipping point that CO<INF>2</INF> 
reductions are now necessary but not sufficient to save polar 
bears. Anything else we do may be futile if we don't address 
this most important of greenhouse gases. CO<INF>2</INF> has a 
long atmospheric lifetime, so the benefits of CO<INF>2</INF> 
reductions today will take a long time to be fully felt. We 
need a way to buy ourselves some time. Fortunately, we have an 
opportunity to do just that by addressing methane and black 
carbon emissions, both pollutants with short atmospheric 
lifetimes and a very high warming impact in the Arctic. By 
attacking methane and black carbon emissions, we can have a 
short-term benefit in the Arctic, and we can provide ourselves 
with the last and golden opportunity to give polar bears back 
their future.
    Methane is a globally well-mixed gas, 21 times more 
powerful than CO<INF>2</INF> but stays in the atmosphere for 
about 12 years. Methane also leads to higher levels of 
tropospheric ozone, which has a high warming impact in the 
Arctic where it absorbs light energy reflected off the snow and 
ice. So by reducing methane we can also reduce ozone levels in 
the Arctic and provide a double benefit to the region in the 
short-term.
    Further good news is that there are enormous amounts of 
cost-positive and no-cost methane reductions sitting on the 
table today. We have fantastic opportunities to capture methane 
from landfills and from livestock operations and use it to 
generate energy and to reduce methane losses from natural gas 
systems, just to name a few. According to conservative 
projections from the U.S. EPA, conservative estimates, we can 
reduce nearly 70 million metric tons of CO<INF>2</INF> 
equivalent methane emissions in the U.S. by 2010 at a cost 
benefit or no cost. That is the equivalent of getting paid to 
take 12 million cars off the road, and we can do so much more 
at low cost. But voluntary measures and the market have not 
provided the so-called no regrets emission reductions. We 
desperately need Congressional action.
    Black carbon or soot is emitted from the inefficient 
burning of fossil fuels, biofuels, and biomass. We have 
opportunities to reduce soot from sources such as diesel fuel 
and coal-fired power plants. Soot remains in the atmosphere for 
only about five days but has an extraordinarily powerful 
warming impact of about 500 times that of CO<INF>2</INF> over a 
100-year period. It is particularly important to address within 
Arctic sources like diesel generators and ship engines.
    The rapid melting of the Arctic is the Earth's early 
warning system, and yet like beachgoers chasing the receding 
waters immediately prior to a tsunami to gather up the exposed 
shellfish, nations and industry are racing to the newly ice-
free areas to stake claims for fossil fuel development and 
shipping routes that would commit us further down the path to 
climate catastrophe.
    To save the polar bear, we must not only find courage to 
reduce greenhouse gas pollution but also to protect the Arctic 
from further industrial exploitation. We believe that Congress 
should act immediately to slash methane and black carbon 
emissions. Methane emissions from landfills, livestock 
operations, natural gas systems, and other sources should be 
strictly limited. Black carbon emissions from the use of diesel 
fuel and coal must also be addressed. These measures will also 
greatly benefit our economy and public health. We also believe 
Congress should enact a moratorium on new fossil fuel leasing 
and development in the Arctic where these activities both 
directly impact the species most at risk for global warming and 
also contribute substantially to greenhouse gas emissions.
    If we truly act with speed and determination, it is not too 
late to save the polar bear, to save the entire productive 
Arctic ecosystem, and to avoid the worst impacts of global 
warming for ourselves.
    Thank you.
    [The prepared statement of Ms. Siegel follows:]

                 Prepared Statement of Kassie R. Siegel

Not too Late to Save the Polar Bear: A Rapid Action Plan to Address the 
                            Arctic Meltdown

    In early 2008, the polar bear will likely be formally declared 
``threatened'' or ``endangered'' under the Endangered Species Act. But 
listing of the polar bear under the Endangered Species Act, while 
hugely significant both legally and politically, will not in and of 
itself save the polar bear or its Arctic sea-ice habitat. In September 
2007, the same month that Arctic sea ice reached a new record minimum 
extent, government scientists predicted the polar bear would be extinct 
in Alaska by 2050 if current greenhouse gas emission trends continue.
    Predictions of polar bear extinction by 2050 may be optimistic. 
Recent reports from scientists indicate that global warming impacts are 
occurring earlier and more intensely than previously projected. Nowhere 
is this more apparent than in the Arctic where, in 2007, sea-ice extent 
shrank to a record one million square miles below the average summer 
sea-ice extent of the past several decades, reaching levels not 
predicted to occur until mid-century. Not only does the impending loss 
of Arctic sea ice mean the loss of an entire ecosystem, it will also 
greatly amplify warming impacts on a global level due to the greater 
absorption of the sun's energy by open water compared to the reflective 
ice.
    The rapid melting of the Arctic should be seen as an early warning 
of the broader climate crises to come if the U.S. and the world do not 
respond to global warming with the necessary urgency. Instead, like 
beach-goers chasing the receding waters immediately prior to a tsunami 
to gather up the exposed shellfish, nations and industry are racing to 
the newly ice-free areas to stake claims for fossil fuels and shipping 
routes that would lead us further down the path to climate catastrophe.
    The situation in the Arctic has reached a critical threshold. But 
with immediate action it is still possible to slow the melting of the 
Arctic. In addition to broader local, national, and international 
efforts to reduce U.S. and global carbon dioxide (CO<INF>2</INF>) 
emissions, saving the Arctic requires prompt reductions of other 
greenhouse gases, along with specific efforts to address direct threats 
to the region from industrial activities such as oil development and 
shipping. Reducing emissions of methane and black carbon, which both 
have short atmospheric lifetimes and a large warming impact on the 
Arctic, is a critical component of any effective action plan. Immediate 
methane and black carbon emissions reductions can buy the world a 
little more time to achieve the deep reductions in CO<INF>2</INF> 
emissions that are necessary to protect the far north. But the window 
of opportunity to act, like the ice, is shrinking rapidly.

I.  The Polar Bear, Global Warming, and the Endangered Species Act

    Polar bears are completely dependent upon Arctic sea-ice habitat 
for survival. Polar bears need sea ice as a platform from which to hunt 
ringed seals and other prey, to make seasonal migrations between the 
sea ice and their terrestrial denning areas, and for other essential 
behaviors such as mating. Unfortunately, the polar bear's sea-ice 
habitat is literally melting away.
    Global warming is impacting the Arctic earlier and more intensely 
than any other area of the planet. In parts of Alaska and western 
Canada, winter temperatures have increased by as much as 
3.5<SUP>+</SUP>C in the past 30 years (Rozenzweig et al., 2007). Over 
the next 100 years, under a moderate emissions scenario, annual average 
temperatures in the Arctic are projected to rise an additional 3-
5<SUP>+</SUP>C over land and up to 7<SUP>+</SUP>C over the oceans 
(Meehl et al., 2007).
    This rapid observed and projected warming is reflected in the 
devastating melt of the Arctic sea ice, which is highly sensitive to 
temperature changes. Summer sea-ice extent reached an unpredicted and 
utterly stunning new record minimum in 2007 (NSIDC, 2007a,b; Figures 1, 
2). At 1.63 million square miles, the minimum sea-ice extent on 
September 16, 2007 was about one million square miles\1\ below the 
average minimum sea ice extent between 1979 and 2000 (NSIDC, 2007a). 
The 2007 minimum was lower than the sea-ice extent most climate models 
predict would not be reached until 2050 or later. Leading sea ice 
researchers now believe that the Arctic could be completely ice free in 
the summer as early as 2030 (NSIDC, 2007b).
---------------------------------------------------------------------------
    \1\ One million square miles is equal to about the area of Alaska 
and Texas combined.
---------------------------------------------------------------------------
    Climate change in the Arctic has reached a critical threshold, and 
the future of the ice-dependent polar bear is grim. Even short of 
complete disappearance of sea ice, projected impacts to polar bears 
from global warming will affect virtually every aspect of the species' 
existence. These impacts include a reduction in the hunting season 
caused by delayed ice formation and earlier break-up, resulting in 
reduced fat stores, reduced body condition, and subsequent reduced 
survival and reproduction; increased distances between the ice edge and 
land, making it more difficult for bears to reach preferred denning 
areas; increased energetic costs of traveling farther between ice and 
land and through fragmented sea ice; and reduction in ice-dependent 
prey such as ringed seals and bearded seals (Derocher et al., 2004). 
Global warming will also increase the frequency of human/bear 
interactions, as greater portions of the Arctic become more accessible 
to people and as polar bears are forced to spend more time on land 
waiting for ice formation (Derocher et al., 2004). More human/bear 
interactions will almost certainly lead to increased polar bear 
mortality.
    Five of the world's polar bear populations are now classified as 
declining, with a 22 percent decline--from 1,194 bears in 1987 to 935 
bears in 2004--in Canada's Western Hudson Bay polar bear population 
(Aars et al., 2006). Recently, reports of polar bear drownings, 
cannibalism, and starvation have increased (Amstrup et al., 2006; 
Regehr et al., 2006; Aars et al., 2006). With the amount, location, and 
access to their ice-dependent seal prey changing rapidly, polar bears 
are increasingly vulnerable to starvation.
    Figure 1 shows a polar bear in the final stages of starvation. This 
photo was taken on September 4, 2007 on the Caniapiscau River in 
Canada, 160 km inland from Ungava Bay. While we cannot say for sure 
that this bear starved to death as a direct result of global warming, 
as we do not know the bear's history or origin, we do know that global 
warming will increase the number of bears that suffer this fate. We 
also know that we have the power to limit the number of polar bears 
that starve, drown, and resort to cannibalism, and to save the species 
from extinction by immediately reducing greenhouse gas pollution.
    The Center for Biological Diversity submitted a Petition to the 
Secretary of the Interior and U.S. Fish and Wildlife Service to list 
the polar bear under the Endangered Species Act due to global warming 
on February 16, 2005, motivated by the urgent need to reduce greenhouse 
gas pollution and otherwise protect the species. The Endangered Species 
Act is our nation's safety net for plants and animals on the brink of 
extinction, and our strongest and best law for the protection of 
imperiled wildlife. The Endangered Species Act listing process has 
already benefited the polar bear, will provide additional protections 
once the species is formally listed, and is a key component of saving 
the species.
    Critically important for the polar bear and any other species 
threatened by global warming, the Endangered Species Act requires all 
listing decisions be made ``solely'' on the basis of the ``best 
scientific. . .data available.'' 16 U.S.C.  1533(b)(1)(A). A decision 
not to list a petitioned species is subject to judicial review. It is 
this ``best available science'' standard that provides a vehicle 
through the petitioning process to force federal agencies to squarely 
address the science of global warming. Moreover, once the Endangered 
Species Act listing process is initiated, strict timelines apply, with 
an initial finding due within 90 days of the petition, a proposed rule 
within 12 months of the petition if the Fish and Wildlife Service finds 
that the species meets the criteria for listing, and a final listing 
determination within a year from the proposed rule. Species do not 
receive any regulatory protection under the Act until they are 
officially listed as threatened or endangered.
    A series of administrative and legal events in the listing process 
have greatly increased public awareness of the polar bear's plight. In 
December 2005, ten months after the Petition was filed, the Center for 
Biological Diversity, joined by NRDC and Greenpeace, sued the 
Department of Interior for failing to issue an initial finding on the 
Petition. In response, a positive initial finding was issued in 
February, 2006, initiating both a public comment period and full status 
review for the species. The deadline for the second required finding on 
the Petition, due within 12 months of receipt of the petition, was only 
one week away at the time the first finding was made. The lawsuit was 
ultimately settled with a court-ordered consent decree setting a 
deadline of December 27, 2006 for the Fish and Wildlife Service to make 
the second determination.
    On December 27, 2006, Secretary of Interior Dirk Kempthorne 
announced that listing of the polar bear is warranted and that the Fish 
and Wildlife Service would be publishing a proposed listing rule. The 
proposal to list the polar bear was greeted by worldwide media 
attention, resulting in over 250 television stories, more than 1000 
print stories and over 240 editorials. Over 600,000 comments were 
submitted during the public comment periods on the proposal. The final 
listing determination is due on January 9, 2008.
    Once the polar bear is listed, the Endangered Species Act requires 
the Fish and Wildlife Service to identify and designate critical 
habitat, convene a recovery team and develop and implement a recovery 
plan. Additionally, the requirement for federal agencies to avoid 
jeopardizing the species, and a prohibition against unpermitted take 
(harm and harassment), will take effect. These regulatory protections 
should provide substantial benefit to the polar bear (Cummings and 
Siegel, 2007). While the polar bear has yet to receive any actual legal 
protection as a result of the Endangered Species Act listing process, 
the process has already played an important role by being a catalyst to 
focus significant new scientific, public, and political attention on 
the problem of the melting Arctic and global warming.
    The listing process has prompted research and analysis on the 
future of the polar bear, its sea-ice habitat, and the Arctic more 
generally. Most important among these research efforts are the recent 
reports released by the Department of Interior's U.S. Geological Survey 
(USGS). The Fish and Wildlife Service asked the USGS to do the 
following in support of the listing process: (1) develop population 
projections for the Southern Beaufort Sea polar bear population and 
analyze existing data on two polar bear populations in Canada; (2) 
evaluate northern hemisphere sea-ice projections, as they relate to 
polar bear sea-ice habitats and potential future distribution of polar 
bears; and (3) model future range-wide polar bear populations by 
developing a synthesis of the range of likely numerical and spatial 
responses to sea-ice projections. The USGS produced nine administrative 
reports addressing these questions and in doing so significantly 
advanced the understanding of sea-ice loss and its implications for 
polar bears.
    The USGS conducted polar bear population modeling based on 10 
climate models that most accurately simulate future ice conditions. The 
USGS used the Intergovernmental Panel on Climate Change (``IPCC'') A1B 
``business as usual'' scenario of future emissions to run the climate 
models. In the A1B scenario, atmospheric carbon dioxide concentrations 
reach 717 parts per million by 2100. These sea-ice projections were 
used in a number of applications, including in a Bayesian Network model 
developed by the USGS to most accurately project the future range-wide 
status of the polar bear. The results are disturbing.
    The USGS (Amstrup et al., 2007) project that two-thirds of the 
world's polar bears will be extinct by 2050, including all of the bears 
in Alaska. The ``good news'' is that polar bears may survive in the 
high Canadian Archipelago and portions of Northwest Greenland through 
the end of this century. However, their extinction risk is still 
extremely high: over 40 percent in the Archipelago and over 70 percent 
in Northwest Greenland (Amstrup et al., 2007:Table 8).
    Moreover, the USGS emphasizes repeatedly that because all of the 
available climate models have to date underestimated the actual 
observed sea-ice loss, the assessment of risk to the polar bear may be 
conservative. Perhaps most worrisome is the observation that part of an 
area in the Canadian Archipelago expected to provide an icy refuge for 
the polar bear in 2100 lost its ice in the summer of 2007.
    The USGS projections of polar bear extinction risk are based on the 
IPCC A1B ``business as usual'' scenario, near the center of the 
distribution of all IPCC scenarios, in which atmospheric carbon dioxide 
concentrations reach 717 parts per million by 2100 (Nakicenovic, 2000). 
If future emissions meet or exceed the A1B scenario, the eventual 
extinction of polar bears is virtually guaranteed, as extinction risk 
will exceed 40 percent even in the high Canadian Archipelago in 2100, 
and warming will continue after 2100. The USGS reports, however, do not 
address the question of how much polar bear extinction risk can be 
reduced if greenhouse gas emissions are curtailed significantly below 
those assumed in the A1B scenario. Decreasing greenhouse gas emissions 
substantially can limit the Arctic sea-ice melt and therefore lower 
extinction risk for the polar bear.
    While not explicitly making an Endangered Species Act listing 
recommendation, the information contained in the USGS reports 
definitively answers the question of whether the polar bear is in fact 
in danger of extinction and therefore warrants the protections of the 
Act with an emphatic and distressing ``yes.'' Any decision by the Fish 
and Wildlife Service to deny or delay listing would be patently 
unlawful. The point of the Endangered Species Act, however, is not 
simply to add species to the list, but to actually save them. If 
``business as usual'' emissions trends continue, the polar bear will be 
driven extinct irrespective of Endangered Species Act listing or any 
other management actions. Business as usual is simply no longer an 
option. If the polar bear is to have a future, we as a nation and as a 
global community must immediately begin implementing deep greenhouse 
gas emissions reductions as well as change our management paradigms to 
reflect the new realities presented by a warming Arctic. The remainder 
of this paper sets forth an action plan to do so.

II.  Reducing Greenhouse Pollutants Rapidly Enough to Address Arctic 
                    Melting

    The essential first component of an action plan to save the polar 
bear is a mandatory reduction in CO<INF>2</INF> pollution. Beginning 
CO<INF>2</INF> reductions immediately and eventually reducing them to a 
small fraction of current levels such that atmospheric CO<INF>2</INF> 
concentrations never rise above about 450 ppm is essential to saving 
polar bears. But the Arctic has reached such a critical threshold that 
CO<INF>2</INF> reductions alone, even if undertaken immediately and 
with determination, will almost certainly not be enough to slow and 
reverse the warming and melting trend. This is because CO<INF>2</INF>, 
once emitted, tends to remain in the atmosphere for centuries (Archer, 
2005), and therefore the benefits of reductions today will not be fully 
felt for some time.
    Our window of opportunity to save polar bears relates to the fact 
that the warming impact of ``non-CO<INF>2</INF>'' pollutants including 
methane, tropospheric ozone, and black carbon (soot) is larger in the 
Arctic than it is globally. The non-CO<INF>2</INF> pollutants are 
responsible for at least half of the warming in the Arctic (Hansen et 
al., 2007), as opposed to about 30 percent globally (Forster and 
Ramaswamy, 2007; Figure 4). Black carbon has a disproportionately large 
warming impact in the Arctic, and both black carbon and methane have 
much shorter atmospheric lifetimes than CO<INF>2</INF>. This means that 
immediately reducing these pollutants can buy some desperately needed 
time and presents our best opportunity for slowing and reversing the 
Arctic melting before it is too late.\2\
---------------------------------------------------------------------------
    \2\ For ease of comparison, the volume of each pollutant is 
expressed as its ``carbon dioxide equivalent'' in millions of metric 
tons. Thus, one million metric tons of methane is equivalent to 21 
million metric tons of CO<INF>2</INF> equivalent (MtCO<INF>2</INF>eq).
---------------------------------------------------------------------------
    Fortunately, there are many feasible reduction measures available 
today for these pollutants, with literally hundreds of millions of 
metric tons of CO<INF>2</INF>eq ``no-cost'' reductions on the table, 
including many that could be undertaken at a net economic benefit. 
(Tables 1-4). According to conservative projections by the U.S. EPA, 
about 500 MtCO<INF>2</INF>eq of global methane emissions reductions 
could be achieved globally by 2020 at a cost benefit or no cost (EPA, 
2006; Table 4, Figure 7). Nearly 70 MtCO<INF>2</INF>eq of these 
available reductions are in the United States (EPA, 2006; Table 2, 
Figure 6). The EPA estimates total technically feasible methane 
reductions for 2020 at over 2400 MtCO<INF>2</INF>eq globally and nearly 
280 MtCO<INF>2</INF>eq in the U.S., many of which can be achieved at 
low cost (EPA, 2006; Tables 2 and 4; Figures 6,7).
    Reductions in CO<INF>2</INF>, methane and black carbon will have 
major public health benefits as well. Many of the measures necessary to 
reduce global warming pollution, including increasing energy 
efficiency, increasing the use of renewable energy and phasing out 
fossil fuels, and ultimately changing our land use, transportation, and 
consumption patterns, will improve our quality of life, improve our 
economy, and make the world a healthier, safer, and more equitable 
place. Congress should act immediately to explicitly cap and then 
rapidly reduce not only CO<INF>2</INF>, but also the non-CO<INF>2</INF> 
pollutants.
    Below we review necessary reductions in greenhouse gas pollutants 
and opportunities for targeted actions to protect the Arctic. Further 
detail on mitigation strategies for methane, black carbon, nitrous 
oxide, and the high global warming potential gases is found in Appendix 
A.

A. Carbon Dioxide

    Because CO<INF>2</INF> is the most important greenhouse gas, the 
rapid and mandatory reduction of CO<INF>2</INF> emissions is the 
backbone of any plan to slow the Arctic melt (Quinn et al., 2007) and 
thus save the polar bear. If carbon dioxide concentrations are not 
controlled soon, polar bears will have little chance of future survival 
regardless of what else is done. Leading scientists warn that CO<INF>2</INF> 
concentrations must be kept below about 450 ppm in order to keep the 
climate system within the range of variability of the past 650,000 
years and minimize the chance of triggering major climate feedbacks, 
such as a large scale release of methane from the Arctic permafrost, 
that would greatly amplify anthropogenic warming (Hansen et al., 2006; 
Hansen et al., 2007). They further warn that the 450 ppm limit may need 
to be reduced further in the future (Hansen and Sato, in prep.). 
Keeping global CO<INF>2</INF> concentrations below 450 parts per 
million would require the U.S. to begin reducing its emissions quickly, 
and to reduce them to 80 percent or more below 1990 levels by the 
middle of this century.
    It is essential that the U.S. rejoin the U.N. Framework Convention 
on Climate Change negotiating process and participate in global 
solutions. The Bush Administration has been blocking progress at the 
international level for over six years, and the U.S. and Australia are 
the only developed countries that have refused to ratify the Kyoto 
Protocol, the first mandatory greenhouse gas reduction agreement under 
the Framework Convention process. The U.S. should commit to meeting its 
Kyoto target of reducing its emissions to seven percent below 1990 
levels between 2008 and 2012, and join negotiations for much deeper 
emissions reductions after 2012.
    Congress must pass legislation that caps and rapidly reduces 
greenhouse gas pollution with mandatory measures. Fortunately, there 
are several bills introduced that if passed, enacted, and fully 
enforced, would result in emissions dropping to approximately 80 
percent below 1990 levels by 2050, including the Safe Climate Act (H.R. 
1590, Waxman) and the Global Warming Pollution Reduction Act (S. 309, 
Sanders). The survival of the Arctic sea ice and the polar bear depends 
upon one of these bills or something similar becoming law soon.
    However, the Arctic melt has advanced so far towards a tipping 
point that CO<INF>2</INF> reductions are necessary, but not sufficient, 
to save polar bears. In addition to current legislative proposals, 
Congress must target other pollutants, including methane and black 
carbon, to provide the necessary short-term climate benefit to the 
Arctic.

B. Methane

    Methane is the most important of the non-CO<INF>2</INF> pollutants, 
with a global warming potential 21 times greater than carbon dioxide, 
and an atmospheric lifetime of 12 years (Forster and Ramaswamy, 2007). 
Methane constitutes approximately 20 percent of the anthropogenic 
greenhouse effect globally, the largest contribution of the non-
CO<INF>2</INF> gases. As a precursor to tropospheric ozone, methane 
emissions have an even more powerful impact on climate. In the Arctic 
this impact is strongest in winter months, which can result in an 
acceleration of the onset of spring melt (Shindell, 2007). Tropospheric 
ozone, unlike other greenhouse gases, absorbs both infrared radiation 
and shortwave radiation (visible light). Thus, tropospheric ozone is a 
particularly powerful greenhouse gas over highly reflective surfaces 
like the Arctic, because it traps shortwave radiation both as it enters 
the Earth's atmosphere from the sun and when it is reflected back out 
again by snow and ice. Reducing global methane emissions will reduce 
ozone concentrations in the Arctic, providing a double benefit to the 
region.
    According to conservative projections by the U.S. EPA, about 500 
MtCO<INF>2</INF>eq of methane emissions reductions could be achieved 
globally by 2020 at a cost benefit or at no cost (EPA, 2006; Table 4, 
Figure 7). That is the equivalent of taking almost 90 million cars and 
light trucks off the road. Nearly 70 MtCO<INF>2</INF>eq of these 
available reductions are in the United States (EPA, 2006; Table 2, 
Figure 6). That is the equivalent of taking over 12 million cars and 
light trucks off the road. The EPA estimates total technically feasible 
methane reductions for 2020 at over 2400 MtCO<INF>2</INF>eq globally 
and nearly 280 MtCO<INF>2</INF>eq in the U.S., many of which can be 
achieved at low cost (EPA, 2006; Tables 2 and 4; Figures 6, 7).
    The EPA's cost projections are conservative for a number of 
reasons, including the use of a 10 percent discount rate. Using a lower 
discount rate would result in additional cost benefit or no-cost 
reductions. Moreover, the EPA analysis does not account for the value 
of significant air quality and health benefits that would accompany 
methane reductions. West et al. (2006) found that reducing global 
methane emissions by 20 percent would save 370,000 lives between 2010 
and 2030, due to the reduction in ozone related cardiovascular, 
respiratory, and other health impacts. Methane reductions would also 
decrease ozone-related damage to ecosystems and agricultural crops 
(West et al., 2006). Methane is the primary component of natural gas, 
and many abatement options include the use of captured methane to 
generate energy. The benefits of displacing other fossil fuel energy 
sources with captured methane are also not captured in the EPA (2006) 
analysis.
    While EPA (2006) may underestimate available no-cost and low-cost 
methane (and other non-CO<INF>2</INF> gas) mitigation options, even 
this conservative analysis shows the enormous opportunities available 
to us today (Tables 1-4; Figures 6-7). These reductions can be achieved 
with currently available technology, as described in Appendix A. 
Moreover, mandatory greenhouse gas regulation will speed the 
development and deployment of new technology and mitigation options, 
making much deeper reductions feasible in the very near future.

C. Black Carbon or Soot

    Black carbon, or soot, consists of particles or aerosols released 
through the inefficient burning of fossil fuels, biofuels, and biomass 
(Quinn et al., 2007). Black carbon warms the atmosphere, but it is a 
solid, not a gas. Unlike greenhouse gases, which warm the atmosphere by 
absorbing long-wave infra-red radiation, soot has a warming impact 
because it absorbs short-wave radiation, or visible light (Chameides 
and Bergin, 2002). Black carbon is an extremely powerful greenhouse 
pollutant. Scientists have described the average global warming 
potential of black carbon as about 500 times that of carbon dioxide 
over a 100 year period (Hansen et al., 2007; see also Reddy and 
Boucher, 2007). This powerful warming impact is remarkable given that 
black carbon remains in the atmosphere for only about four to seven 
days, with a mean residence time of 5.3 days (Reddy and Boucher, 2007).
    Black carbon contributes to Arctic warming through the formation of 
``Arctic haze'' and through deposition on snow and ice which increases 
heat absorption (Quinn et al., 2007; Reddy and Boucher, 2007). Arctic 
haze results from a number of aerosols in addition to black carbon, 
including sulfate and nitrate (Quinn et al., 2007). The effects of 
Arctic haze may be to either increase or decrease warming, but when the 
haze contains high amounts of soot, it absorbs incoming solar radiation 
and leads to heating (Quinn et al., 2007).
    Soot also contributes to heating when it is deposited on snow 
because it reduces reflectivity of the white snow and instead tends to 
absorb radiation. A recent study indicates that the direct warming 
effect of black carbon on snow can be three times as strong as that due 
to carbon dioxide during springtime in the Arctic (Flanner, 2007). 
Black carbon emissions that occur in or near the Arctic contribute the 
most to the melting of the far north (Reddy and Boucher, 2007; Quinn et 
al., 2007).
    Reductions in black carbon therefore provide an extremely important 
opportunity to slow Arctic warming in the short-term, and mitigation 
strategies should focus on within-Arctic sources and northern 
hemisphere sources that are transported by air currents most 
efficiently to the Arctic. Conversely, allowing black carbon emissions 
to increase in the Arctic as the result of increased shipping or 
industrial activity, will accelerate loss of the seasonal sea ice and 
extinction of the polar bear. Black carbon reductions will also provide 
air quality and human health benefits.
    Despite its significance to global climate change and to the Arctic 
in particular, black carbon has not been addressed by the major reports 
on non-CO<INF>2</INF> gas mitigation, nor is it addressed in current 
global warming bills in the 110th Congress. Black carbon reductions are 
an essential part of saving the Arctic sea ice and the polar bear, and 
should be addressed by Congress in this session. Abatement 
opportunities are discussed further in Appendix A.

D. Other Non-CO<INF>2</INF> Pollutants

    Nitrous oxide and the high global warming potential gases do not 
have the same heightened impacts in the Arctic as methane and black 
carbon. Nevertheless, because these gases have high global warming 
potentials and long atmospheric lifetimes, and because there are many 
readily available mitigation measures to reduce them, they present 
important opportunities for reducing global warming overall and are 
therefore an important part of saving the Arctic and the polar bear.
    Nitrous oxide has a global warming potential 310 times that of 
carbon dioxide and an atmospheric lifetime of approximately 114 years 
(Forster and Ramaswamy, 2007). It constitutes the second largest 
proportion of anthropogenic non-CO<INF>2</INF> gases at seven percent. 
The main sources of nitrous oxide emissions are agriculture, 
wastewater, fossil fuel combustion, and industrial adipic and nitric 
acid production.
    High global warming potential (High-GWP) gases fall into three 
broad categories: hydrofluorocarbons (HFCs), perfluorcarbons (PFCs), 
and sulfur hexafluoride (SF<INF>6</INF>). Hydrofluorocarbons were 
developed to replace ozone-depleting substances used in refrigeration 
and air conditioning systems, solvents, aerosols, foam production, and 
fire extinguishing. HFCs have global warming potentials between 140 and 
11,700 times that of carbon dioxide, and their atmospheric lifetimes 
range from one year to 260 years (EPA, 2006).
    Perfluorocarbons are emitted during aluminum production and 
semiconductor manufacture (EPA, 2006). Their global warming potential 
ranges from 6,500 to 9,200 times that of carbon dioxide. In addition, 
they have extremely long atmospheric lifetimes (e.g., 10,000 and 50,000 
years for two common PFCs).
    The highest global warming potential exists in sulfur hexafluoride 
at 23,900 times that of carbon dioxide. Sulfur hexafluoride remains in 
the atmosphere for 3,200 years. Sulfur hexafluoride is used: (1) for 
insulation and current interruption in electrical power transmission 
and distribution; (2) during semiconductor manufacture; and (3) to 
protect against burning in the magnesium industry.
    Further information on abatement options for these pollutants is 
found in Appendix A.

E.  Reduced CO<INF>2</INF> and Non-CO<INF>2</INF> Pollutants and the 
                    Future Arctic

    As discussed above, keeping CO<INF>2</INF> levels below 450 ppm and 
substantially reducing all non-CO<INF>2</INF> forcings is essential if 
we are to keep global temperatures from rising more than 1<SUP>+</SUP>C 
above 2000 levels and thereby minimize the risk of triggering major 
climate feedbacks which would lead to significantly elevated warming 
(Hansen et al., 2006). Achieving such greenhouse gas reductions is 
therefore critical if we are to not only prevent the extinction of the 
polar bear, but avoid the most catastrophic impacts of global warming. 
But even under such a scenario, the Arctic will still undergo 
significant additional warming with the concomitant additional loss of 
sea ice. Approximately 0.6<SUP>+</SUP>C of additional warming is 
already in the pipeline due to the excess energy in the Earth's climate 
system from past greenhouse gas emissions (Hansen et al., 2005; Alley 
et al., 2007). Additional warming will follow rising CO<INF>2</INF> 
levels even if we keep such levels below 450 ppm. As with the warming 
observed to date, the Arctic will continue to warm more rapidly than 
the global average. Substantial additional reduction of Arctic sea ice 
over the course of this century is therefore likely unavoidable. For 
the polar bear, things are going to get much worse before they begin to 
get better.
    As grim as the outlook for the polar bear is, it is not hopeless. 
Unlike the terrestrial ice-sheets of Greenland, the melting of which 
may become irreversible on human-relevant timeframes, the Arctic sea 
ice, portions of which melt and reform every year, may be capable of 
relatively rapid recovery following climate stabilization. Assuming 
greenhouse emission targets can be met, the climate can be stabilized, 
and with subsequent reductions in atmospheric CO<INF>2</INF> levels, 
the Arctic sea ice can recover to levels supporting long-term viable 
populations of polar bears and other ice-dependant species. The key to 
polar bear persistence then, is weathering the very bumpy ride through 
the next half-century. To shepherd the polar bear through the ensuing 
decades, we must reduce all other stressors on the species and its 
habitat and tailor national and international management of the 
sensitive Arctic ecosystem to the new reality of a rapidly changing 
Arctic.

III.  A New Management Paradigm for a Warming Arctic

    As the September, 2007 sea-ice minimum starkly illustrates, global 
warming in the Arctic is not a future problem that can be shunted off 
to the next generation of decision-makers. It has arrived and is 
already leaving starving and drowning polar bears, melting permafrost 
and coastal erosion in its wake. While implementing the rapid 
reductions in emissions of both CO<INF>2</INF> and non-CO<INF>2</INF> 
pollutants described above is essential to avoid runaway future warming 
in the Arctic and elsewhere, if polar bears are to survive we also have 
to adapt policy measures to the warming that has already occurred, that 
is unavoidably in the pipeline, and that will inevitably come with 
projected rising atmospheric CO<INF>2</INF> levels. The Arctic of 2007 
is very different than the Arctic of just a decade ago; the Arctic of 
2050 will be virtually unrecognizable.
    While the ongoing changes in the Arctic are now readily apparent, 
for the most part, U.S. federal agencies have utterly failed to 
incorporate this new reality into their decision-making affecting the 
Arctic. With the possible exception of the Department of Defense (see, 
e.g., ONR, 2001), federal agencies are making planning decisions and 
issuing permits, authorizations and leases in and affecting the Arctic 
with a near-total disregard for the rapidly changing conditions in the 
region. This is leading to uninformed and unwise decision-making 
negatively affecting the polar bear and the entire Arctic ecosystem.
    If U.S. agencies have been slow to recognize and respond to new 
conditions as the sea ice recedes, the rest of the world has been quick 
to claim the spoils of a warming Arctic. Russia, Norway and Denmark 
have all recently staked competing territorial claims to portions of 
the oil-rich Arctic seabed while Canada has asserted sovereignty over 
the increasingly ice-free Northwest Passage. Similarly, the specter of 
a seasonally ice-free Arctic carries with it the likelihood of greatly 
increased shipping in the region.
    Many of these elements of a changing Arctic carry a double threat 
to the polar bear. Increased oil and gas development in the Arctic 
threatens not just to degrade important polar bear habitat, but will 
also lead to further fossil fuel commitments, making emissions 
reduction targets all the more difficult to reach. Increased shipping 
in the Arctic carries increased risks of oil spills and further 
disruptions of the polar bear's habitat, but also, perhaps more 
importantly, would lead to a substantial injection of additional black 
carbon directly where it would do the most damage to the Arctic 
climate. Finally, territorial disputes in the Arctic will lead to an 
increased military presence in the Arctic leading to disruption and 
pollution from vessels and aircraft as well as increasingly frequent 
polar bear/human interactions--encounters that the polar bears almost 
always lose.
    If we are to respond to the warming Arctic in a manner compatible 
with the long-term survival of the polar bear, we must directly 
confront the changes taking place in the region. Federal agencies must 
incorporate the best available information about global warming and its 
impacts on the Arctic into all decisions directly or indirectly 
affecting the Arctic. We must also reduce direct impacts on polar bears 
and their habitat from shipping and industrial activities through such 
measures as a moratorium on the expansion of such activities in areas 
subject to U.S. control. Finally, because protecting the polar bear and 
the Arctic is only possible with the cooperation of not only all Arctic 
nations, but with the global community more broadly, we should initiate 
and engage in proactive multilateral efforts to protect the Arctic and 
its resources so they remain largely unspoiled for future generations 
in a manner similar to what has been accomplished under the Antarctic 
Treaty. Each of these measures is described in more detail below. All 
are necessary if polar bears are to survive in the very different 
Arctic we have given them.

A.  Incorporate Global Warming into Federal Agency Decisions

    Congressional action and new laws explicitly capping and reducing 
CO<INF>2</INF> and non-CO<INF>2</INF> pollutants are clearly necessary 
if we are to slow and ultimately reverse global warming and save the 
Arctic and the polar bear. Nevertheless, existing law allows, and in 
some cases requires, the executive branch to take significant action to 
address the current and future impacts of global warming on vulnerable 
human landscapes, natural ecosystems, plants and wildlife. Use of this 
authority will benefit all imperiled species, including the polar bear. 
Unfortunately, such statutory mandates have largely been underutilized, 
ignored, or explicitly rejected by the current administration.
    Existing laws governing federal agencies that relate to global 
warming and the Arctic fall into three broad categories: laws requiring 
the compilation and analysis of information relevant to decision-
makers; laws requiring the contribution of a given agency decision or 
action to greenhouse gas emissions and global warming be analyzed and 
in some cases mitigated; and laws requiring the changing status of 
species and resources in a warming climate be properly considered in 
decision-making. Several laws address more than one of these 
categories. Examples of each, relevant to the polar bear, which the 
administration has ignored or underutilized are briefly discussed 
below.

Information-generating statutes:
    The Global Change Research Act (GCRA) requires the administration 
to provide to Congress and agencies an assessment of the trends and 
effects of global climate change on the United States, to be updated 
every four years. 15 U.S.C. Sec. 2936(2)-(3). The last such assessment 
was prepared in 2000. The administration is under court order to 
prepare a new assessment by May 2008, as the result of a lawsuit 
brought by the Center for Biological Diversity, Friends of the Earth 
and Greenpeace.
    The Marine Mammal Protection Act (MMPA) requires regularly updated 
stock assessment reports that summarize the current status of all 
marine mammals subject to U.S. jurisdiction. 16 U.S.C.  1361 et seq. 
Updated stock assessments for polar bears and walrus are two years 
overdue. Stock assessments for ice-dependant seals relied upon by polar 
bears for food, while regularly updated, do not incorporate recent 
information on global warming and sea-ice declines.

Analysis of greenhouse gas emissions from federal actions:
    The Outer Continental Shelf Lands Act (OCSLA) governs the leasing 
of tracts for offshore oil development in federal waters, including 
those areas of the Beaufort and Chukchi seas utilized by polar bears. 
In approving the 2007-2012 Program covering all offshore leasing in the 
U.S., the Secretary of Interior refused to quantify the greenhouse gas 
emissions from the oil and gas expected to be produced under the 
program and failed to monetize CO<INF>2</INF> and non-CO<INF>2</INF> 
pollutants in calculating the economic costs and benefits of the 
program.
    The National Environmental Policy Act (NEPA) requires the 
preparation of an environmental impact statement analyzing all 
significant impacts of proposed federal actions. Few NEPA documents for 
significant greenhouse gas generating projects prepared to date analyze 
the impacts of such emissions. None that we are aware of analyze the 
impacts of greenhouse gas or black carbon emissions on Arctic warming 
or the polar bear.
    The Endangered Species Act (ESA) requires each federal agency to 
ensure through consultation with the Fish and Wildlife Service that any 
federal action does not jeopardize the continued existence of any 
listed species or destroy or adversely modify its critical habitat. 16 
U.S.C.  1536. To date, despite the fact that existing regulations 
require consultation on any action ``directly or indirectly causing 
modifications to the land, water, or air,'' 50 C.F.R.  402.02, no 
federal agency has ever engaged in consultation regarding the impacts 
of greenhouse gas emissions flowing from a given agency action.

Analysis of the changing Arctic in federal decision-making:
    Each of the statutes mentioned above require informed decision-
making and the use of the best available science. Nevertheless, few if 
any agency decisions directly affecting the polar bear's Arctic habitat 
have properly taken into account the changing status of the species in 
a melting Arctic. For example, in August 2006, the Fish and Wildlife 
Service issued regulations under the MMPA allowing unlimited take of 
polar bears from all oil and gas related activities in the Beaufort Sea 
region for a period of five years. Despite a request from the Marine 
Mammal Commission to consider the impacts of global warming in making 
the required determination of ``negligible impact'' under the statute, 
the Service issued the authorization assuming impacts would be similar 
to those documented when similar authorizations were issued more than a 
decade previously and prior to the substantial changes of sea ice and 
polar bear population size and distribution evidenced by recent 
scientific observations. See 71 Fed. Reg. 43926 (Aug. 2, 2006).
    As the above examples demonstrate, management decisions directly 
affecting the polar bear have not caught up with the science 
demonstrating significant changes in the status of the species and its 
Arctic ecosystem. As uninformed decision-making is often unwise 
decision-making, the polar bear will continue to be harmed by federal 
agency actions until and unless all relevant agencies start 
incorporating the most recent information regarding global warming and 
its impacts on the Arctic into their decision-making. Climate-informed 
decision-making is already the law; now it needs to be translated into 
action.

B.  Reduce Other Stressors on Polar Bears and the Arctic

    While a business-as-usual warming scenario would doom the polar 
bear to extinction and render any other conservation efforts 
irrelevant, saving the polar bear will require not just dramatically 
changing greenhouse gas emission trajectories but also addressing other 
cumulative threats to the species. While climate-informed decision-
making will probably be better decision-making, and will reduce 
cumulative impacts to the polar bear, certain activities, no matter how 
thoroughly vetted, should simply no longer be allowed in polar bear 
habitat. Among these are activities that directly add black carbon to 
the Arctic (e.g., shipping) and activities that directly disturb polar 
bears and degrade their essential habitats (e.g., oil and gas 
development).
    In 2003 the National Research Council noted that ``[c]limate 
warming at predicted rates in the Beaufort Sea region is likely to have 
serious consequences for ringed seals and polar bears, and those 
effects will accumulate with the effects of oil and gas activities in 
the region.'' (NRC, 2003). Since the NRC report, both the impacts of 
global warming on the polar bear and the cumulative impacts of oil and 
gas activities have greatly accelerated. With the lease sales in the 
Beaufort and Chukchi seas scheduled under the 2007-2012 Program, and 
the ongoing rapid leasing and development of the NPR-A, the vast 
majority of polar bear habitat subject to U.S. jurisdiction, whether at 
sea or on land, is now open for oil and gas leasing and development. 
See Figure 8 (Map of existing and proposed leases in the Beaufort and 
Chukchi seas).
    Polar bears in the Beaufort Sea and elsewhere are already 
undergoing food stress, and as a consequence resorting to cannibalism 
or simply starving (Amstrup et al., 2006; Regehr et al., 2006; Aars et 
al., 2006). Cub survival is down (Regehr et al., 2006; Aars et al., 
2006). Denning has shifted from occurring mostly on ice to mostly on 
land and numerous bears now congregate on land pending the fall freeze-
up of the sea-ice (Regehr et al., 2006; Aars et al., 2006). At the same 
time, the Beaufort Sea coast is becoming increasingly industrialized. 
This combination is potentially devastating for the species. Denning 
bears with reduced fat stores from a shorter hunting season are both 
more vulnerable to disturbance from oil industry activities and 
increasingly dependant upon areas subject to such industrial 
development. Similarly, hungry bears, trapped on land, are more likely 
to wander into oil camps and facilities looking for food, where their 
odds of being directly killed by humans acting in self-defense or being 
exposed to oil and other chemicals increases dramatically.
    In addition to direct impacts on polar bears, oil industry activity 
also impacts their prey, such as ice seals which may be exposed to 
seismic surveys, icebreakers and other disturbances which could either 
harm these animals or render them less available for bears to hunt. Oil 
industry activity also results in methane and black carbon emissions in 
the Arctic from production activities, and of course substantial 
CO<INF>2</INF> emissions from the ultimate combustion of the recovered 
oil and gas.
    Given the rapidly changing Arctic, the precarious status of polar 
bears, and the numerous adverse impacts of oil and gas industry 
activities on the species, we believe that there should be a moratorium 
on new oil and gas leasing and development in the range of the polar 
bear. Such a moratorium should be implemented immediately and remain in 
effect until and unless such activity can be demonstrated to not have 
adverse impacts on the polar bear, and any greenhouse emissions 
directly or indirectly associated with such activities are shown to be 
consistent with a comprehensive national plan to reduce CO<INF>2</INF> 
and non-CO<INF>2</INF> pollutants to levels determined necessary to 
avoid the continued loss of sea ice.
    In addition to oil and gas activities, a growing cumulative threat 
to the polar bear is likely to be increased shipping in the Arctic 
which brings with it black carbon emissions, the risk of oil spills, 
and direct disruption and disturbance of polar bears and their prey. 
The U.S. should work in appropriate international fora such as the 
International Maritime Organization and the Arctic Council to prevent 
the establishment of new shipping routes in the Arctic. Simultaneously, 
the U.S. should require that any vessel transiting Arctic waters 
subject to U.S. jurisdiction utilize fuels and engine technologies that 
minimize black carbon emissions (see, e.g., Ballo and Burt, 2007), and 
apply for and operate consistent with take authorizations under the 
MMPA and ESA so as to minimize direct impacts to polar bears and their 
prey.
    Finally, persistent organic pollutants (POPs) represent a 
significant threat to polar bears and other Arctic species. As polar 
bears operate in an increasingly food-stressed state, they are likely 
to metabolize body fat containing unhealthy concentrations of POPs. The 
impact of POPs on individual polar bears can have both lethal and sub-
lethal effects. As polar bear populations decline, and individual bears 
become more vulnerable, the disruptive cumulative effects of POPs on 
the species are likely to grow. Reduction or elimination of these 
compounds, both through application of U.S. law and international 
effort will likely provide substantial benefit to polar bears.
    While many of the cumulative threats to the polar bear are subject 
to direct regulation by the U.S. and can and must be addressed 
immediately, the ultimate survival and recovery of the polar bear will 
require international efforts, not just to reduce greenhouse gas 
emissions and stabilize the climate system, but to protect the fragile 
Arctic habitat upon which the polar bear depends.

C.  Towards an International Arctic Protection Regime

    Ultimately, the protection of the polar bear and its Arctic habitat 
is the shared responsibility of not only the U.S., or even the five 
Arctic nations with polar bear populations, but of the broader global 
community. As global warming transforms and increases human access to 
the Arctic, we must be as proactive as possible in protecting this 
area. Since much of the Arctic is beyond any country's control, and 
many portions are now contested by competing national claims, a key 
component of an Arctic protection strategy rests in the international 
arena (See Figure 9). Just as the Antarctic Treaty arose in the context 
of competing national claims to that continent, the territorial 
disputes that are shaping up in the Arctic as the sea ice recedes and 
commercial exploitation of the region becomes foreseeable, present not 
just a threat, but an opportunity. Given we are entering the 
International Polar Year, the time is ripe to push for international 
action to permanently protect the shared treasure of the Arctic. The 
U.S. should proactively promote the large-scale protection of the 
Arctic through all existing international mechanisms, including the 
International Agreement for the Conservation of Polar Bears, the Arctic 
Council, and the United Nations Convention on the Law of the Sea. The 
U.S. cannot remain a spectator as other nations compete to divide up 
the resources of a newly accessible Arctic. We need to become 
participant, not to stake our own claims, but to lead efforts to render 
any such claims irrelevant, and shepherd the Arctic and the polar bear 
through the rapid changes of the coming decades.

IV. Conclusion

    We are committed to saving the polar bear from the ravages of 
global warming for its own sake, as well as ours. Because the Arctic is 
the Earth's early warning system, what is happening to the polar bear 
now is a harbinger of what will happen to the rest of the world if 
business-as-usual politics and emissions continue. We cannot allow this 
to happen. It is not too late to save the Arctic-if we take action 
today. Immediate reductions in both CO<INF>2</INF> and non-CO<INF>2</INF> 
pollutants, along with protection of the Arctic from direct physical 
incursions, offer a true window of opportunity and hope. Acting to 
reduce greenhouse emissions in a timeframe rapid enough to save the 
polar bear will also provide us with the necessary urgency to tackle 
the challenge of global warming before its impacts drown not only polar 
bears but entire cities. We must begin immediately.

V. Literature Cited

Aars, J., N.J. Lunn, and A.E. Derocher. 2006. Polar Bears: Proceedings 
        of the 14th Working Meeting of the IUCN/SSC Polar Bear 
        Specialist Group, 20-24 June 2005, Seattle, Washington, USA, at 
        44. IUCN, Gland, Switzerland and Cambridge, UK.

Alley et al., 2007. Summary for Policy-Makers. In Climate Change 2007: 
        the Physical Science Basis Contribution of Working Group I to 
        the Fourth Assessment Report of the Intergovernmental Panel on 
        Climate Change. Available at http://www.ipcc.ch

Amstrup, S.C., B.G. Marcot, and D.C. Douglas. 2007. Forecasting the 
        Range-wide Status of Polar Bears at Selected Times in the 21st 
        Century. U.S. Geological Survey, Reston, Virginia, USA.

Amstrup, S.C., I. Stirling, T.S. Smith, C. Perham, and G.W. Thiemann. 
        2006. Recent observations of intraspecific predation and 
        cannibalism among polar bears in the southern Beaufort Sea. 
        Polar Biology DOI 10.1007/s00300-006-0142-5.

Archer, D. 2005. Fate of fossil fuel CO<INF>2</INF> in geologic time, 
        J. Geophys. Res., 110, C09S05, doi:10.1029/2004JC002625.

Ballo, T., and S. Burt. 2007. Petition for Rule-making Under the Clean 
        Air Act to Reduce the Emission of Air Pollutants from Marine 
        Shipping Vessels that Contribute to Global Climate Change. 
        Submitted to the Hon. Stephen L. Johnson on October 3, 2007.

Carter, T.R., R.N. Jones, X. Lu, S. Bhadwal, C. Conde, L.O. Mearns, 
        B.C. O'Neill, M.D.A. Rounsevell and M.B. Zurek, 2007: New 
        Assessment Methods and the Characterization of Future 
        Conditions. Climate Change 2007: Impacts, Adaptation and 
        Vulnerability. Contribution of Working Group II to the Fourth 
        Assessment Report of the Intergovernmental Panel on Climate 
        Change, M.L. Parry, O.F. Canziani, J.P. Palutikof, P.J. van der 
        Linden and C.E. Hanson, Eds., Cambridge University Press, 
        Cambridge, UK, 133-171.

Chameides, W.L., and M. Bergin. 2002. Soot takes center stage. Science 
        297:2214-2215.

Cummings, B., and K. Siegel. 2007. Ursus maritimus: Polar Bears on Thin 
        Ice. Natural Resources and Environment 22, Number 2, Fall 
        2007:3-7.

Derocher, A.E., N.J. Lunn, and I. Stirling. 2004. Polar bears in a 
        warming climate. Itegrated Comparative Biology 44:163-176.

Flanner, M.G., C.S. Zender, J.T. Randerson, and P.J. Rasch (2007), 
        Present-day climate forcing and response from black carbon in 
        snow. J. Geophys. Res., 112, D11202, doi:10.1029/2006JD008003.

Forster, P., V. Ramaswamy, P. Artaxo, T. Berntsen, R. Betts, D.W. 
        Fahey, J. Haywood, J. Lean, D.C. Lowe, G. Myhre, J. Nganga, R. 
        Prinn, G. Raga, M. Schulz and R. Van Dorland, 2007: Changes in 
        Atmospheric Constituents and in Radiative Forcing. In: Climate 
        Change 2007: The Physical Science Basis. Contribution of 
        Working Group I to the Fourth Assessment Report of the 
        Intergovernmental Panel on Climate Change [Solomon, S., D. Qin, 
        M. Manning, Z. Chen, M. Marquis, K.B. Averyt, M.Tignor and H.L. 
        Miller (eds.)]. Cambridge University Press, Cambridge, United 
        Kingdom and New York, NY, USA.

Hansen, J., M. Sato, R. Ruedy, K. Lo, D.W. Lea, and M. Medina-Elizade. 
        2006. Global temperature change. Proc. Natl. Acad. Sci. 
        103(39):14288-14293.

Hansen, J., M. Sato, P. Kharecha, G. Russell, D.W. Lea, and M. Siddall. 
        2007. Climate Change and Trace Gases. Phil. Trans. R. Soc. A 
        (2007) 365, 1925-1954 doi:10.1098/rsta.2007.2052.

Hansen, J., and M. Sato. In prep. Global Warming: East-West 
        Connections. Available at www.columbia.edu/?jeh1/East-
        West<INF>-</INF>070925.pdf

Hansen, J., L. Nazarenko, R. Ruedy, M. Sato, J. Willis, A. Del Genio, 
        D. Koch, A. Lacis, K. Lo, S. Menon, T. Novakov, J. Perlwitz, G. 
        Russell, G.A. Schmidt, and N. Tausnev. 2005. Earth's Energy 
        Imbalance: Confirmation and Implications. Science 308:1431-
        1435.

Holland, M.M., C.M. Bitz, and B. Tremblay. 2006. Future abrupt 
        reductions in the summer Arctic sea ice. Geophysical Research 
        Letters 33, L23503, doi:10.1029/2006GL028024.

Jacobson, M.Z. 2002. Control of fossil-fuel particulate black carbon 
        and organic matter, possibly the most effective method of 
        slowing global warming. J. Geophys. Res. 107(D19), 4410, 
        doi:10.1029/2001JD001376.

Kleiner, K. 2007. The shipping forecast. Nature 449:272-273.

Meehl, G.A., T.S. Stocker, W.D. Collins, P. Friedlingstein, A.T. Gaye, 
        J.M. Gregory, A. Kitoh, R. Knutti, J.M. Murphy, A. Noda , 
        S.C.B. Raper, I.G. Watterson, A.J. Weaver, Z. Zhao. 2007: 
        Global Climate Projections. Climate Change 2007: The Physical 
        Science Basis of Climate Change. Contribution of Working Group 
        I to the Fourth Assessment Report of the Intergovernmental 
        Panel on Climate Change, [Solomon, S., D. Qin, M. Manning, Z. 
        Chen, M. Marquis, K.B. Averyt, M.Tignor and H.L. Miller 
        (eds.)]. Cambridge University Press, Cambridge, United Kingdom 
        and New York, NY, USA.

Nakicenovic, N., J. Alcamo, G. Davis, B. de Vries, J. Fenham, S. 
        Gaffin, K. Gregory, A. Grubler, T.Y. Jung, T. Kram, E.L. La 
        Rovere, L. Michaelis, S. Mori, T. Morita, W. Pepper, H. 
        Pitcher, L. Price, K. Raihi, A. Roehrl, H-H. Rogner, A. 
        Sankovski, M. Schlesigner, P. Shukla, S. Smith, R. Swart, S. 
        van Rooijen, N. Victor, and Z. Dadi. 2000. IPCC Special Report 
        on Emissions Scenarios. Cambridge University Press, Cambridge, 
        United Kingdom and New York, NY, USA. 599 pp. Available at 
        http://www.ipcc.ch/

National Research Council of the National Academies (``NRC''). 2003. 
        Cumulative Environmental Effects of Oil and Gas Activities on 
        Alaska's North Slope. The National Academies Press, Washington, 
        DC, USA. 288 pp.

National Snow and Ice Data Center (NSIDC). 2007a. Arctic Sea Ice News 
        Fall 2007. http://www.nsidc.org/news/press/2007--seaiceminimum/
        20070810<INF>-</INF>index.html (last visited October 14, 2007).

National Snow and Ice Data Center (NSIDC). 2007b. Arctic Sea Ice 
        Shatters All Previous Record Lows. http://www.nsidc.org/news/
        press/2007<INF>-</INF>seaiceminimum/
        20071001<INF>-</INF>pressrelease.html (last visited October 14, 
        2007).

Office of Naval Research (ONR). 2001. Naval Operations in an Ice-free 
        Arctic. Symposium 17-18 April 2001. Final Report.

Reddy, M.S., and O. Boucher. 2007. Climate impact of black carbon 
        emitted from energy consumption in the world's regions. 
        Geophysical Research Letters 34, L11802, doi:10.1029/
        2006GLO28904.

Regehr et al. 2006. Polar bear populations status in the Southern 
        Beaufort Sea. U.S. Geological Survey Open-File Report 2006-
        1337, 20 pp.

Rosenzweig, C., G. Casassa, D.J. Karoly, A. Imeson, C. Liu, A. Menzel, 
        S. Rawlins, T.L. Root, B. Seguin, and P. Tryjanowski, 2007: 
        Assessment of observed changes and responses in natural and 
        managed systems. Climate Change 2007: Impacts, Adaptation and 
        Vulnerability. Contribution of Working Group II to the Fourth 
        Assessment Report of the Intergovernmental Panel on Climate 
        Change, M.L. Parry, O.F. Canziani, J.P. Palutikof, P.J. van der 
        Linden and C.E. Hanson, Eds., Cambridge University Press, 
        Cambridge, UK, 79-131.

Quinn, P.K., T.S. Bates, E. Baum, N. Doubleday, A. Fiore, M. Flanner, 
        A. Fridlind, T. Garrett, D. Koch, S. Menon, D. Shendell, A. 
        Stohl, and S.G. Warren. 2007. Short-lived pollutants in the 
        Arctic: Their climate impact and possible mitigation 
        strategies. Available at http://niflheim.nilu.no/spac/
        QuinnEtAl<INF>-</INF> EOSsubmitted.pdf

Shindell, D., 2007: Local and remote contributions to Arctic warming. 
        Geophys. Res. Lett., 34, L14704, doi:10.1029/2007GL030221.

U.S. Environmental Protection Agency. 2006. Global Mitigation of Non-
        CO<INF>2</INF> Greenhouse Gases. U.S. Environmental Protection 
        Agency Report 430-R-06-005, Washington, DC.

West, J., A.M. Fiore, L.W. Horowitz, and D.L. Mauzerall. 2006. Global 
        health benefits of mitigating ozone pollution with methane 
        emission controls. Proc. Natl. Acad. Sci. 103:3988-3993.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
APPENDIX A:

        Mitigation Strategies for Non-CO<INF>2</INF> Pollutants

    The primary non-CO<INF>2</INF> pollutants are methane, black carbon 
(soot), nitrous oxide, and the high global warming potential gases 
(Figure 4). The global warming potential of each of these pollutants is 
more powerful than carbon dioxide--21 (methane) to 23,000 (sulfur 
hexafluoride) times as powerful over a 100 year period (Forster and 
Ramaswamy, 2007). The duration over which each of the gases is present 
in the atmosphere and contributing to the greenhouse effect varies from 
12 years (methane) to centuries (fluorinated gases). For ease of 
comparison, the volume of each pollutant is expressed throughout this 
report as its ``carbon dioxide equivalent'' in millions of metric tons. 
Thus, one million metric tons of methane is equivalent to 21 million 
metric tons of CO<INF>2</INF> equivalent (MtCO<INF>2</INF>eq).

A. Methane

    Methane is the most important of the non-CO<INF>2</INF> pollutants, 
with a global warming potential 21 times greater than carbon dioxide, 
and an atmospheric lifetime of 12 years (Forster and Ramaswamy, 2007). 
Methane constitutes approximately 20 percent of the anthropogenic 
greenhouse gas effect globally, the largest contribution of the non-
CO<INF>2</INF> gases. However, methane emissions anywhere in the world 
will have a disproportionate warming impact in the Arctic, due to the 
fact that methane is also an ozone precursor. Tropospheric ozone, 
unlike other greenhouse gases, absorbs both infrared radiation and 
shortwave radiation (visible light). Thus, tropospheric ozone is a 
particularly powerful greenhouse gas over highly reflective surfaces 
like the Arctic, because it traps shortwave radiation both as it enters 
the Earth's atmosphere from the sun and when it is reflected back out 
again by snow and ice. Reducing global methane emissions will reduce 
ozone concentrations in the Arctic, providing a double benefit to the 
region.
    According to conservative projections by the U.S. EPA, about 500 
MtCO<INF>2</INF>eq of global methane emissions reductions could be 
achieved globally by 2020 at a cost benefit or no cost (EPA, 2006; 
Table 4, Figure 7). Nearly 70 MtCO<INF>2</INF>eq of these available 
reductions are in the United States (EPA, 2006; Table 2, Figure 6). The 
EPA estimates total technically feasible methane reductions for 2020 at 
over 2400 MtCO<INF>2</INF>eq globally and nearly 280 MtCO<INF>2</INF>eq 
in the U.S., many of which can be achieved at low cost (EPA, 2006; 
Tables 2 and 4; Figures 6,7).
    The EPA's cost projections are conservative for a number of 
reasons, including the use of a 10 percent discount rate. Using a lower 
discount rate would result in additional cost benefit or no-cost 
reductions. Moreover, the EPA analysis does not account for the value 
of significant air quality and health benefits that would accompany 
methane reductions. West et al. (2006) found that reducing global 
methane emissions by 20 percent would save 370,000 lives between 2010 
and 2030, due to the reduction in ozone related cardiovascular, 
respiratory, and other health impacts. Methane reductions would also 
decrease ozone-related damage to ecosystems and agricultural crops 
(West et al., 2006). Methane is the primary component of natural gas, 
and many abatement options include the use of captured methane to 
generate energy. The benefits of displacing other fossil fuel energy 
sources with captured methane are also not captured in the EPA (2006) 
analysis.
    While EPA (2006) may underestimate available no-cost and low cost 
methane (and other non-CO<INF>2</INF> gas) mitigation options, even 
this conservative analysis shows the enormous opportunities available 
to us today (Tables 1-4; Figures 6-7). These reductions can be achieved 
with technology available today. Moreover, mandatory greenhouse gas 
regulation will speed the development and deployment of new technology 
and mitigation options, making much deeper reductions feasible in the 
very near future.

1. The Waste Sector

    Methane produced in the waste sector comes from two main sources: 
landfills and wastewater. Landfills produced approximately 12 percent 
of all global methane emissions in 2000. Landfills provide one of the 
largest single sources of available emissions reductions, as the EPA 
(2006) estimates that 88 percent of landfill methane emissions could be 
abated with existing technology. Methane is produced in managed 
(sanitary) landfills due to the anaerobic decomposition of organic 
waste. Approximately 50 percent of landfill gas is methane and the 
other 50 percent is largely made up of carbon dioxide. Sanitary 
landfills are found predominately in developed countries. Open dumps 
that do not promote anaerobic conditions are more common in developing 
nations, but these countries are rapidly adopting landfill management 
techniques because of the many advantages of sanitary waste disposal. 
In the U.S., large landfills with capacity exceeding 2.5 megagrams (2.8 
million short tons) are regulated under the Clean Air Act.\1\ Despite 
the current programs in place, the U.S. is the largest source of 
landfill methane in the world, producing in 2000 nearly three times as 
much landfill emissions as the next largest producer, China (EPA, 2006: 
III-5).
---------------------------------------------------------------------------
    \1\ In March of 1996, EPA promulgated guidelines (61 Fed. Reg. 
9905) for controlling the emissions from existing Municipal Solid Waste 
landfills and the New Source Performance Standards for new or modified 
Municipal Solid Waste landfills under authority of Section 111 of the 
Clean Air Act. Although there are some differences in requirements for 
landfills constructed or expanded under different stages of the 
development of the regulations, in general the guidelines required the 
following:

1) Installation of gas collection and control systems for new and 
modified landfills designed to hold 2.755 million tons or more of waste 
over their lifetime, and that could be expected to emit more than 50 
---------------------------------------------------------------------------
megagrams per year of non-methane organic compounds (NMOC).

2) When any landfill reaches the above thresholds, it must within 30 
months install a gas collection and control system that covers all 
portions of the landfill. The collected landfill gas must be combusted 
at a high enough temperature to destroy 98 percent of the toxics.

3) Three conditions be met prior to capping or removal of the 
collection and control system: (1) The landfill must be permanently 
closed; (2) the collection and control system must have been in 
continuous operation a minimum of 15 years; and (3) the annual NMOC 
emission rate routed to the control device must be less than 50 
megagrams per year.
    Landfill methane can be abated either through capture and flaring 
or use for energy generation, or by diverting organic material from 
landfills and into composting and recycling-reuse programs. Landfill 
gases are already captured and flared at a number of U.S. landfills. A 
preferable option is to use the methane directly for electricity or 
heat generation, or to sell it to industrial users for energy use (EPA, 
2006). Using methane for energy generation, as opposed to simply 
flaring it, has the additional benefit of displacing the emissions that 
would have resulted from otherwise supplying the energy created.
    The second source of waste emissions is wastewater. Wastewater 
contributes approximately nine percent of global methane emissions 
(EPA, 2006). Domestic wastewater processing involves removing organic 
matter, solids, pathogens, and chemicals. These produce a biomass 
``sludge'' that is digested either anaerobically to produce methane, or 
aerobically to produce carbon dioxide. Approximately 45 percent of the 
sludge is usually digested, and the remainder is sent to landfills. The 
amount of methane produced is proportional to the organic content of 
the sludge.
    Industrial sources with especially high organic content include 
meat and poultry processing, pulp and paper processing, and produce 
processing industries. The EPA estimates that 77 percent of meat and 
poultry wastewater degrades anaerobically due to use of lagoons. 
Similarly, lagoons are used for pulp and paper processing.
    The abatement options for wastewater include: (1) reduced anaerobic 
digestion and (2) collection and subsequent flaring or utilization. 
Reductions in anaerobic digestion can be accomplished through aeration 
and reduced usage of settling lagoons. Collection is used in series 
with an anaerobic digester. The collected methane can be flared, or 
preferably used for energy generation. EPA (2006) states that because 
most centralized wastewater treatment facilities already either flare 
or use captured methane for safety reasons, the ``add-on'' abatement 
options to existing systems are limited. Large abatement opportunities 
depend primarily on the creation of managed wastewater treatment 
systems in developing countries, which will require large-scale 
structural changes in wastewater management practices (EPA, 2006). 
Because the primary motivation for the installation of improved 
wastewater treatment has historically been the direct public health 
benefits from disease prevention, EPA (2006) did not calculate cost 
estimates. The increasing use of centralized wastewater treatment 
facilities worldwide is clearly necessary and will bring enormous 
benefits both for public health and climate change mitigation.

2. The Energy Sector

    Enormous methane mitigation potential exists in the energy sector. 
The three main sources globally are natural gas systems (16 percent of 
total methane emissions), coal mining (six percent) and oil (0.95 
percent). Abatement opportunities from natural gas systems are 
particularly promising as natural gas is a rational transition fuel as 
the global economy is decarbonized. Oil is more carbon-intensive than 
natural gas, and coal the most carbon-intensive of all. Coal-fired 
power plants, and therefore coal mining, must be reduced and then 
eliminated. Nevertheless, methane abatement opportunities currently 
exist and should be implemented wherever mining continues. Mitigation 
opportunities are also available for abandoned coal mines.
    The United States is the top consumer of natural gas and is second 
only to the Russian Federation in methane emissions from natural gas 
systems. Methane emissions occur during production, processing, 
transmission and storage, and distribution of natural gas. There are a 
variety of mitigation options that address each of these stages.
    During extraction, the gas is passed through dehydrators to remove 
water and other liquids. It is then transported through lines to a 
processing facility for further refinement. The processed gas, which is 
95 percent methane, is then compressed and transmitted to storage and 
distribution facilities. Finally, the gas is decompressed to be 
distributed for home or commercial use.
    Leakage from lines and equipment is the main source of methane 
emissions. These emissions can be abated through a variety of methods, 
which can be broadly categorized as changes in operational practice, 
equipment upgrade and replacement, and though direct inspection and 
maintenance. A number of these measures will actually save the operator 
money, on the order of 20-25$/tCO<INF>2</INF>eq (EPA, 2006:II-27).
    The second largest source of energy sector methane emissions is 
coal mining. Methane is produced as organic matter turns to coal. It 
accumulates in pockets near a coal seam, and is eventually released 
during the mining process. More methane is produced by deeper seams. 
Because methane is dangerous, it is extracted and usually vented to the 
atmosphere. Some methane is also produced during coal processing and 
from abandoned mines.
    Abatement of mining-related emissions may be through one of three 
broad methods: (1) degasification, where methane is captured but not 
vented prior to operations; (2) enhanced degasification, which involves 
special drilling techniques and capture and use of methane; and (3) 
oxidation of ventilation air methane (VAM) to produce energy (EPA, 
2006). Approximately 57 percent of the methane obtained through 
degasification--the drilling of wells or boreholes prior to mining--can 
be piped out and sold for energy. If additional enrichment techniques 
are used to further refine the methane obtained during degasification, 
called enhanced degasification, approximately 77 percent of the methane 
may be sold for energy. Finally, approximately 97 percent of 
ventilation air methane, which is a much lower concentration, can be 
mitigated through oxidation and use for local energy. Due to its low 
concentration of methane, this gas is not suitable for distribution.
    Because the captured methane can be used or sold for energy, 
approximately 17 percent of emissions can be abated at no cost or 
positive economic benefit. At a cost of less than 15$ per 
tCO<INF>2</INF>eq, approximately 80 percent of emissions from coal 
mining could be eliminated. Profitable options have been addressed in 
EPA's Coalbed Methane Outreach Program started in 2001 to reduce and 
use coal mine methane (http://www.epa.gov/cmop/resources/
webbrochure.html).
    The third major energy-sector source of methane is oil production. 
Fugitive emissions are released during crude oil production, 
transportation, and refining (EPA, 2006). Oil production accounts for 
approximately 97 percent of these methane emissions. Methane emissions 
from onshore oil production are more easily captured and transported 
than those from offshore production.
    The major sources of production emissions are: volatilization of 
high pressure crude oil as it enters the holding tank, equipment leaks 
and vessel blowdowns (removal of liquids through pressurization), and 
fugitive leaks and combustion during flares (EPA, 2006).
    There are three abatement options: (1) flaring instead of venting; 
(2) direct use for energy; and (3) reinjection of the methane to the 
oilfield to enhance later oil recovery. Safety considerations make 
flaring more feasible at onshore facilities. This measure has the 
potential to reduce methane emissions by 98 percent over 15 years. 
Flaring is the least preferred mitigation option as it does not produce 
energy, thereby displacing other emissions, yet results in additional 
CO<INF>2</INF> emissions. The second option is the direct use of the 
methane for energy at offshore platforms, and has the potential to 
reduce 90 percent of methane emissions. The third option is to re-
inject the methane into the oilfield. This can reduce methane emissions 
by 95 percent over 15 years.

3. The Agricultural Sector

    Agriculture accounts for approximately 52 percent of global methane 
emissions, and these are expected to increase by 30 percent in 2020 
(over 2000 levels). The main agricultural sources of methane are rice 
fields and livestock. Methane emissions from rice fields occur due to 
anaerobic decomposition of organic matter in flooded rice fields. The 
majority (90 percent of emissions) of rice production occurs in Asia. 
Management practices that include variation in the timing of field 
flooding, tilling practices, and fertilization can reduce the amount of 
methane production.\2\
---------------------------------------------------------------------------
    \2\ Some agricultural practices which reduce methane emissions lead 
to an increase in nitrous oxide production, and thus mitigation options 
must be carefully tailored so that only measures resulting in a net 
decrease in greenhouse gas emissions are implemented.
---------------------------------------------------------------------------
    The second major source of agricultural methane is livestock. This 
includes both methane gas emitted by ruminants as a result of digestion 
(enteric fermentation) and methane emitted by manure. While all 
ruminants produce some methane, the majority of global methane emitted 
due to enteric fermentation comes from cows used for beef and dairy 
production. Switching to higher quality feed and lower volumes of feed 
can reduce methane from enteric fermentation because high quality feed 
increases the proportion of energy that is available for use by the 
animal and consequently reduces the amount that is wasted as 
methane.\3\ As a result, these mitigation options actually have a net 
economic benefit for the producer.
---------------------------------------------------------------------------
    \3\ High-energy feed, such as grain, can also increase the methane 
produced by the manure. However, the need for a trade-off between lower 
enteric fermentation emissions and manure emissions will be eliminated 
if manure emissions are mitigated through the use of digesters.
---------------------------------------------------------------------------
    Methane is also produced by manure during anaerobic decomposition. 
These conditions occur when liquid manure is stored in lagoons, ponds, 
tanks, and pits. The trend in the U.S. is to increasingly store manure 
under these conditions. Furthermore, duration of time stored in this 
manner and temperature affect the amount of methane that is produced.
    The mitigation options for manure methane involve different types 
of methane digesters that can capture the methane and produce energy. A 
manure digester is a system of containers to collect and biologically 
treat manure with naturally occurring microorganisms. The anaerobic 
environment facilitates the generation and capture of methane. The 
methane can then be burned to convert to CO<INF>2</INF>, and to produce 
heat and/or electricity. Digesters may also include systems to collect 
and separate solids. Large-scale digesters can be used for capture and 
off-site energy use while temperature digesters can be used at smaller 
facilities where the energy is used on-site.

C. Black Carbon or Soot

    Black carbon, or soot, consists of particles or aerosols released 
through the burning of fossil fuels, biofuels, and biomass (Quinn et 
al., 2007). Black carbon warms the atmosphere, but it is a solid, not a 
gas. Unlike most greenhouse gases that warm the atmosphere by absorbing 
longwave infra-red radiation, soot warms the atmosphere by absorbing 
visible light (Chameides and Bergin, 2002). Black carbon is an 
extremely powerful greenhouse pollutant. Scientists have described the 
average global warming potential of black carbon as about 500 times 
that of carbon dioxide over a 100 year period (Hansen et al., 2007; see 
also Reddy and Boucher, 2007; Bond and Sun, 2005). This powerful 
warming impact is remarkable given that black carbon remains in the 
atmosphere for only about four to seven days, with a mean residence 
time of 5.3 days (Reddy and Boucher, 2007).
    Black carbon contributes to Arctic warming through the formation of 
``Arctic haze'' and through deposition on snow and ice, which increases 
heat absorption (Quinn et al., 2007; Reddy and Boucher, 2007). Arctic 
haze results from a number of aerosols in addition to black carbon, 
including sulfate and nitrate (Quinn et al., 2007). Arctic haze may 
either increase or decrease warming, but when the haze contains high 
amounts of soot, it absorbs incoming solar radiation and leads to 
heating. In addition, aerosols may interact with clouds changing 
droplet number and size, which in turn can alter albedo, or 
reflectivity.
    Soot also contributes to heating when it is deposited on snow 
because it reduces reflectivity of the white snow and instead tends to 
absorb radiation. A recent study indicates that the direct warming 
effect of black carbon on snow can be three times as strong as that due 
to carbon dioxide during springtime in the Arctic (Flanner, 2007). 
Black carbon emissions that occur in or near the Arctic contribute the 
most to the melting of the far north (Reddy and Boucher, 2007; Quinn et 
al., 2007).
    Reductions in black carbon therefore provide an extremely important 
opportunity to slow Arctic warming in the short-term, and mitigation 
strategies should focus on within-Arctic sources and northern 
hemisphere sources that are transported by air currents most 
efficiently to the Arctic. Conversely, allowing black carbon emissions 
to increase in the Arctic as the result of increased shipping or 
industrial activity, will accelerate loss of the seasonal sea ice and 
extinction of the polar bear. Black carbon reductions will also provide 
air quality and human health benefits.
    Despite its significance to global climate change and to the Arctic 
in particular, black carbon has not been addressed by the major reports 
on non-CO<INF>2</INF> gas mitigation, nor is it explicitly addressed in 
current global warming bills in the 110th Congress. Black carbon 
reductions are an essential part of saving the Arctic sea ice and the 
polar bear, and should be addressed by Congress in this session.
    The highest priority sources for regulation include the following: 
diesel generators and residential stoves within the Arctic, ships 
operating in or near Arctic waters, diesel truck and automobile 
engines, and biomass burning.
    Specific measures that should be implemented include replacing 
diesel generators with alternative energy sources, improving the 
efficiency and/or particulate matter traps on residential stoves, or 
fuel switching in residential stoves.
    Ships operating in or near Arctic waters can introduce black carbon 
directly into the region and should therefore be stringently regulated. 
One of the simplest ways to reduce black carbon emissions from ships is 
simply to slow them down (Ballo and Burt, 2007:26). A ten percent 
reduction in speed can result in a 23.3 percent reduction in emissions 
(Ballo and Burt, 2007:27). Requiring ships to switch to cleaner, lower 
sulphur content fuels will also reduce black carbon emissions (Ballo 
and Burt, 2007:29). There are a variety of design changes available to 
increase the efficiency of ships and therefore decrease their emissions 
(Kleiner, 2007). Finally, shipping should be stringently limited in the 
Arctic, as discussed above.
    All diesel engines are a significant contributor to black carbon 
emissions. Emissions from diesel cars and trucks should be more 
stringently regulated (Jacobson, 2002). Abatement options include 
upgrading vehicles, installing end of the pipe filters, better vehicle 
maintenance, and buy out/buy back programs for super emitters.
    Emissions reductions from biomass burning and other sources are 
most important when the Arctic ice extent is relatively large (Quinn et 
al., 2007), and therefore regulating both the amount and timing of 
anthropogenic biomass burning can also reduce black carbon levels in 
the Arctic.
    Much more attention needs to be focused on identifying and 
implementing black carbon emissions from all sources.

D. Nitrous Oxide

    Unlike methane and black carbon, nitrous oxide and the high global 
warming potential gases discussed below do not have a disproportionate 
impact on the Arctic. Nevertheless, because these gases have high 
global warming potential, long atmospheric lifetimes, and because there 
are many readily available mitigation measures to reduce them, they 
present important opportunities for reducing global warming overall and 
are therefore an important part of saving the Arctic and the polar 
bear.
    Nitrous oxide has a global warming potential 310 times that of 
carbon dioxide and an atmospheric lifetime of approximately 120 years. 
It constitutes the second largest proportion of anthropogenic non-
CO<INF>2</INF> gases at seven percent. The main sources of nitrous 
oxide emissions are: agriculture, fossil fuel combustion, and 
industrial adipic and nitric acid production.

1. Agriculture

    Agriculture is the largest source of anthropogenic nitrous oxide 
(84 percent) (EPA 2006). These emissions are projected to increase by 
37 percent in 2020 (over 2000 levels). Agricultural nitrous oxide is 
produced primarily (1) through the processes of nitrification and 
denitrification of soil, (2) by livestock manure, and (3) from rice 
farming.
    Nitrous oxide emissions occur as a result of addition of nitrogen 
to the soil through fertilization, nitrogen-fixing crops, retention of 
crop residues, and cultivation of high organic content soil (peat or 
histosol) (EPA, 2006). Nitrous oxide emissions can also result from 
volatilization of applied nitrogen and runoff.
    In 2000, the United States' soil nitrous oxide emissions were 
second only to the former Soviet Union, and are predicted to surpass 
the FSU by 2010. Practices such as irrigation, drainage, tillage, and 
fallowing all influence nitrous oxide emissions.
    An important consideration when selecting abatement options is that 
a number of practices may reduce nitrous oxide emissions while 
increasing carbon dioxide emissions, resulting in a net increase in 
greenhouse gases. The abatement options presented below are those that 
do not result in increased carbon dioxide emissions.
    The options include reduced fertilization or more efficient 
fertilization, and no-till management to maintain at least 30 percent 
of the ground covered by crop residue after planting. The most 
effective fertilization option is the use of a fertilizer that includes 
a nitrification inhibitor. No-till, or conservation tillage, is 
effective primarily because it reduces carbon loss. The net reductions 
potential for croplands is approximately 24 percent, with 15 percent 
possible at zero net cost.
    Rice fields produce both methane and nitrous oxide. The cycle, 
however, is different for each of the gases so that some methods that 
reduce one gas may increase the other. Thus, management practices must 
be considered carefully to balance the effects. Shallow flooding, off-
season straw, and ammonium sulfate are the management practices that 
can reduce nitrous oxide emissions as well as methane emissions. The 
practice of mid-season drainage reduces methane substantially while 
increasing nitrous oxide. Yet, due to the magnitude of methane 
reduction, this practice results in a net reduction of equivalent 
greenhouse gases.
    The final major agricultural source of nitrous oxide is livestock 
manure. The practices outlined above for reductions in methane 
emissions from livestock manure also apply to reductions in nitrous 
oxide.

2. Industrial production

    The production of nitric and adipic acid account for approximately 
five percent of nitrous oxide emissions. Nitric acid accounts for 
approximately 67 percent and adipic acid accounts for approximately 33 
percent of emissions. Nitric acid is used in fertilizers as well as 
explosives, metal processing, and etching. Adipic acid is a component 
of nylon, synthetic lubricants and plastics, polyurethane resins, and 
plasticizers. It is also used in some artificial foods to impart a 
``tangy'' flavor.
    Plants that produce nitric acid and do not employ nonselective 
catalytic reduction may generate up to 19 kilograms of nitrous oxide 
per ton of nitric acid. The majority of plants in the U.S. do not use 
this technology, and approximately 80 percent of plants worldwide do 
not use it. Nitric acid plants can reduce their emissions by 90 to 95 
percent through high-temperature or low-temperature catalytic 
reduction. The costs are minor: approximately $2-$6/tCO<INF>2</INF>eq. 
The high-temperature option is less expensive and reduces nitrous oxide 
by 90 percent. The low-temperature option costs slightly more and 
reduces emissions by 95 percent.
    The abatement option for adipic acid plants is thermal destruction. 
This option costs only $0.50/tCO<INF>2</INF>eq and can reduce nitrous 
oxide emissions by 98 to 99 percent.

E. High Global Warming Potential Gases

    High global warming potential (High-GWP) gases fall into three 
broad categories: hydrofluorocarbons (HFCs), perfluorcarbons (PFCs), 
and sulfur hexafluoride. Hydrofluorocarbons were developed to replace 
ozone-depleting substances used in refrigeration and air conditioning 
systems, solvents, aerosols, foam production, and fire extinguishing. 
HFCs have global warming potentials between 140 and 11,700 times that 
of carbon dioxide, and their atmospheric lifetimes range from one year 
to 260 years, respectively.
    Perfluorocarbons are emitted during aluminum production and 
semiconductor manufacture (EPA, 2006). Their global warming potential 
ranges from 6,500 to 9,200 times that of carbon dioxide. In addition, 
they have extremely long atmospheric lifetimes, e.g., 10,000 and 50,000 
years for two common PFCs.
    The highest global warming potential exists in sulfur hexafluoride 
at 23,900 times that of carbon dioxide. Sulfur hexafluoride remains in 
the atmosphere for 3,200 years. Sulfur hexafluoride is used: (1) for 
insulation and current interruption in electrical power transmission 
and distribution; (2) during semiconductor manufacture; (3) to protect 
against burning in the magnesium industry.

1. Hydrofluorcarbons

a. Refrigeration and Air Conditioning
    Hydrofluorocarbons are used for refrigeration and air conditioning, 
solvents, foam manufacture, aerosols, and in fire extinguishers. The 
emission of hydrofluorocarbons related to refrigeration occurs during 
manufacturing and servicing, leaks during operation, and disposal. An 
indirect effect of using these systems is the use of energy and 
resulting emission of carbon dioxide. Thus, mitigation measures should 
be evaluated both for direct HFC emissions as well as carbon dioxide 
emissions.
    There are a variety of uses for refrigeration systems: household 
refrigeration, car air-conditioning, chillers for large spaces such as 
shopping malls as well as submarines and nuclear reactors, retail food 
refrigeration, cold storage warehouses, refrigerated transport, 
industrial refrigeration during manufacture, and residential and 
commercial air conditioning and heat pumps. Because a number of these 
systems currently use ozone-depleting substances that are being phased 
out as equipment ages, the impact of switching systems has been 
incorporated into the mitigation analysis (EPA, 2006).
    The abatement options fall into three categories: practice options, 
alternative refrigerant options, and technology options. Practice 
includes actions such as leak repair, refrigerant recovery/recycling, 
and sales restrictions on HFCs. The alternative refrigerants include 
ammonia, hydrocarbons such as isobutene, and carbon dioxide.
    Many of the abatement options carry a net economic benefit, such 
that the U.S. alone could reduce over 20 metric tons CO<INF>2</INF>eq 
emissions by the year 2020 at no cost or at a net economic benefit.

b. Solvents
    Solvents used in precision and electronic cleaning, and to a much 
lesser extent metal cleaning, have replaced ozone-depleting substances 
in a variety of ways, including substitution of HFCs and PFCs. There 
are three main mitigation options: (1) improved solvent containment and 
use of carbon absorption; (2) use of aqueous or semi-aqueous cleaning 
processes; and (3) conversion to different low-global warming potential 
compounds or organic compounds.
    The conversion to alternative compounds is a no-cost abatement 
option that could reduce baseline emissions by approximately 25 percent 
by the year 2020. Similarly, conversion to semi-aqueous cleaning 
processes would only cost approximately $0.67/tCO<INF>2</INF>eq.

c. Foam manufacture
    HFCs are used during the blowing process to produce foam. These 
emissions are expected to rise dramatically in coming years. Another 
ozone-depleting substance, hydrochloroflurocarbons (HCFCs), is still in 
use in developing countries, but will be phased out with time. The U.S. 
currently allows the use of HCFC-22, but not HCFC-141b.
    Emissions occur during the manufacture process, during foam 
application, while foams are in use, and when they are discarded. 
Abatement can be achieved through replacement of the blowing agent used 
in the manufacture process and proper disposal of appliance foam at 
end-of-life. Several of the replacement options would bring a net 
economic benefit. The total possible reduction from the predicted 2020 
baseline emissions is approximately 31 percent.

d. Aerosols
    Aerosols are used to propel a variety of products. After CFCs were 
banned in the U.S., some products began using HFCs as propellants. 
Medical applications, such as inhalers, currently still use CFCs, but 
these companies are developing HFC alternatives.
    Abatement of non-medical HFC emissions involves replacing current 
HFCs with other HFCs that have a lower global warming potential, 
hydrocarbon propellants, and other application methods such as hand 
pumps, roll-on applicators, and powders. All of these non-medical 
options can be achieved at no cost and would reduce current HFC 
emissions by at least 57 percent in the year 2020.
    Transitioning away from CFCs has proven to be a challenge with 
medical inhalers. One alternative for some patients, however, is the 
use of dry powdered inhalers. The use of this application method has 
the capability of reducing medical propellant HFC emissions by half.

e. Fire Extinguishing
    Halon was traditionally used in fire extinguishing systems--both 
portable fire extinguishers and ``total flooding'' systems that protect 
large spaces. Due to its ozone depleting characteristics, halon is 
being replaced in some instances with HFCs.
    Depending on the application, HFC systems can be replaced by inert 
gas systems, water mist systems, or fluorinated ketone systems. In 
addition, abatement can be achieved through recovery and reuse of HFCs 
and through improved detection mechanisms to prevent erroneous release 
in total flooding systems.

f. HCFC-22
    As mentioned above, HCFC-22 is an ozone depleting substances that 
is used in refrigeration, some solvents, and synthetic polymer 
production. One of the byproducts is HFC-23, which has a global warming 
potential of 11,700 times that of carbon and an atmospheric lifetime of 
260 years. The U.S. is close behind China as the second largest 
producer of HFC-23 emissions resulting from production of HCFC-22.
    There are several options for mitigating HFC emissions. 
Manufacturing optimization can maximize HCFC-22 production and minimize 
HFC-23 production at very lost cost. Thermal oxidation of HFC-23 by 
product can reduce 95 percent of HFC emissions. Oxidation costs only 
about $0.23/tCO<INF>2</INF>eq and can reduce HFC emissions at existing 
plants by 88 percent, even assuming that current plans to minimize 
HCFC-22 are implemented.
    At the commemoration meeting of the Montreal Protocol on September 
21, 2007, the U.S. and other developed nations agreed to a schedule of 
reductions that includes ceasing to use HCFCs by 2020, which is 10 
years sooner than previously agreed. Thus, the assumptions upon which 
the EPA 2006 report were based may be inapplicable.

2. Perfluorocarbons

a. Aluminum production
    The aluminum industry is the largest source of PFC emissions. PFCs 
are emitted when so-called anode effects occur during the smelting 
process. The amount of PFCs emitted depends directly on the number and 
duration of such events.
    Although the aluminum industry has taken voluntary reductions and 
has pledged further reductions, there are still mitigation options that 
should be implemented to further reduce emissions. The two main methods 
are: installation of computer control systems and installation of 
alumina point-feed systems. The computer control system is considered a 
minor retrofit and the alumina point-feed system is considered a major 
retrofit. The efficacy of these measures depends on the current 
technology used by the plant. They may reduce PFC emissions by up to 97 
percent when combined at some facilities. The implementation of these 
options can also come at an economic benefit in some facilities.

b. Semiconductor manufacturing
    The manufacture of semiconductors releases PFCs, sulfur 
hexafluoride, and HFC-23 primarily during plasma etching of thin films 
and cleaning chemical-vapor-deposition (CVD) chambers. Etching is 
estimated to account for approximately 20 percent of emissions, while 
CVD chamber cleaning accounts for approximately 80 percent. PFC 
emissions also occur as a by-product of reactions between other gases. 
The U.S. is the second largest emitter of PFCs, although it is a member 
of the World Semiconductor Council, which has committed to voluntary 
reductions in emissions.
    The most effective abatement option is nitrogen trifluoride remote 
cleaning technology. This system can reduce emissions by approximately 
95 percent. This option has a net economic benefit and when implemented 
could reduce baseline emissions by 42 percent, even assuming the 
industry meets its voluntary emissions reduction goal. The second most 
effective option is point-of-use plasma abatement during the etching 
process.

3. Sulfur hexafluoride

a. Electrical industry
    Sulfur hexafluoride is primarily emitted by the electrical 
industry. Sulfur hexafluoride is used as a dielectric insulator in 
transmission lines, sub-stations, and transformers. The United States 
is the largest emitter of sulfur hexafluoride. The electric industry 
has recently begun reducing its sulfur hexafluoride emissions, however 
much more remains to be done.
    Sulfur hexafluoride emissions can be reduced through sulfur 
hexafluoride recycling, leak detection and repair, and equipment 
refurbishment. Recycling presents the greatest opportunity for 
mitigation, with a net economic benefit and potential for emissions 
reduction of approximately 43 percent above and beyond currently 
planned reductions. Many companies already recycle sulfur hexafluoride. 
The average efficacy of their systems is 80 percent, but this could 
easily be increased to provide for 95 percent reductions in sulfur 
hexafluoride emissions. Leak detection and repair can reduce emissions 
that occur during operation. Finally, equipment refurbishment can also 
reduce emissions.

b. Magnesium production
    Sulfur hexafluoride is currently used as a cover gas during 
magnesium production to prevent spontaneous combustion. Essentially all 
of the sulfur hexafluoride is emitted into the atmosphere. The 
International Magnesium Association, representing 80 percent of the 
industry, has pledged to eliminate sulfur hexafluoride by 2011. They 
will do so by substituting different cover gases.
    Emissions can be abated by replacing sulfur hexafluoride with 
either sulfur dioxide or fluorinated gases. New technology has solved 
the toxicity, corrosion, and odor concerns associated with sulfur 
dioxide. Thus, it is can fully eliminate emissions that contribute to 
global warming, and is relatively inexpensive. The replacement of 
sulfur hexafluoride with fluorinated gases is also possible, although 
these gases still have global warming effects.

                     Biography for Kassie R. Siegel
    Kassie Siegel is Director of the Climate, Air, and Energy Program 
at the Center for Biological Diversity, a non-profit membership 
organization which c ombines conservation biology with litigation, 
policy advocacy, and an innovative strategic vision in working to 
secure a future for animals and plants hovering on the brink of 
extinction, for the wild areas they need to survive, and by extension 
for the physical, spiritual, and cultural welfare of generations to 
come.
    Siegel is a graduate of the Boalt Hall School of Law at the 
University of California, and has worked for the Center for Biological 
Diversity since 1998. She develops and implements campaigns and 
strategies for the reduction of greenhouse gas pollution and the 
protection of wildlife threatened by global warming, and also litigates 
cases addressing global warming under federal and State law.
    Siegel is the author of the Petition submitted by the Center for 
Biological Diversity in February 2005 seeking protection of the polar 
bear under the Endangered Species Act, and lead counsel of the lawsuit 
filed in December 2005 by the Center, Greenpeace and NRDC to compel the 
Bush Administration to respond to the Petition, which resulted in the 
January, 2007 proposal to list the polar bear as threatened under the 
Endangered Species Act. She has drafted similar petitions for other 
species threatened by global warming, such as twelve of the world's 
penguin species, including the Emperor penguin. Siegel is also a 
volunteer presenter for the Climate Project.

SELECTED PUBLICATIONS AND PRESENTATIONS

Cummings, B., and K. Siegel (in press). Biodiversity, Global Warming 
        and the United States Endangered Species Act: The Role of 
        Domestic Wildlife Law in Addressing Greenhouse Gas Emissions. 
        In Adjudicating Climate Control: Sub-National, National, and 
        Supra-national Approaches (W.C.G. Burns and H.M. Osofsky, 
        eds.), Cambridge University Press.

Cummings, B., and K. Siegel. 2007. Ursus maritimus: Polar Bears on Thin 
        Ice. Natural Resources and Environment 22, Number 2, Fall 
        2007:3-7.

Siegel, K. `CEQA and Global Warming Matters' Private Enforcement of 
        Environmental Law: Prosecuting and Defending Citizens' Suits, 
        The Environmental Law Section of the State Bar of California, 
        May 2007, Oakland, California.

Siegel, K., R. Fairbanks, and S. Sakashita `Global Warming and 
        Biodiversity,' 25th Annual Public Interest Environmental Law 
        Conference, March 2007, Eugene, OR.

Siegel, K. `Global Warming, Biodiversity, and the Endangered Species 
        Act,' Environmental Law Conference at Yosemite, The 
        Environmental Law Section of the State Bar of California, 
        October 2006, Fish Camp, California.

Siegel, K. `The No Surprises Litigation,' The Endangered Species Act 
        Conference, CLE International, June 2004, Santa Barbara, CA.

BAR MEMBERSHIPS

        <bullet>  Active member of California Bar (No. 209497); 
        admitted to practice before the California Supreme Court, the 
        U.S. District Courts for the Northern, Southern, Central, and 
        Eastern Districts of California, and the U.S. Court of Appeals 
        for the Ninth Circuit.

        <bullet>  Inactive member of Alaska Bar (No. 0106044); admitted 
        to practice before the Alaska Supreme Court.

                               Discussion

         Relation of Astrophysics to the Arctic and Polar Bears

    Chairman Miller. Thank you, Ms. Siegel. I now recognize 
myself for an initial round of questions.
    There was a Congressional Delegation, a Co-Del, of Members 
of this committee a couple months ago to Greenland; and I was 
part of the delegation, and it was striking. The scientists we 
talked to came from a variety of what appeared to be different 
disciplines that all intersected, the Arctic. They all called 
themselves snow and ice guys, but their disciplines were 
varied; and it took me a while to realize yes, that does have 
an intersection with research on the Arctic. Now, they also 
appeared to be kind of members of a fraternity. They all knew 
each other, knew each other's work, they'd hung out together 
probably in the few bars there are in Greenland, so they were 
familiar with each other's work.
    There is a recent paper on polar bears that paints a much 
more optimistic picture, Ms. Siegel, or Dr. Haseltine. And one 
of the authors is an astrophysicist which I have got to say 
still does not strike me. I still do not see the intersection 
of astrophysics and polar bears or the Arctic, but perhaps 
there is one that I am missing. The paper was by Dike and 
Willie Soon and Willie Soon is apparently an astrophysicist. Is 
astrophysics one of the disciplines that has an intersection 
with research in the Arctic or into polar bears? Dr. Alley? Dr. 
Juday? Dr. Haseltine?
    Dr. Haseltine. I have to say that we have an astrophysics 
branch at USGS that works with NASA, and we didn't use their 
models in projecting polar bears.
    Chairman Miller. I took that as a delicate way of saying 
no, you didn't really think astrophysics had a particular 
application in modeling--any of the rest of you know of any 
work being done by astrophysicists that pertain to projections 
of the climate and the arctic and the effect on polar bears?
    Dr. Alley. There has been a long interest in trying to sort 
out what of the changes that are occurring are natural and what 
of the changes occurring are human caused, and astrophysics 
feeds into this from one side because very clearly changes in 
the sun will affect the climate strongly. And there are 
hypotheses that are not very well validated that changes in 
cosmic rays or other things will matter. And so we do talk to 
astrophysicists on the climate end, and their output has been 
assessed and included in the work of the National Academy or 
the IPCC in saying with high confidence that the recent changes 
we see in the Arctic are not astrophysical, they are us.
    Chairman Miller. How about specifically the effect on polar 
bears?
    Dr. Alley. I personally--normally when I get to the point 
of talking about biology, I get a big smile on my face and I 
show pretty pictures of what I have seen, but I turn to an 
expert.
    Chairman Miller. Okay. And I assume that all of you kind of 
knew each other before this? You didn't meet the first time 
tonight, today, is that correct? Okay. You knew of each other? 
Knew each other by reputation at least, even if you hadn't had 
beers together in a bar on the Bering Sea. Are you familiar 
with Dr. Willie Soon other than from the recent paper, from 
research in this area?
    Dr. Juday. Yes, I try to keep up with the community in what 
is sometimes called the climate skeptics, and he has been 
prominent there. Sometimes I get good ideas of how to test some 
of what I think I am finding and take a more skeptical eye 
toward it.
    Chairman Miller. Ms. Haseltine, you look like you are ready 
to say something on this topic? Ms. Siegel, are you familiar 
with this paper and what is your take on it?
    Ms. Siegel. I am, Mr. Chairman, and I would like to point 
out that the paper was funded by the Charles G. Kotch 
Charitable Fund, American Petroleum Institute, and ExxonMobil, 
and that that authors include discredited climate deniers 
Willie Soon, David Legates, Sally Baliunas, and others. I would 
also like to point out that it was published as a viewpoint in 
the journal Ecological Complexity, not as a peer-reviewed 
science article. This is essentially an op-ed masquerading as a 
peer-reviewed science journal. The article was also based on 
the assertion that there is no significant warming trend in 
Western Hudson Bay, which is simply not true. Breakup now 
occurs three weeks earlier in western Hudson Bay than it did 30 
years ago. The sea ice is in fact declining in the Arctic. From 
late spring to breakup is the most important hunting time for 
polar bears when they eat large numbers of ringed seal pups. 
They now have less time on the ice to hunt. Body condition and 
cub survival have declined, and female polar bears that do not 
reach a certain minimum body weight cannot reproduce. The 
population has declined 22 percent from 1,200 bears in 1987 to 
less than 950 bears in 2004. Leading polar experts have said 
that suggestions that today's polar bear populations will be 
able to obtain food sources to replace seals caught on the ice 
surface is fanciful. Polar bears in western Hudson Bay during 
the ice-free months are in a hibernation-like state, a 
physiological state of fasting. They cannot replace extremely 
energy-intensive seal blubber with berries and opportunistic 
scavenging. Leading polar bear experts have stated that we must 
quickly and significantly reduce greenhouse gas emissions in 
order to save polar bears.
    Chairman Miller. Thank you. My time has now expired. Mr. 
Rohrabacher.

                        Ms. Siegel's Background

    Mr. Rohrabacher. Thank you very much, Mr. Chairman. Ms. 
Siegel, what is your degree in, educational background?
    Ms. Siegel. I did my undergraduate work in anthropology and 
economics, and I am an attorney.
    Mr. Rohrabacher. You have an undergraduate degree in?
    Ms. Siegel. Anthropology and economics from the College of 
William and Mary in Williamsburg, Virginia.
    Mr. Rohrabacher. I couldn't find that in your bio here. It 
just states you went to Boalt Hall?
    Ms. Siegel. Exactly, Boalt Hall at the University of 
California.
    Mr. Rohrabacher. Right, I know that. That is in Berkeley, 
is it not?
    Ms. Siegel. That is correct.
    Mr. Rohrabacher. The Chairman quoted Mr. Hansen earlier, 
Dr. Hansen, and I understand that Dr. Hansen has received a 
substantial amount of money for his research from George Soros 
who is a--of course to say is politically active is to put that 
mildly. Has anyone else here or the organizations you are 
associated with or you yourself received money from Mr. Soros 
or his foundations to do your research or your activities? Has 
your organization received any money from Mr. Soros?

                   Are Humans Causing Climate Change?

    Ms. Siegel. Not to my knowledge.
    Mr. Rohrabacher. Not to my knowledge. Very loyal answer. 
There is no question obviously that the Earth is going through 
a warming trend right now. There is no question about that. One 
realizes that the Earth warming trends perhaps dozens of times, 
and the major question is is this warming trend caused by human 
activity. If it is not, should we not be looking at adapting 
rather than arrogantly thinking that mankind can reverse what 
has been a trend of nature over these many hundreds of 
thousands, if not millions of years of the life of the planet? 
Let me just say, and of course we are looking at the effects of 
this in terms of polar bears, et cetera. One of the reasons 
some of us like myself are skeptical of some of these things is 
just that I remember very much the predictions of dire and doom 
for the caribou. We ended up building a pipeline across Alaska, 
and I don't have to ask you, you all know, that the caribou 
population has drastically expanded since that pipeline, 
although people were testifying before Congress and just as 
adamant as yourselves that the caribou population was going to 
be decimated by the fact that there would be a pipeline across 
Alaska. And quite often we hear people with these dire 
predictions in order to whatever, accomplish perhaps other 
political ends. This might be more consistent with what Mr. 
Soros has in mind. Let me ask you this. We know the ice cores 
and these testings that give us an understanding of climate 
change in the planet, apparently Dr. Timothy Ball, who is a 
former climatology professor at the University of Winnipeg, 
stated that the theory, and I quote, in theory the claim that 
if CO<INF>2</INF> goes up, temperature will go up is wrong. The 
ice core record for the last 420,000 years shows exactly the 
opposite, that indeed increases in the temperature bring about 
more CO<INF>2</INF>, rather than CO<INF>2</INF> increases 
bringing about the increase in the temperature, which of course 
leads directly to whether or not human kind is actually causing 
this increase in temperature. Now, Dr. Juday was mentioning how 
the methane gas is bubbling up as the temperature increases. It 
seems to me your testimony backed up Dr. Ball's observation, 
because what you were saying is that as the temperature has 
gone up there is more methane being put into the atmosphere. It 
would be wrong to say that methane increasing in the atmosphere 
was causing the temperature to go up, is that not correct?
    Dr. Alley. If I were to take my credit card and overspend, 
I would go into debt and then I would start to make interest 
payments which would contribute to my debt further. If your 
accountant were to try to understand my debt based solely on my 
over expenditures, your accountant would fail. If your 
accountant included the interest payments that were triggered 
by my going into debt, your accountant would succeed. What we 
know very clearly is that the ice age cycles referred to by Dr. 
Ball are caused by features of Earth's orbit.

                 Climate Change From the Earth's Orbit

    Mr. Rohrabacher. By what?
    Dr. Alley. Caused by features of Earth's orbit. Imagine 
that you are the sun for the moment, this is the Earth. My 
North Pole if it stood straight up would never get a sunburn 
from your brightness, but because it is inclined, I can get a 
sunburn on my North Pole; and the North Pole nods over 41,000 
years, more sunburn, less sunburn. That plus a wobble and a 
change in the shape of the orbit caused the ice age. But those 
changes from the ice age caused changes in CO<INF>2</INF> and 
in methane, and when we try to explain the very large change in 
temperature on the planet for the ice ages, if we assume that 
CO<INF>2</INF> and methane do not cause warming, no one has 
ever explained how big the changes are in the same way that 
your accountant could not explain my debt without including my 
interest payments. If we use the warming that is expected from 
the CO<INF>2</INF> and the methane, we explain what happened. 
And so in exactly the same way that the interest payments on my 
debt contribute to my debt, it must be included to explain my 
debt. The interest payments of CO<INF>2</INF> coming up with 
the warming contribute to further warming and must be included 
to explain that warming.
    Mr. Rohrabacher. I will have to admit that I don't 
understand a thing that you just said----
    Chairman Miller. You can ask further in the next round of 
questions.
    Mr. Rohrabacher.--but I will say that you did tend to 
indicate that the climate change that we have seen in the past 
at least was caused by changes, by the sun and by changes in 
the Earth rather than by human activity.
    Dr. Alley. Very clearly, the ice age cycle is not to our 
credit. It is nature's.
    Mr. Rohrabacher. Thank you.

                       Evidence of Climate Change

    Chairman Miller. Dr. Juday I think does want to respond. 
Dr. Juday?
    Dr. Juday. Yeah, I was trying to get the point across that 
there are these amplification mechanisms, and the initial push 
can be in the short-term solar variability, volcanic eruptions 
of the particular kind that can cool things down and the 
coupled atmosphere marine circulation patterns. I have a slide 
that is in the post-presentation phase there where I did a test 
of this, and it is a long-term record. It starts in 1917, and 
it shows the date of ice breakup on the Tanana River in Alaska. 
The crews that were building the Alaska railroad got bored, and 
so they did a lottery and so to the minute it has been done 
exactly the same way ever since. And by accounting for just 
exactly those factors, solar variability and solar cycle, there 
have been El Ninos and the couple of really big volcanic 
eruptions that we have had, take those out of that record, and 
they have a dramatic impact. When it is supposed to be cold, 
boy, we make it cold and the breakup is late; and when it is 
supposed to be warm, boy, they make it warm. Take them out. And 
what is left is a trend, and the only way to explain that trend 
is there is some underlying process. If you look further at the 
character of that process, what do you see? The daily high 
temperatures haven't changed all that much. The daily low 
temperatures have increased at the rate of three to three and 
one-half degrees C per century. Our growing season length has 
doubled. The winter temperatures have warmed.
    So something is happening that is dampening heat loss, not 
adding extra heat during the summer.
    Mr. Rohrabacher. Doctor, the only question is whether it is 
human-caused or not.
    Dr. Juday. The characteristics are exactly the 
characteristics of the way a greenhouse gas process works. So 
it matches, and if there is a better theory, I would pursue 
that.
    Mr. Rohrabacher. The sun.

                      Dr. Hansen and George Soros

    Chairman Miller. A couple points quickly. Dr. Hansen, I 
understand, denies the allegation that he has gotten money from 
George Soros. He is not here to defend himself. He is not a 
witness here today. He is a scientist at NASA. My understanding 
is that he is one of the world's leading climate scientists, 
but he has been charged with having received money from Mr. 
Soros, from George Soros. He says it is not true, and we have a 
statement from him actually in which he said that that is not 
true. So we will now enter that into the record.
    [The prepared statement of Dr. Hansen follows:]
                 Prepared Statement of Dr. James Hansen

                  . . .And Other Forms of Lawlessness

                           27 September 2007
    The latest swift-boating (unless there is a new one among seven 
unanswered calls on my cell) is the whacko claim that I received 
$720,000.00 from George Soros. Here is the real deal, with the order of 
things as well as I can remember without wasting even more time digging 
into papers and records.
    Sometime after giving a potentially provocative interview to Sixty 
Minutes, but before it aired, I tried to get legal advice on my rights 
of free speech. I made two or three attempts to contact people at 
Freedom Forum, who I had given permission to use a quote (something 
like ``in my thirty-some years in the government, I have never seen 
anything like the present restrictions on the flow of information from 
scientists to the public'') on their calendar. I wanted to know where I 
could get, preferably inexpensive, legal advice. Never got a reply.
    But then I received a call from the President of the Government 
Accountability Project (GAP) telling me that I had won the Ridenaur 
Award (including a moderate amount of cash--$10,000 I believe; the 
award is named for the guy who exposed the Viet Nam My Lai massacre), 
and offering pro bono legal advice. I agreed to accept the latter 
(temporarily), signing something to let them represent me (which had an 
escape clause that I later exercised).
    I started to get the feeling that there may be expectations 
(strings) coming with the award, and I was concerned that it may create 
the appearance that I had spoken out about government censorship for 
the sake of the $. So I called the President of GAP, asking how the 
nomination process worked and who made the selection. He mentioned that 
he either nominated or selected me. So I declined the award, but I 
continued to accept pro bono legal advice for a while.
    The principal thing that they provided was the attached letter to 
NASA. This letter shows me why scientists drive 1995 Hondas and lawyers 
drive Mercedes. I have a feeling that the reader of that letter had at 
least one extra gulp of coffee that morning.
    But it turns out that GAP has lost most of their cases in defending 
whistle-blowers. It is obviously not because they are crummy lawyers. 
Things are getting pretty tough in our country. It is still not clear 
to me what rights of free speech we actually have today.
    Some people think that things must have changed in our government, 
since I have been speaking pretty freely of late. That is mainly 
appearance. The (free speech) situation in NASA is good at the moment 
only because our Administrator made a strong statement. The rules as 
written, according to GAP, will allow the next Administrator, if he so 
desires, to hammer the free speaker. But the big problem is that the 
Offices of Public Affairs in most agencies, at the Headquarters level, 
have been staffed with political appointees, who in effect are running 
Offices of Propaganda (Mark Bowen has written a book about this, which 
will come out in December). Public Affairs people at the field centers 
are dedicated professionals, but political appointees occupy the 
Headquarters positions in Washington. I complained about this to a 
Government Reform committee in the House (littp://www.columbia.edtL/
jehl/20070319105800-43018.pdf), saying that there should be a law that 
Public Affairs must be staffed by professional civil servants, not 
political appointees. I did not seem to raise much interest. Too much 
reform for a Reform committee, I guess.
    The bottom line is: I did not receive one thin dime from George 
Soros. Perhaps GAP did, but I would be surprised if they got $720,000 
(that's a lot of Mercedes). Whatever amount they got, I do not see 
anything wrong with it. They are a non-profit organization. Seems like 
a great idea to have some good lawyers trying to protect free speech.
    By the way, in case anybody finds out that George Soros INTENDED to 
send me $720,000 but could not find my address, please let me know! We 
are pretty hard pressed here.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                         Scientists Named Steve

    Chairman Miller. I have a peculiar question that may take 
you a while to think about because we all know people named 
Steve. It may take us a second to think of who they are. One of 
the frustrations of dealing with what scientists think is that 
there are so many scientists. But there is a science blog 
called Panda's Thumb that has done kind of a canvas of the 
scientists named Steve. I thought that that was a more workable 
number of people. And when there is a dispute about what 
scientists think, rather than try to canvas all scientists, 
they try to canvas the scientists named Steve, an intriguing 
idea and one that probably makes statistical sense. It is 
probably a statistically valid sample. Do you know of any 
climate skeptics who believe that either the globe's climate is 
not changing, it is not warming, or that the cause is not human 
activity named Steve? You can get back to us on that.
    Dr. Alley. I am finding one right now.
    Chairman Miller. How about scientists named Steve? Can you 
think of scientists named Steve who believe that the world's 
climate is changing and it is warming and it is resulting in 
human activity, named Steve? Dr. Allen?
    Dr. Alley. Steven Schneider Stanford would be a good 
starting point.
    Chairman Miller. Okay. Dr. Juday, any Steves come to your 
mind?
    Dr. Juday. Yeah, there is one I thought of.
    Chairman Miller. Okay. Dr. Haseltine.
    Dr. Haseltine. I would say Steve Amstrup who is our lead 
polar bear biologist in Alaska and experiences conditions in 
the Arctic out in the field every year.
    Chairman Miller. Okay.
    Dr. Haseltine. He certainly believes the climate is 
changing.

                 Processes Leading to the Tipping Point

    Chairman Miller. So it is two to nothing among Steves that 
you can think of. Okay. But you all can think of other Steves 
and get back to this on what the Steves you know, the 
scientists named Steve, think. Dr. Alley, I understand that the 
IPCC probably had some difficulty of kind of projecting exactly 
what the processes were that would lead to the cascading 
effect, the tipping point that you talked about. How well are 
they accounted for, and particularly the ones we talked about 
today, the melting of the permafrost, the release of carbon 
dioxide and methane from the permafrost. How much was that 
considered in the IPCC modeling?
    Dr. Alley. It is not well included in the IPCC modeling. In 
fact, there is a statement in regard to the sea level rise that 
because of lack of inclusion of these carbon cycle feedbacks, 
which is what you are referring to, and because of lack of 
inclusion of understanding about the changes in the flow of the 
ice sheets, that they can provide neither a best estimate nor 
an upper limit on what sea level will do, and those were the 
two uncertainties that were especially highlighted.
    Chairman Miller. Anyone else? That seemed to be a question 
for Dr. Alley or anyone else. Congratulations by the way on 
winning the Nobel Prize.
    Dr. Juday. Mr. Chairman, I think to squeeze the last bit of 
uncertainty out of that question, we have one more piece of 
information that we need, which is we need to poke holes in the 
tundra and see if there is charcoal in them because the fact 
that we are seeing fires now, and it is warmer now and that 
makes it flammable doesn't quite rule out the possibility that 
it happened before. It is not reported, it is not known, 
everybody that I have spoken to who works in--charcoal, base of 
the tundra? No, no, no. But we have to do that work in order to 
be absolutely confident that this isn't already dialed into the 
system that we have now.
    Chairman Miller. Well, I will actually set an example and 
not use the last 18 seconds of my time. Mr. Rohrabacher?
    Mr. Rohrabacher. Thank you. I don't know if he ever signed 
his name Steve but I certainly know numerous other scientists 
who don't believe in the global warming that we are 
experiencing today as human-caused. I also note there is a 
scientist named Patrick Michaels who was the former Chairman of 
the Committee of Applied Climatology of the American 
Meteorological Society who suggests that all these reports of 
the melting of all the ice on Greenland are totally 
exaggerated. I have a quote here from----
    Dr. Juday. Congressman, if I can just clarify what I 
intended my response to be, all of the factors that can produce 
warming or cooling happen all at the same time, and all I was 
saying is that you have to account for all of them. It is a 
good thing when you are trying to quantify one to isolate it 
and see what strength its effect is, but then don't make the 
mistake of going back and saying, oh, the others don't happen. 
They all happen at the same time.

                Polar Bear Population Changes in Canada

    Mr. Rohrabacher. All I can suggest is there are a lot of 
people who, a lot of very, very well-known scientists, 
respected scientists throughout the world, people especially at 
the senior levels who are--that they believe that their fellow 
scientists have been influenced by the desire to get government 
grants for funding and the fact that since Bill Clinton became 
President of the United States, the bill all those years back, 
that in order to get those grants you had to believe global 
warming was caused by human beings. I have a statement here, 
several here, of scientists, Dr. Mitch Taylor, a polar bear 
biologist in the government there in Canada, and he is 
suggesting that the polar bear population is not going down. In 
fact, in 13 populations of polar bears in Canada, 11 are stable 
or increasing in number, another quote suggesting the polar 
bear numbers were actually underestimated in prior years and 
thus now in fact are not seeing this decrease as it is being 
suggested today. Are these two scientists just off or----
    Dr. Haseltine. I could respond to that. I believe the 13 
populations that you see quoted there are the 13 that at least 
have some of their territory in Canada. That is the number in 
Canada, and in the reassessment that we did over the last year, 
five of those populations are declining, two of them are 
depressed from over hunting, several of them are stable, I 
don't remember the exact number, and none of them are 
demonstrating to be increasing. So that is the----
    Mr. Rohrabacher. So Dr. Taylor, the head of this department 
there whose job it is to keep track of this, this isn't just a 
side desk, this is what his job is, is wrong and you are right?
    Dr. Haseltine. Well, I am quoting from the results of the 
study in a recent article by----
    Mr. Rohrabacher. Which is a study by the Geological Survey?
    Dr. Haseltine. Right, and a recent article by Ian Sterling 
who is one of the senior polar bear researchers for the 
Canadian Wildlife Service. And so I think this individual who 
works with Nunavut territories in Canada----
    Mr. Rohrabacher. Okay, well----
    Dr. Haseltine.--is using older information.

                   Naturally Occurring Climate Change

    Mr. Rohrabacher. Well, let me put it this way. There are 
experts who are not named Steve who are disagreeing with what 
the findings are of the people here today. Let us just note 
this that again, the central issue is whether or not all of 
these things are caused by human activity or not. Just 
coincidentally two nights ago the History Channel again ran, 
with updates quite often, its long documentary on the mini-ice 
age; and one of the facts I noticed there what they presented 
which is again showing how 1,000 years ago it was a lot warmer 
up in Greenland and Iceland and these places, a lot warmer than 
it is today. And in fact, I don't know what the polar bear 
population was at that time, and I am not sure that is not the 
natural number of polar bears we should have in the world as 
compared to now, but they did note that they said the volcanic 
activity during the mini-ice age was about five times greater 
than it has been over the last 150 years and that volcanic 
activity which they then went into with their scientists on the 
History Channel were indicating that volcanic activity actually 
creates a situation where the Earth would be warmer without 
that volcanic activity because it reflects the rays of the sun.
    So here we have only one degree or maybe one and one-half 
degrees warmer over the 150 years since the end of the mini-ice 
age, and we have five times less the volcanic activity which 
would tend to make it a warmer situation, not to mention 
sunspots or whatever else; there is a natural explanation for 
this as compared to the fact that we are driving in SUVs or we 
have industrialization which of course can in no way explain 
the warming that is also going on on Mars and Jupiter. So why 
is it that we should be so concerned and try to regulate human 
activity to save the polar bears when all of this may be just a 
natural occurrence?
    Chairman Miller. I was relieved to hear the word why, 
suggesting that there was actually a question there. We are now 
over the time, but you could respond briefly.
    Dr. Juday. I was lead author of a chapter of Arctic climate 
impact assessment in which we reviewed the evidence based on 
tree ring studies that gives us essentially a complete record 
from 8,000 years, and it shows the ups and downs of the 
climate; and I would just refer you to that if you would like 
to go through what has happened when, and I believe you can 
download it at www.acia.uaf.edu. You have brought up several 
different ideas there, and I just offer to talk to you to help 
untangle some of them and distinguish between two things, the 
empirical fact of what has happened and the interpretations of 
why, the attribution.
    Dr. Alley. Just to add, as you know, scientists float all 
kinds of wonderful ideas and smart ones and crazy ones and we 
bubble with ideas and then you help pay for activities that 
seek to assess these and to give you sort of what stands 
solidly and what is not solid, and those activities often come 
out of the National Academy of Sciences, they come out of the 
Intergovernmental Panel on Climate Change. Those groups have 
assessed these. They have looked at the effect of volcanoes, 
the effect of sun, the effect of other things and come to high 
scientific confidence that in fact you see our footprint now in 
what is going on. I would also like to add, and you were 
quoting a scientist earlier, suggesting that perhaps we are 
twirking our research to gain government grants and that we 
might not be completely honest in what we are doing? Sir, 
personally, I am under oath and I would never, ever, ever do 
that and I do not believe any of my colleagues would do that. 
Rest yourself absolutely assured that we are trying our hardest 
and we are not lying to you, sir.
    Mr. Rohrabacher. I will submit for the record at this point 
then several quotations from very respected scientists making 
that suggestion of others and who----
    Dr. Alley. I am under oath.
    Mr. Rohrabacher.--skewed research, et cetera, et cetera, in 
order to get government grants. I will be happy to submit those 
for the record.
    [The information follows:]
                        Submitted for the Record
                   by Representative Dana Rohrabacher

                   QUOTES FROM EMINENT SCIENTISTS ON

                     SEVERAL GLOBAL WARMING ISSUES

 Undue pressure and influence related to funding as well as political 
                             peer pressure

William Gray

Bio

Dr. William M. Gray is a world famous hurricane expert and emeritus 
Professor of Atmospheric Science, Colorado State University

Quote From an article in Discover, Vol. 26 no. 9, September 2005

``So many people have a vested interest in this global-warming thing--
all these big labs and research and stuff. The idea is to frighten the 
public, to get money to study it more.''

See http://discovermagazine.com/2005/sep/discover-dialogue/

``Researchers pound the global warming drum because they know there is 
politics, and money behind it.''

Richard Lindzen

Bio

Dr. Richard Lindzen is an atmospheric physicist, the Alfred P. Sloan 
Professor of Meteorology at MIT and a member of the National Academy of 
Science Lindzen is known for his research in dynamic meteorology--
especially atmospheric waves.

Quote From a Wall Street Journal op ed April 12, 2006; Page A14

``Alarm rather than genuine scientific curiosity, it appears, is 
essential to maintaining funding. And only the most senior scientists 
today can stand up against this alarmist gale, and defy the iron 
triangle of climate scientists, advocates and policy-makers.''

See http://www.opinionjournal.com/extra/?id=110008220

Quote From Environment News, November 1, 2004 Publisher: The Heartland 
Institute

``Global warming debate is more politics than science''

Dr. William Happer Jr.

Bio

Dr. Happer was named Eugene Higgins Professor of Physics and Chair of 
the University Research Board and is a Fellow of the American Physical 
Society, the American Association for the Advancement of Science, and a 
member of the American Academy of Arts and Sciences, the National 
Academy of Sciences and the American Philosophical Society.

Quote

When Director of Energy Research at the U.S. Department of Energy for 
two years, Happer was asked to leave. ``I was told that science was not 
going to intrude on policy.''

``With regard to global climate issues, we are experiencing politically 
correct science. Many atmospheric scientists are afraid for their 
funding, which is why they don't challenge Al Gore and his colleagues. 
They have a pretty clear idea of what the answer they're supposed to 
get is. The attitude in the administration is, `If you get a wrong 
result, we don't want to hear about it.' ''

See http://www.sepp.org/Archive/controv/controversies/happer.html

Dr. Petr Chylek

Bio

Dr. Petr Chylek is a member of the technical staff at Space and Remote 
Sensing Sciences, Los Alamos National Laboratory and an Adjunct 
Professor of Physics and Atmospheric Science, Dalhousie University, 
Halifax and New Mexico State University.

Quote

``Scientists who want to attract attention to themselves, who want to 
attract great funding to themselves, have to (find a) way to scare the 
public. . .and this you can achieve only by making things bigger and 
more dangerous than they really are.''

See http://www.sepp.org/Archive/weekwas/2001/Aug25.htm

Dr. Bjorn Lomborg

Bio

Dr. Lomborg is adjunct professor at the Copenhagen Business School, and 
author of the best-selling ``The Skeptical Environmentalist.'' He 
organized the ``Copenhagen Consensus'' which brought together some of 
the world's top economists.

Quote

``Its fear-mongering arguments have been sensationalized, which is 
ultimately only likely to make the world worse off.''

See http://www.opinionjournal.com/extra/?id=110009182

                          Cost of Mitigatiion

Patrick Michaels

Bio

Dr. Patrick Michaels is a senior fellow at the Cato Institute and a 
Research Professor of environmental sciences at the University of 
Virginia. He is a Past President of the American Association of State 
Climatologists and was Program Chair for the Committee on Applied 
Climatology of the American Meteorological Society.

Quote from an article ``Live With Climate Change'' in USA Today on 
February 2, 2007

``The stark reality is that if we really want to alter the warming 
trajectory of the planet significantly, we have to cut emissions by an 
extremely large amount, and--a truth that everyone must know--we simply 
do not have the technology to do so. We would fritter away billions in 
precious investment capital in a futile attempt to curtail warming''

See http://www.cato.org/
pub<INF>-</INF>display.php?pub<INF>-</INF>id=7502

                            Sea Level Change

Patrick Michaels

Bio

Dr. Patrick Michaels is a senior fellow at the Cato Institute and a 
Research Professor of environmental sciences at the University of 
Virginia. He is a Past President of the American Association of State 
Climatologists and was Program Chair for the Committee on Applied 
Climatology of the American Meteorological Society.

Quote from an article ``Global Warming: So What Else Is New?'' in the 
San Francisco Chronicle on February 2nd, 2007.

``As measured recently by satellite, and published in Science magazine, 
Greenland is losing .0004 percent of its ice per year, or 0.4 percent 
per century. All modern computer models require nearly 1,000 years of 
carbon concentrations three times what they are today to melt the 
majority of Greenland's ice. Does anyone seriously believe we will be a 
fossil-fuel powered society in, say, the year 2500?''

``A small but very vocal band of extremists have been hawking a 
doomsday scenario, in which Greenland suddenly melts, raising sea 
levels 12 feet or more by 2100.'' ``. . .it is repeated everywhere, and 
its supporters are already claiming that the IPCC'' . . . ``is now 
wrong because it has toned down its projections of doom and gloom.'' 
See www.cato.org/pubdisplay.php?pub<INF>-</INF>id=7543

                    Decline of Polar Bear Population

Dr. Mitchell Taylor

Bio

Dr. Mitchell Taylor, Polar Bear Biologist, Department of the 
Environment, Government of Nunavut, Igloolik, Nunavut

Quote

``Of 13 populations of polar bears in Canada, 11 are stable or 
increasing in number. They are not going extinct, or even appear to be 
affected at present,''

See http://ff.org/centers/csspp/library/co2weekly/20060505/
20060505<INF>-</INF>17.html

                          IPCC Climate Models

Fred Singer

Bio

Dr Fred Singer is an atmospheric physicist and Professor Emeritus of 
Environmental Sciences at the University of Virginia, adjunct scholar 
at the National Center for Policy Analysis, and former Director of the 
U.S. Weather Satellite Service.

Quote

``The models have erroneously predicted a 20th century surge in the 
Earth's temperatures to match surging CO<INF>2</INF>2 concentrations in 
the atmosphere. It hasn't happened.''

See http://potpourriessays.blogspot.com/2007/06/global-warming.html

Richard Lindzen

Bio

Richard Lindzen is an atmospheric physicist, the Alfred P. Sloan 
Professor of Meteorology at MIT and a member of the National Academy of 
Science Lindzen is known for his research in dynamic meteorology--
especially atmospheric waves.

Quote from the Sunday Telegraph, October 30 2006

``As the primary ``consensus'' document, the Scientific Assessment of 
the UN's Intergovernmental Panel on Climate Change notes, modelers at 
the United Kingdom's Hadley Centre had to cancel two-thirds of the 
model warming in order to simulate the observed warming.

``So the warming alarm is based on models that overestimate the 
observed warming by a factor of three or more, and have to cancel most 
of the warming in order to match observations.

``The temperature is as likely to go down as up.''

http://www.telegraph.co.uk/news/main.jhtml?xml=/news/2006/10/29/
nclimate129.xml

Kevin Trenberth

Bio

Dr. Kevin E. Trenberth is Head of the Climate Analysis Section at the 
National Center for Atmospheric Research. He has published over 400 
scientific articles or papers, including 40 books or book chapters.

Quote

None of the models used by IPCC are initialized to the observed state 
and none of the climate states in the models correspond even remotely 
to the current observed climate. In particular, the state of the 
oceans, sea ice, and soil moisture has no relationship to the observed 
state at any recent time in any of the IPCC models.

See http://blogs.nature.com/climatefeedback/2007/06/
predictions<INF>-</INF>of<INF>-</INF>climate.html

                       Reducing Methane Emissions

    Chairman Miller. Please do that, and Mr. Rohrabacher, you 
have promised to provide that list on several occasions for the 
record, and we have not gotten it at previous hearings, but we 
will certainly be happy to take that.
    It now appears that George Soros and ExxonMobil may be in a 
desperate competition to identify a scientist named Steve whose 
research they can fund. Ms. Siegel, it is true that you are not 
a scientist on this panel. You are a lawyer, but it appears 
that your testimony was the most hopeful of the testimony that 
we have heard today. The three scientists were less hopeful or 
their presentations were more grim than yours, but I do have a 
couple questions about what we can be doing which is part of 
your testimony as well. There is a landfill in my district. 
There are landfills in everybody's district, but in this one, 
it is being closed up, it is being covered over, and they are 
still pulling off the methane and piping it a mile or two away 
to a manufacturer who then uses that methane and burns it for 
energy. What is it that governments and corporations and 
individuals can be doing and are doing that would significantly 
reduce methane?
    Ms. Siegel. Thank you, Mr. Chairman. As you mentioned, we 
have enormous opportunities to reduce methane from the waste, 
the agriculture, and the energy sectors. One of the most 
important things we can do in the waste sector is to divert 
organic materials from landfills through composting, recycling, 
and reuse programs. Where that is not feasible, methane can be 
captured from the landfill gas and used to generate 
electricity. The U.S. EPA estimates that 88 percent or 110 
million metric tons could be abated this way in this country by 
2010, and 10 percent or 12 million metric tons could be abated 
at a cost benefit or no cost.
    We can also capture methane from wastewater treatment 
plants and use it to generate electricity. The biggest 
opportunities are in the developing world where EPA estimates 
there are approximately 600 million metric tons of 
CO<INF>2</INF>, equivalent methane emissions reductions sitting 
on the table. We don't have cost estimates for this, but it is 
clear that expanding wastewater treatment facilities in the 
developing world will have enormous public health benefits for 
disease prevention and greatly reduce methane emissions.
    In the energy sector, we also have enormous opportunities. 
One of the primary sources of methane from natural gas systems 
is through the leakage from lines and equipment, and there are 
many, many different measures that fall into three categories 
including operational changes, equipment upgrade and 
replacement, and better inspection and maintenance; and over 50 
percent of methane emissions, or 76 million metric tons, could 
be abated this way with technology available today. 14.5 
percent or 20 million metric tons could be done at a cost 
benefit of up to $25 per metric ton from the natural gas 
sector. Methane is also released from coal mining because 
methane is produced when organic matter turns to coal and is 
present in coal seams. We need an immediate moratorium on new 
coal-fired power plants and to ultimately phase out existing 
plants, and therefore coal mining as well; but nevertheless, it 
is foolish to allow methane emissions to continue where coal 
mining is still carried out for the time being. Nearly 50 
percent or 25 million metric tons of baseline emissions could 
be eliminated by the year 2010 in the U.S. at a cost benefit or 
no cost. About 86 percent could be eliminated for less than $15 
per ton.
    Also, in the agricultural sector, we have very important 
opportunities to capture methane from manure lagoons rather 
than just letting the manure sit in the lagoons and emit the 
methane using something called methane digesters. A digester is 
a system of containers to collect and biologically treat manure 
with naturally occurring microorganisms. The methane can then 
also be used to generate electricity.
    The EPA conservatively estimates that 11 million metric 
tons of CO<INF>2</INF> equivalent cost beneficial or no-cost 
emissions could be abated this way from the agricultural 
sector.

                    Action Items to Reduce Emissions

    Chairman Miller. Thank you. One other question about along 
the lines of action items, things that we can actually do. You 
mentioned black carbon and the role that black carbon plays in 
global warming. According to a recent NASA study, I assume it 
was a NASA study and not a George Soros study, it could have 
been by Dr. Hansen, black carbon which is really just 
particulate matter or soot. I think you used the word soot 
actually from industrial and biomass sources, is having a 
significant warming impact in the Arctic because it reduces the 
reflectivity of snow and ice. And according to NASA, about a 
one-third of the black carbon in the arctic was actually coming 
from South Asia and one-third from burning biomass or 
vegetation around the world and one-third from North America, 
Russian, and Europe. What can be done to reduce those sources 
and is it happening? Is anyone doing it?
    Ms. Siegel. The origin of black carbon that is deposited in 
the Arctic is a very important area for further research, but 
it is clear that the U.S. has a leadership role to play in this 
regard. There are many, many things that can be done. For 
example, we can replace diesel generators in the Arctic with 
alternative energy sources, and where that is not possible 
improve the efficiency and particulate controls on these 
generators. We can replace coal and biomass burning in 
residential stoves with alternative fuels or improve the 
efficiency in particulate traps. Stringently regulating diesel 
use in cars and trucks is very, very important and options 
include upgrading vehicles, installing end-of-pipe filters, 
better vehicle maintenance, and buyout/buyback programs for 
super-emitters. We also need to not approve new coal-fired 
power plants, phase out of existing coal-fired power plants by 
increasing energy efficiency in the use of alternative energy, 
and where coal-fired power plants must continue to operate for 
now, implement more effective particulate controls. If we did 
all these things we could start seeing progress by January 
2009.
    Chairman Miller. Thank you, Ms. Siegel. Mr. Rohrabacher.

                 Polar Bear Populations 1,000 Years Ago

    Mr. Rohrabacher. Thank you very much. I am just surprised 
that my staff had not submitted the quotes before, but we will 
be submitting these quotes for the record. One of them I just 
happen to have with me right now is from a Dr. William Grey who 
is one of the world's most respected hurricane experts and 
Emeritus Professor of Atmospheric Science at Colorado State 
University who suggests that so many people have a vested 
interest in this global warming thing, all these big labs and 
research. The idea is to frighten the public to get money to 
study it more. That is the end of that quote. And there are 
about dozens of other quotes that we will put at least five or 
six of them in the record. Dr. Grey is a respected person. 
There are many, many respected scientists who are skeptical not 
of the idea that the Earth is going through a warming trend but 
that this has something to do with human activity. Again, the 
show that I just happened to see on the History Channel, which 
repeated and it is a wonderful documentary, went into great 
detail about the sun and about volcanic activity and those 
things that caused the temperature to change then. Let me ask 
you this, 1,000 years ago before this mini-ice age, before this 
trend that brought the temperatures down, which I might add, 
all the studies that I have seen on global warming start at the 
bottom of the mini-ice age after 500 years reduction of 
temperature using that as the baseline, and you are one and 
one-half degrees warmer than it was at the lowest point, as if 
we should be concerned about that. Let us go back to that, the 
1,000 before. How many polar bears were there 1,000 years ago 
when the temperature was much different than it is today?
    Dr. Haseltine. I don't think we know the number of polar 
bears at that time. We do know that polar bears existed back 
then.
    Mr. Rohrabacher. If we say they can't exist if it is going 
to be warmer now, we could assume there are fewer polar bears. 
Now, is the number of polar bears 1,000 years ago what would be 
the natural polar bear population or is it what it is now?
    Dr. Haseltine. I don't believe there is a natural number of 
polar bears. There will be a number of polar bears that their 
habitat can support.

                 Climate Change Since the Last Ice Age

    Mr. Rohrabacher. I think it is wonderful to see these 
pictures of the skinny polar bear up there and tearing at our 
hearts, those of us who love animals, and I do; and so you say, 
then we have to do something which then gives us the right to 
have the acceptance of our people to regulate their lives in 
the name of saving that polar bear who now is thin as if we are 
causing the polar bear to be thin. But in reality, 1,000 years 
ago before any human activity had anything to do with 
temperatures on the planet, even if you accept that 1,000 years 
ago, the polar bear population was totally different. It was 
warmer. Maybe you could tell me what was the ice cap like or 
what was the level of ice in Greenland 1,000 years ago?
    Dr. Alley. Our observations are not as good as we would 
like, and we are working on that. The Climate Change Science 
Program is going to do a report on that, and I am one of the 
authors. So to be very clear, I cannot either prejudge or 
presize what that report will say.
    Mr. Rohrabacher. Well, what was Greenland like and what----
    Dr. Alley. What we can say is that Greenland seems to have 
responded to temperature. When it was warmer, it got smaller, 
when it was colder it got bigger and that we are now pushing 
toward temperatures that will pass those of the medieval warm, 
that will pass those of the----
    Mr. Rohrabacher. Well, no, no, we are one and one-half 
degrees warmer now than it was 150 years ago and we have so 
much less volcanic activity, et cetera. And it was how many 
degrees warmer was it 1,000 years ago?
    Dr. Alley. There are places--we do not have----
    Mr. Rohrabacher. In Greenland and Iceland?
    Dr. Alley. We do not have a reliable global--probably a 
degree or two, something in that neighborhood.
    Mr. Rohrabacher. What do the ice cores show us?
    Dr. Alley. The ice cores show a very small signal that is 
about one degree, one and one-half degrees or something in that 
neighborhood in the summit of Greenland which is the one I 
worked on----
    Mr. Rohrabacher. How much----
    Dr. Alley.--and that is based on my work.
    Mr. Rohrabacher. How much warmer was it when they had all 
these Vikings and everybody living in Greenland and Iceland and 
they have all this agriculture going on? How much warmer was it 
then? I think the History Channel put it at eight degrees to 10 
degrees warmer.
    Dr. Alley. That would seem very large to me. Ice core 
records would indicate that we are back up to where we were if 
not passing it.
    Dr. Juday. Yeah, that is probably the case. I, by the way, 
did a story, was interviewed, by a reporter from the Wall 
Street Journal and--farmer in Greenland. So we are back to 
about where we were 1,000 years ago. It is my suggestion if you 
want to find that warmer period to use, I would suggesting the 
hosing thermal maximum, the warmest it got since the end of the 
last ice age, and that would be in the range of 6,000 to 8,000 
years ago. It was warmer than it is now. It has been cooling 
since----
    Mr. Rohrabacher. All right, so 8,000 years ago there was a 
period with almost no ice up there, and we think that today----
    Dr. Juday. No, the tree line was further north. You can 
find frozen remains of the trees almost to----
    Mr. Rohrabacher. All right. So it was dramatically warmer 
1,000 years ago and 8,000 years ago.
    Dr. Juday. We are probably warmer now than 1,000 years ago. 
We probably exceeded that.

          Climate Change From Carbon Methane in the Permafrost

    Chairman Miller. We are past time. We do have votes coming 
up, so we do need to conclude the hearing. I just have one more 
question for Dr. Alley. You said that the permafrost and frozen 
peat, the possibility of release of carbon methane in the 
permafrost and frozen peat was a big hole in the modeling by 
the IPCC of how our climate could change and how our climate 
could warm, but you didn't say how much. Do you have a sense of 
how big the effect of that can be?
    Dr. Alley. What it looks like based on simple models based 
on what we know is that it doesn't--if we humans burn all of 
our fossil fuel, the feedbacks from the permafrost do not 
double what we did, but they are large enough that they 
wouldn't matter to what we would do.
    Chairman Miller. Large enough didn't matter?
    Dr. Alley. Yeah, so we scientists like to say order of when 
we are a little bit confused, so order of 10 to 30 percent sort 
of feedbacks coming out of this, amplifying what we would do in 
a burn it all.
    Dr. Juday. If you could take all of the rapidly 
decomposable carbon, because some of it is locked away in a 
form, and it is just not going to come out, but so that is 
killing everything and burning up everything, it would double--
it is equal to the atmospheric reservoir. So it would double 
atmospheric CO<INF>2</INF>, so we are not going to do that, 
even under the worst scenarios, but it does look like a 
significant percentage of non-renewable percentage of it could 
and probably has started to be mobilized.
    Chairman Miller. Anyone else? Okay. I think that our 
hearing is at a close. I want to thank all of you for 
testifying today. There may be additional questions that could 
be submitted in writing. You may think more about the scientist 
you know named Steve and provide additional answers. And with 
that, the witnesses are excused, and the hearing is now 
adjourned.
    [Whereupon, at 11:43 a.m., the Subcommittee was adjourned.]

                                   

</pre></body></html>
